<html>
<title> - RUSSIA SANCTIONS: CURRENT EFFECTIVENESS AND POTENTIAL FOR NEXT STEPS</title>
<body><pre>[Senate Hearing 115-371]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-371


  RUSSIA SANCTIONS: CURRENT EFFECTIVENESS AND POTENTIAL FOR NEXT STEPS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING THE IMPLEMENTATION AND EFFECTIVENESS OF THE SANCTIONS PROGRAM 
                   CURRENTLY IN PLACE AGAINST RUSSIA

                               __________

                            AUGUST 21, 2018

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs
                                
                                
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                


                Available at: https: //www.govinfo.gov /
                
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
32-576 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6d1d022d0e181e190508011d430e020043">[email&#160;protected]</a>                         


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                      MIKE CRAPO, Idaho, Chairman

RICHARD C. SHELBY, Alabama           SHERROD BROWN, Ohio
BOB CORKER, Tennessee                JACK REED, Rhode Island
PATRICK J. TOOMEY, Pennsylvania      ROBERT MENENDEZ, New Jersey
DEAN HELLER, Nevada                  JON TESTER, Montana
TIM SCOTT, South Carolina            MARK R. WARNER, Virginia
BEN SASSE, Nebraska                  ELIZABETH WARREN, Massachusetts
TOM COTTON, Arkansas                 HEIDI HEITKAMP, North Dakota
MIKE ROUNDS, South Dakota            JOE DONNELLY, Indiana
DAVID PERDUE, Georgia                BRIAN SCHATZ, Hawaii
THOM TILLIS, North Carolina          CHRIS VAN HOLLEN, Maryland
JOHN KENNEDY, Louisiana              CATHERINE CORTEZ MASTO, Nevada
JERRY MORAN, Kansas                  DOUG JONES, Alabama

                     Gregg Richard, Staff Director

                 Mark Powden, Democratic Staff Director

        John O'Hara, Chief Counsel for National Security Policy

              Kristine Johnson, Professional Staff Member

                 Elisha Tuku, Democratic Chief Counsel

            Laura Swanson, Democratic Deputy Staff Director

               Colin McGinnis, Democratic Policy Director

                       Dawn Ratliff, Chief Clerk

                      Cameron Ricker, Deputy Clerk

                     James Guiliano, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)


                            C O N T E N T S

                              ----------                              

                        TUESDAY, AUGUST 21, 2018

                                                                   Page

Opening statement of Chairman Crapo..............................     1
    Prepared statement...........................................    47

Opening statements, comments, or prepared statements of:
    Senator Brown................................................     2
        Prepared statement.......................................    47

                               WITNESSES

Sigal P. Mandelker, Under Secretary, Terrorism and Financial 
  Intelligence, and Acting Deputy Secretary, Department of the 
  Treasury.......................................................     5
    Prepared statement...........................................    49
    Responses to written questions of:
        Senator Brown............................................    77
        Senator Toomey...........................................    78
        Senator Cotton...........................................    78
        Senator Menendez.........................................    79
        Senator Tester...........................................    79
        Senator Warren...........................................    80
        Senator Donnelly.........................................    81
        Senator Schatz...........................................    82
Christopher Krebs, Under Secretary, National Protection and 
  Programs Directorate, Department of Homeland Security..........     6
    Prepared statement...........................................    70
    Responses to written questions of:
        Senator Brown............................................    83
        Senator Moran............................................    84
        Senator Tester...........................................    88
Christopher A. Ford, Assistant Secretary, Bureau of International 
  Security and Nonproliferation, Department of State.............     8
    Prepared statement...........................................    73
    Responses to written questions of:
        Senator Brown............................................    89
        Senator Toomey...........................................    90
        Senator Cotton...........................................    91
        Senator Menendez.........................................    92
        Senator Schatz...........................................    93

                                 (iii)

 
  RUSSIA SANCTIONS: CURRENT EFFECTIVENESS AND POTENTIAL FOR NEXT STEPS

                              ----------                              


                        TUESDAY, AUGUST 21, 2018

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:02 a.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Mike Crapo, Chairman of the 
Committee, presiding.

            OPENING STATEMENT OF CHAIRMAN MIKE CRAPO

    Chairman Crapo. This hearing will come to order.
    This morning the Committee will receive testimony from 
senior Administration officials from the Departments of 
Treasury, State, and Homeland Security on the implementation 
and effectiveness of the sanctions program currently in place 
against Russia.
    The reasons for these sanctions include Russia's standing 
military incursions in Ukraine; abetting Assad's atrocities in 
Syria; conducting cyberenabled information warfare activities 
and cyberattacks against United States critical infrastructure, 
including its malicious meddling in U.S. elections; and a host 
of other malign Russian activities.
    The Banking Committee plays a leading role in developing 
any legislation that proposes the use of sanctions and 
financial pressure, more especially those measures involving 
financial institutions, sovereign debt, and other financial 
instruments to address serious threats to the national security 
of the United States.
    Just about 1 year ago, on August 2nd, the President signed 
into law the Countering America's Adversaries Through Sanctions 
Act of 2017, known as ``CAATSA'', which included in it, among 
other things, authorities for not only a set of strengthened 
sanctions against Russia but also brand-new authorities for 
several powerful mandatory secondary sanctions.
    It was this Committee that put together the foundation for 
those sanctions and financial measures on Russia and then 
worked with the Committee on Foreign Relations to expand them 
as a part of CAATSA.
    CAATSA was truly a foursquare effort. It was not only 
strongly bipartisan but also bicameral. It passed the House by 
a vote of 419-3, and 2 days later by the Senate on a vote of 
98-2.
    It is not often that Congress acts together in such a 
strong manner, as marked by near-unanimous votes. But then 
Russia is a menace on so many different levels today that 
Congress can be compelled to act with a single voice to find 
solutions that will protect America and democratic values 
across the world.
    To its credit, the Administration, in the year since 
CAATSA, has imposed some of the toughest sanctions on Russia in 
years, particularly with regard to those imposed in April on 
Russia's oligarchs and their business associations.
    The bulk of sanctions imposed against Russia pertain to its 
unlawful invasion and annexation of Crimea. These were 
strengthened by Congress in CAATSA and, absent any other change 
in Putin's behavior, will likely remain in place until he is no 
longer in power and Crimea is returned.
    In all, over the last year the Administration has 
sanctioned over 200 targeted Russian individuals and entities, 
for either its cyberattacks or Ukraine behavior, either 
pursuant to congressional sanctions or under its own executive 
authority. I hope to receive an update today from our witnesses 
on how the sanctions against Russia are being implemented and 
enforced.
    It was a positive step when, 2 weeks ago, in response to 
Russia's use of a nerve agent in Britain against one of its 
former spies and his daughter, the State Department showed its 
resolve against Moscow while it took a stand with our British 
allies by imposing a set of escalatory sanctions under the 
Chemical and Biological Weapons Control and Warfare Elimination 
Act of 1991.
    The Administration is taking some important steps against 
Putin, his cronies, and the industrial apparatus they control. 
But can Congress expect more from the Administration? And when?
    Congress itself is positioned to do more. There are bills 
in this Committee and in the Foreign Relations Committee which 
seek to escalate economic pain throughout Russia's banking and 
energy sectors and sovereign debt markets.
    As we all--and that includes the Administration--consider 
next steps to further constrain Putin, including sanctions and 
other diplomatic initiatives, two questions come to mind:
    What degree of success have the existing evolutions of 
sanctions, which work to constrain the Russian economy and 
derail the activities of those individuals closest to Putin, 
had on Putin's behavior at home and abroad?
    And, second, what is the most effective way to coordinate 
and strengthen sanctions with our European allies and other 
partners?
    We will obviously have many more questions, but I am 
finished with that at this point.
    Senator Brown.

           OPENING STATEMENT OF SENATOR SHERROD BROWN

    Senator Brown. Thank you, Mr. Chairman. I am really glad 
you are holding this hearing. Thank you to our witnesses for 
serving in our Government. This is the first in the coming 
weeks on sanctions and other measures to more forcefully 
counter Russia's continuing efforts to attack the United States 
and our allies.
    While sanctions have had some effect on Russia's economy, 
it is less clear what effect they have had on its malign 
activities around the world. Russia remains in Crimea, its 
proxies are still in Eastern Ukraine, it serves as the arsenal 
of Assad, and it continues to attack our elections and other 
critical infrastructure.
    Earlier this morning Microsoft issued a new report 
outlining Russian attacks on the U.S. Senate and on think 
tanks, mostly anti-Russia or anti-Trump think tanks, one of 
which hosts an important kleptocracy initiative targeting 
oligarchs close to Putin. True to form, the Kremlin promptly 
denied involvement. That is nonsense. The President should call 
it that and forcefully respond.
    Our Government--we and the President both--must right now 
send a more powerful and direct message to Putin and those 
within his circles: ``We know what you are doing. It must stop. 
And if it continues, if you continue, you and your Government 
will pay a dear price.'' So far the President has basically 
been AWOL, undercutting even modest efforts of professionals in 
Treasury, in State, in DHS, and the intelligence community.
    Over a year ago, Congress gave the President, as the 
Chairman just said, the authority to use more assertive 
sanctions against Russia. My colleagues and I have pressed for 
nearly a year for stronger CAATSA implementation. After months 
of waiting, we requested assessments by the Inspectors General 
of the intelligence community, State, and Treasury Departments.
    These hearings and these IG audits are not simply a 
reaction to the President's startling performance in Helsinki, 
which was widely panned on both sides of the aisle and both 
sides of the Atlantic. There is a deeper problem. With a few 
exceptions, the President has refused to forcefully use the new 
authorities under CAATSA.
    Let me give one example. Administration officials 
identified Russians responsible for supplying chemical weapons 
components for use in Syria, the ones that killed and maimed 
men, women, and children. Our U.N. Ambassador announced the 
imminent imposition of sanctions. The next day they were 
withdrawn, reportedly on orders from the President.
    Instead, the Administration requested that a broader waiver 
to Section 231 be included in the defense bill, basically 
because the President could not certify the key condition of 
the existing waiver: that Russia was reducing its cyberattacks 
against the United States.
    I think it was a bad idea to use the recent defense bill to 
relax waiver authorities on Russian defense and intelligence 
sector sanctions. Instead of strengthening sanctions, we have 
gone in the opposite direction.
    That is why the Administration continues to face fierce 
bipartisan criticism from this Committee, from this body, on 
its Russia policy, why a new round of oversight hearings is 
being convened--and I give the Chairman credit for that--and 
why members on both sides are proposing new sanctions.
    In addition to urging the Administration to use CAATSA more 
aggressively, I think most of us agree Congress should also do 
more to increase pressure. Congress crafted tough Russia 
sanctions enacted last August by overwhelming majorities in 
both chambers. We should build on that.
    We should focus on the facts and broader strategic 
questions: What is Russia's Government still doing in Syria and 
Ukraine? What active cyberattacks are they directing against 
our elections and critical infrastructure? What powerful 
economic, trade, financial, diplomatic, and political tools can 
we deploy now to deter those attacks?
    Russia's election interference, confirmed unanimously by 
U.S. intelligence earlier this year and reaffirmed again today, 
poses a problem that goes far beyond foreign policy and strikes 
at the core of our democracy. In no way is this a partisan 
issue.
    We are 77 days away from another election, and the Director 
of National Intelligence, Microsoft, and others have been 
sounding the alarm that the warning lights are flashing red 
again. And while some efforts are being made to bolster State 
election security measures and otherwise contain these threats, 
it appears little is being done to address their source: 
Russia's Government.
    I know my constituents are clear-eyed about these threats. 
The Ukrainian community in Ohio and around the world knows 
firsthand--like our NATO allies Latvia, Lithuania, Estonia--the 
dangers of unchecked Russian aggression.
    That is why we should not only press to more aggressively 
implement current Russian sanctions, but we must also 
strengthen our response. New bipartisan sanctions measures have 
been introduced. These hearings are a critical next step.
    Thank you to the three of you for joining us today. I am 
interested to hear where we are, what effects, if any, the 
current sanctions regime is having on Russia's economy and, 
more importantly, on its behavior, and your ideas on how we 
will more forcefully confront these threats in the months to 
come.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you, Senator Brown.
    Today we will hear testimony from three Administration 
officials who deal firsthand with confronting the Russia 
threat.
    We will first hear testimony from Ms. Sigal Mandelker, the 
Acting Deputy Secretary and current Under Secretary of Treasury 
for Terrorism and Financial Crimes, who is the country's chief 
sanctions architect.
    Next we will hear from Mr. Christopher Krebs, the Under 
Secretary of Homeland Security at the National Protection and 
Programs Directorate, who is responsible for reducing, if not 
eliminating, then recovering from threats to our Nation's cyber 
and communications and other infrastructure.
    And, finally, we will hear from Dr. Christopher Ford, the 
Assistant Secretary of State responsible for the Bureau of 
International Security and Nonproliferation at the State 
Department, who can provide us with some valuable insight on 
challenges with Russia.
    As you can see, Members of the panel, we have a very good 
attendance, and a number of those who are not here are at a 
different hearing on Russia in the Foreign Relations Committee. 
And because of that I thank you, first of all, for your written 
testimony. It is extremely helpful to us. I ask you to honor 
and remember the 5-minute rule for your oral testimony so we 
can get through the questioning period from our Senators. And I 
also remind our Senators that we have a 5-minute rule, and we 
will try today to stick very closely to that.
    With that, Ms. Mandelker.

STATEMENT OF SIGAL P. MANDELKER, UNDER SECRETARY, TERRORISM AND 
FINANCIAL INTELLIGENCE, AND ACTING DEPUTY SECRETARY, DEPARTMENT 
                        OF THE TREASURY

    Ms. Mandelker. Thank you. Chairman Crapo, Ranking Member 
Brown, and distinguished Members of the Committee, thank you 
for inviting me here today to speak on behalf of the Treasury 
Department and provide an update on our comprehensive efforts 
to counter Russia's malign activity. Our efforts, taken 
together with our partners across the U.S. Government and 
around the world, are guided by a clear understanding of the 
threat Russia poses to the United States and to our friends and 
allies.
    As this Committee is well aware, Russia seeks to challenge 
the United States and its allies in a variety of ways. They are 
continuing their occupation of Crimea and ongoing aggression 
against Ukraine. They are attempting to subvert Western 
democracies, including our own, through election interference. 
They have used chemical weapons in an attempt to assassinate a 
British citizen and his daughter in the United Kingdom. They 
are perpetrating malicious cyberattacks, and they are 
facilitating sanctions evasion and other illicit activity 
across the globe. The breadth and brazenness of Russia's malign 
conduct demands a firm and vigorous response.
    Precisely for this reason, Treasury's Russia sanctions 
program is among our most active and impactful. Since January 
2017, this Administration has sanctioned 229 Russian-related 
individuals and entities for a broad range of access, 212 of 
which were sanctioned by there's Office of Foreign Assets 
Control, including a number this morning.
    Indeed, we have issued Russia-related measures in 7 of the 
last 9 months in a number of different actions. In doing so, we 
have targeted a veritable ``Who's Who'' of Russia's most 
prominent companies. These include Russia's primary State-owned 
weapons trading company, one of the largest independent power 
companies in Russia, and a major Russian oil company. Our 
targets also include the heads of major State-owned banks and 
energy firms, such as VTB Bank and Gazprom, as well as some of 
Putin's closest associates. These figures include Putin 
affiliates Oleg Deripaska and Viktor Vekselberg, as well as 
Putin's son-in-law.
    Indeed, those who deal with such persons risk being 
targeted by our powerful secondary sanctions authorities under 
CAATSA. Sanctioning these Russian individuals and entities has 
made them radioactive. We have made clear to the world that 
those who choose to continue to do business with them do at 
their own peril.
    That CAATSA was passed by a near-unanimous vote 
demonstrated great resolve by Congress to counter Russia's 
malign activity, and we share that resolve.
    As companies across the globe work to distance themselves 
from sanctioned Russian persons, our actions are imposing an 
unprecedented level of financial pressure on those supporting 
the Kremlin's malign agenda and on key sectors of the Russian 
economy, as the impacts of our Russia-related actions are felt 
far and wide.
    Indeed, Treasury's actions have extensively impacted the 
financial interests of targeted individuals and entities. Our 
oligarch sanctions alone have substantially reduced the net 
worth of those individuals and their companies. Similarly, 
other companies designated for their links to Crimea have been 
forced to cut production and have lost business relationships 
with foreign commercial partners.
    In addition, we have cutoff malicious cyberactors from the 
U.S. financial system and beyond, including those providing 
offensive cybercapabilities to the Russian intelligence 
services and covertly working on behalf of the Kremlin to 
interfere with the 2016 U.S. election.
    In addition to sanctions, we are also strategically and 
smartly deploying Treasury's other economic authorities to 
disrupt Russia's illicit financial conduct and harden the 
international financial system against its predation. And we 
regularly engage our foreign allies and partners, especially 
those in Europe, to coordinate these efforts and augment the 
impact of our sanctions and our other actions.
    By strategically leveraging all of our complementary 
authorities, we are increasing financial pressure on Russia to 
advance our national security priorities while simultaneously 
mitigating collateral impacts on the United States, our 
European allies, and the global economy.
    There is no question that we have imposed major costs on 
Russia. Yet the significance of our actions and our other 
financial measures must ultimately be measured in terms of 
their strategic impact. Though Russia's malign activities 
continue, its adventurism undoubtedly has been checked by the 
knowledge that we can bring even more economic pain to bear 
using our powerful range of authorities--and that we will not 
hesitate to do if its conduct does not demonstrably and 
significantly change.
    Thank you.
    Chairman Crapo. Thank you.
    Mr. Krebs.

   STATEMENT OF CHRISTOPHER KREBS, UNDER SECRETARY, NATIONAL 
  PROTECTION AND PROGRAMS DIRECTORATE, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Krebs. Chairman Crapo, Ranking Member Brown, Members of 
the Committee, thank you for the opportunity to discuss the 
Department of Homeland Security's ongoing efforts to mitigate 
cybersecurity risk to our Nation's critical infrastructure. 
Safeguarding and securing cyberspace is a core homeland 
security mission in an area that I have the honor to lead for 
DHS.
    Malicious cyberoperations remain one of the most 
significant strategic threats to the United States, holding our 
national security, economic prosperity, the integrity of our 
democracy and public health and safety at risk. Over the past 
several years, network defenders in both Government and 
industry have seen the threat landscape grow more crowded, 
active, and dangerous. In fact, 2017 was one of the most costly 
and active in terms of global cybersecurity incidents, 
including the ``WannaCry'' ransomware incident attributed to 
North Korea and the ``NotPetya'' malware incident attributed to 
Russia. DHS and our interagency partners also worked with 
industry to identify and alert on Russian Government efforts to 
infiltrate domestic energy infrastructure.
    But adversary actions did not begin or end in 2017. 
Russia's attempts to interfere in the 2016 U.S. Presidential 
election are well and widely known, as are their activities to 
interfere in other elections in Western Europe. With the 2018 
midterm just around the corner, we are working aggressively to 
support State and local efforts to secure elections.
    This partnership with election officials is representative 
of one of two core anchors of the U.S. deterrence strategy. 
Those two anchors are defense in depth to minimize or eliminate 
adversaries' success and impose costs with strong consequences 
from malicious behavior. My partner agencies here at the 
hearing have equities in both denial and consequences, but my 
organization, the National Protection and Programs Directorate, 
is almost exclusively focused on defense through protection of 
critical infrastructure.
    Our approach is one of collective defense, emphasizing the 
shared responsibility of cybersecurity across industry and 
Government. We work through partnerships that identify 
stakeholder requirements, align unique capabilities to gaps, 
and add value and enable more effective security and risk 
management outcomes. We are focused on sharing information 
related to the threat and potential mitigation measures to 
improve defenses, leading integrated, coordinated industry and 
Government planning to address systemic risk, and conducting 
incident response to limit harm and inform defensive measures.
    We manage these activities out of operational centers 
within NPPD, my organization, that prioritize collaboration 
across the full range of stakeholders--industry or Government. 
Our National Cybersecurity and Communications Integration 
Center, or NCCIC, operates at the intersection of private 
sector, State and local governments, Federal agencies, 
international partners, law enforcement intelligence, and 
defense communities. The operational focus of the NCCIC is 
near-term, day-to-day cybersecurity risk management, providing 
stakeholders with a 24-by-7 steady-state capability to address 
today's cybersecurity challenges.
    We also work with stakeholders to develop information-
sharing venues for affinity groups. Recently, working with 
election officials, we established the Election Infrastructure-
Information Sharing and Analysis Center, or EI-ISAC. All 50 
States participate in what is the fastest-growing ISAC.
    The recently announced National Risk Management Center 
provides a forum for Government and industry collaboration on 
understanding risk and developing solutions for reducing cyber 
and other systemic risk to national and economic security. The 
operational focus of the National Risk Management Center is 
longer-term strategic risk, providing a cross-Government and 
industry capability to address tomorrow's challenges. Through 
the NRMC, we will partner with innovative industry coalitions 
like the Financial Systemic Analysis and Resilience Center and 
the Council to Secure the Digital Ecosystem, aiming to break 
down sector-based silos to craft a more holistic understanding 
of national risk and the integrated strategies to drive down 
that risk.
    Our mission at DHS is to ensure that our stakeholders have 
the necessary tools and support to understand and act on risk. 
In the face of increasingly sophisticated threats, DHS is 
stepping up our efforts to defend the Nation's critical 
infrastructure from malicious cyberactivity. We are working to 
better evolve our protection of critical functions from Nation-
State and other malicious activities.
    And before I close, I would like to thank Congress for the 
legislative progress thus far in strengthening DHS' 
cybersecurity and critical infrastructure authorities. Now we 
must move on to the next step: to create the Cybersecurity and 
Infrastructure Security Agency, or CISA, at DHS, which would 
see our organization, the National Protection and Programs 
Directorate, renamed and established as a new agency, an 
operational agency. Establishing this agency would enhance DHS' 
ongoing efforts as the focal point for private sector and 
Government stakeholders in support of our Nation's 
cybersecurity. We strongly support this much-needed effort and 
urge quick action by the Senate to pass this into law.
    Thank you for the opportunity to appear before the 
Committee today.
    Chairman Crapo. Thank you.
    Mr. Ford.

 STATEMENT OF CHRISTOPHER A. FORD, ASSISTANT SECRETARY, BUREAU 
 OF INTERNATIONAL SECURITY AND NONPROLIFERATION, DEPARTMENT OF 
                             STATE

    Mr. Ford. Thank you, Chairman Crapo, Ranking Member Brown, 
and Senators. In light of the important role of this Committee 
in particular, as you outlined, Mr. Chairman, in international 
sanctions, I thought I would try to contribute today by 
explaining a bit of how we are employing the tools that 
Congress has given us vis-a-vis Russia in order to push back 
against the various malign activities of the Putin regime. I 
will focus in particular on Section 231 of CAATSA because that 
has fallen to my Bureau, the Bureau of International Security 
and Nonproliferation, to implement.
    In passing CAATSA last year, Congress made very clear that 
its intention was to pressure Russia to change its behavior 
with respect to a very wide variety of malign acts, including 
in response to Putin's effort to interfere in our own 
Presidential election in 2016.
    We have heard that message from Congress loud and clear, 
but I want to stress also that these sanctions tools have value 
in a broader arena of great-power competition and geopolitical 
competitive strategy. This is an important theme for our 
Administration.
    The new National Security Strategy calls out ``the contest 
for power'' as ``[a] central continuity in history,'' and it 
warns about challengers--specifically, ``the revisionist powers 
of China and Russia, the rogue States of Iran and North Korea, 
and transnational threat organizations''--that are, as it 
describes, ``actively competing against the United States and 
our allies and partners.''
    Similarly, Mr. Chairman, the National Defense Strategy 
observes that ``[t]he central challenge to U.S. prosperity and 
security'' today is ``the reemergence of long-term, strategic 
competition.'' ``It is increasingly clear,'' that Defense 
Strategy says, ``that China and Russia want to shape a world 
consistent with their authoritarian model--gaining veto 
authority over other Nations' economic, diplomatic, and 
security decisions.'' The National Defense Strategy notes that 
``[b]oth revisionist powers and rogue regimes are competing 
[with us] across all dimensions of power.''
    And this mindset, Mr. Chairman, is one that we bring to 
approaching CAATSA with respect to Russia. Russia has 
undertaken a campaign of malign activities in its attempt to 
compete with us, our allies and our partners. And CAATSA 231 
gives us more tools with which to respond.
    We are focusing in particular upon transactions with the 
Russian arms industry for multiple reasons. First of all, these 
are often the same arms that Russia itself uses and continues 
to use for aggression against Ukraine, for example. The world 
should shun transactions of that sort.
    Second, as Willie Sutton is reported to have said when 
asked why he robbed banks, ``That is where the money is.'' 
High-technology military equipment is one of the only 
competitive sectors of the Russian economy these days, and 
Moscow makes a good deal of money from selling arms abroad. 
These funds fuel the Kremlin's malign activities, spread its 
influence, and support Russia's development of newer and even 
more deadly weapons, and so we use sanctions tools to go after 
those revenues.
    But, more broadly, Russia continues to use its arms 
transactions as a tool of geopolitical influence. For Russia, 
it is not just about money, but about the relationships that 
its arms trade creates. Scaling back and shutting down Russia's 
arms deals and deterring such transactions in the future strike 
directly at the Kremlin's malign activities and its influence, 
and that is the philosophy that we bring to implementing 
Section 231.
    Naturally, we seek to cooperate with Russia wherever we can 
on issues of shared interest because that is important for the 
security of the world. But where we need to push back, we do 
so, and we do so hard. And we have hard real successes in using 
the availability of CAATSA sanctions and the threat of such 
penalties in deterring and dissuading transactions with the 
Russian arms business.
    There are billions of dollars in transactions that have not 
occurred and will not occur thanks to the tools that Congress 
has given us and our ability to use those to provide diplomatic 
leverage. That is billions of dollars that Putin's war machine 
will not get and through which the Kremlin's malign influence 
will not spread, and a slew of relationships between the 
Kremlin and its would-be arms clients that will not occur or 
broaden or deepen.
    So we have not yet had, in fact, the opportunity, the need 
to actually impose CAATSA sanctions yet, in part because we are 
in the business of trying to make sure that those dogs do not, 
in fact, bark. We want these things to be conspicuous by their 
absence, and we are making good progress in dissuading and 
deterring transactions from occurring.
    We are not reluctant to do this, and if circumstances 
warrant, we will certainly be forthright and vigorous in 
applying the full breadth of the available penalties. But I 
want to stress how important our successes have been to date in 
making sure that billions of dollars of transactions do not 
occur.
    In my written remarks, which I would ask, Mr. Chairman, be 
submitted as part of the record, I outline a series of 
principles through which we approach implementation of Section 
231. I would be delighted to talk about any or all of those as 
the course of the hearing progresses, but let me simply 
conclude by making the point that we are applying these as a 
vigorous tool of competitive strategy to make sure that we do 
as much as we can with those tools to undermine Russia's 
ability and willingness to use its malign behavior as a way to 
accrue its own strategic advantage around the world. We are 
starting to have significant successes here, and I would be 
happy to talk about these and take any other questions that the 
Committee would like as this time goes forward.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you, Mr. Ford.
    I will start with you, Ms. Mandelker. As a number of you 
have said and we have said in our introductory remarks, there 
have been a number of sanctions imposed against Putin, his 
cronies, and the industrial apparatus they control. What type 
of sanctions have had the most impact on Putin? And what is the 
best strategy to change his behavior on either the Ukraine and 
cyberintrusions?
    Ms. Mandelker. Thank you, Chairman Crapo, for that 
question. We have had, as I already mentioned, well over 220 
sanctions across the interagency since the beginning of this 
Administration, and the impacts of our sanctions have been felt 
in a number of very significant ways.
    I would point as an example to the designations that we had 
in April against Russian oligarchs and very close associates to 
Putin, as well as a number of senior foreign officials. In 
addition to the oligarch sanctions, we also designated entities 
that were 50 percent owned or controlled by those that we 
designated, and as a result of those designations, we have seen 
a number of very significant impacts, as we have sent the clear 
message to those that surround themselves with Putin that there 
are very grave consequences for their involvement with him in 
malign activities around the world.
    As you saw in those oligarch sanctions, the net worth of 
the individuals who we designated as well as the net worth of a 
number of other Russian oligarchs decreased substantially. The 
companies that they own or control similarly suffered great 
consequences. We continue to see the impact of those 
designations in a number of different ways.
    Similarly, we have had very substantial designations 
against Russia's largest weapons trading company, against a 
very significant power company, energy company. Our sectoral 
sanctions not only remain in place since the beginning of the 
Administration, but thanks to CAATSA, we have tightened the 
directives that govern those sectoral sanctions. And, likewise, 
we are seeing a very significant impact on the Russian economy, 
on their energy projects, and the like.
    Chairman Crapo. Can Congress expect more designations from 
the Administration? And when?
    Ms. Mandelker. Absolutely, Senator. In fact, this morning 
we issued designations, Russia-related designations, both in 
connection with our North Korea program where we designated 
Russian shipping companies and business owners as well as 
Russian vessels. We also designated entities and individuals 
that have been involved in sanctions evasion by an entity that 
we recently designated in connection with their work with 
Russia's intelligence sector. Of course, we did so this 
morning, and you will without a doubt continue to see more from 
this Administration.
    Chairman Crapo. Thank you. Again, I do want to--I might 
have to come back and ask my questions of Mr. Krebs and Mr. 
Ford, but, Ms. Mandelker, Russian firms subject to sanctions 
have restrictions in place on their ability to borrow from U.S. 
capital markets. The Russian Government, however, can still 
sell bonds to U.S. investors and use the proceeds as loans to 
Russian firms under sanctions.
    Does this ability to invest in Russian sovereign debt 
undercut the intent and effectiveness of existing U.S. 
sanctions?
    Ms. Mandelker. Senator, pursuant to CAATSA, the Treasury 
Department issued a report on Russian sovereign debt earlier 
this year. I know Secretary Mnuchin has commented on that 
report. I would leave it there. Of course, I know that there 
continues to be concern about ongoing investment with Russia 
which has as a general matter very significantly declined since 
the beginning of this Russia program.
    Chairman Crapo. All right. Thank you.
    Mr. Krebs, the United States is currently in its primary 
and special election season right now. The 2018 midterm 
elections are now 11 weeks away, and you mention in your 
testimony that, as a result of assessing activity in the 2016 
election, DHS is actively increasing awareness of potential 
vulnerabilities and providing capabilities to enhance U.S. and 
allied election infrastructure.
    What authority or other help does DHS and its stakeholders 
need to better secure U.S. election infrastructure?
    Mr. Krebs. Sir, thank you for the question. I certainly 
think that since 2016 we have made significant progress in 
terms of securing America's election infrastructure. As I 
mentioned in my opening statement, I think the one piece of 
legislation that I need within my organization is the 
Cybersecurity and Infrastructure Security Agency Act. I think 
that will streamline my organization and make us more effective 
in terms of engaging our stakeholders. You have to remember 
that my authorities are almost entirely voluntary, and so what 
I have to be able to do is clearly articulate who I am, what it 
is I do, and how I can help. And right now the National 
Protection and Programs Directorate does not really provide me 
that platform to describe those efforts.
    Chairman Crapo. All right. Thank you.
    Senator Brown.
    Senator Brown. Ms. Mandelker, in April, our U.N. Ambassador 
announced that Russian companies who had helped Syria make and 
deploy chemical weapons would be sanctioned. On the Sunday 
shows she said that Secretary Mnuchin ``will be announcing 
those Monday, if he has not already,'' and they will go 
directly to the sort of companies that were dealing with 
equipment related to Assad and chemical weapons use. The next 
day, those sanctions were pulled back, reportedly on orders 
from the President.
    My question is this: When she spoke, had entities that 
aided in the chemical weapons attacks been identified and 
cleared through the usual interagency process?
    Ms. Mandelker. Senator, I am not going to get into 
interagency discussions. As you may be aware, in April we did 
designate Rosoboronexport in connection with our Syria 
authorities. We have designated other Russian--and its 
subsidiary bank. We have designated other Russian entities in 
connection with our Syria----
    Senator Brown. I am sorry. I have a limited amount of time. 
Of course, the sanctions were pulled back that she announced, 
correct?
    Ms. Mandelker. Again, Senator, I am not going to get into--
--
    Senator Brown. Well, I know you do not--but the answer is 
yes or no, that the sanctions were pulled back?
    Ms. Mandelker. I am not going to get into those interagency 
discussions, Senator----
    Senator Brown. No, this is not an interagency discussion. 
This was--the sanctions were pulled back. I am not asking did 
President Trump do it personally. I am just asking, the 
sanctions were pulled back, correct, that she announced?
    Ms. Mandelker. We did not on that Monday announce 
additional Syria-related designations, but we have subsequently 
announced a number of very tough designations in connection 
with Russia.
    Senator Brown. I do not understand why you cannot tell me 
what happened. You do not want to go into interagency 
discussions, but you cannot tell me what happened. The 
sanctions were or were not pulled back. She announced them. 
They did not happen. That would suggest pulled back, stopped. 
Choose your own verb. You may not want to talk about what 
happened in the interagency discussions, but facts are facts, 
even today in this country.
    Ms. Mandelker. Again, you are asking me to comment on what 
happened within the interagency. Any particular set----
    Senator Brown. No, I am asking you--I am not asking you for 
discussions within the interagency. I am asking you, had the 
interagency actually identified and cleared them, and then what 
happened between her announcement and the inaction taken. But 
apparently you are not going to answer that.
    Let me ask a question of you and start with Mr. Ford and 
then back to Ms. Mandelker. Powerful sanctions authorities 
Congress gave you last year, at least as applied so far, have 
not worked to compel Russia to scale back its aggressive 
behavior against the U.S. and its allies. All three of you 
spoke to that. There is still a lot of room for the 
Administration to use powerful authorities provided in CAATSA 
that this body 98-2 gave you on corrupt oligarchs and defense 
and intelligence sector most responsible for many of these 
cyberattacks, other areas.
    If you would spell out, Mr. Ford, what is your plan to 
ratchet up pressure on the Kremlin in the short term prior to 
the elections to deter future attacks? Is it going after the 
personal assets of Putin and his cronies? Is it sanctioning 
State-owned entities like VEB, the Kremlin slush fund? Is it 
sanctioning Russia's sovereign wealth fund? What steps?
    Mr. Ford. Thank you, Senator. With respect to influencing 
Russia's behavior, there are obviously several ways that we try 
to approach this. I mentioned the one of trying to cut back 
specifically their arms transactions influence and revenues.
    More broadly, I would like to make the point also that this 
is only in part--obviously, the objective is to change Russia's 
behavior. But even were Russia's behavior not to improve as 
fast as we wished that it would, we think that these approaches 
we are taking are having an impact in changing others' behavior 
toward Russia in ways that will leave Russia less able to 
engage in its ongoing campaign of malign activities. It will 
not have as many resources, as many partners with which to 
work. If we stigmatize dealings with Russia in varieties of 
ways, they will be less able to exercise that influence, even 
to the degree that they still wish to engage in it. That is 
part of the chilling effect that we seek to achieve by economic 
sanctions more broadly. It is part of the effect that we are 
trying to achieve across the board here as well.
    So it is not just about influencing Russia directly. It is 
about having an influence upon the net impact of Russian 
behavior in the aggregate across the international community.
    So with that as a predicate, I am not in a position to sort 
of forecast exactly what steps we will take. We are as a matter 
of very high diplomatic priority putting a lot of emphasis both 
with our partners, in conjunction with our partners, and 
directly to the Russians on the importance of them 
understanding that we are firmly of the view that this kind of 
malign activity and further activity of this sort to which you 
were referring, sir, were it to occur, we would continue to 
confront Russia with painful, sharp, and stern consequences. 
They need to know that.
    Senator Brown. Thank you, Mr. Ford. Is it especially 
important to announce bluntly and aggressively ahead of time 
what price Putin will pay if he engages in attacks on our 
elections?
    Mr. Ford. We are making it very clear, Senator, that there 
will, of course, be consequences, and painful ones, if they 
engage in additional unacceptable conduct. We also think it is 
important not to be too specific about that. This is not a game 
of forecasting or trying to encourage the Kremlin to study to 
test. But it is a game in which we are making it very clear 
that this behavior is not acceptable and will not be tolerated. 
We are trying to do that mindful of all of the things with 
which we agree with Congress.
    It has been very clear, for example, in talking about 
CAATSA legislation that there is a powerful desire here in 
Congress, which we share, to signal that Russia's malign 
activities are unacceptable and to try to deter them in the 
future.
    We also understand and agree with what appears to be 
Congress' clear view that it is important to do that in ways 
that do not have grave and unforeseen consequences for other 
aspects of our U.S. interests, whether that is issues of U.S. 
jobs and the economy and competitiveness or the relationships 
that we need to maintain with allies and partners and friends 
around the world, including that are important to us with 
respect to Russia policy.
    So we are trying to find the sweet spot between all of 
these various competing approaches, and we are grateful for the 
tools that Congress has given us to provide diplomatic leverage 
to that effect.
    Chairman Crapo. Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman, and I want to 
thank my colleagues for letting me jump the line here.
    Ms. Mandelker--am I pronouncing your name right?
    Ms. Mandelker. Yes, Senator.
    Senator Kennedy. OK. Does Mr. Putin personally own assets 
in the United States?
    Ms. Mandelker. Senator, I would defer to my colleagues in 
the intelligence community, and I would be happy to talk to 
them about providing you a briefing on that subject.
    Senator Kennedy. Well, they are not here, but you are. So 
let me ask you again. Does Mr. Putin personally own assets in 
the United States?
    Ms. Mandelker. Again, Senator, that is not something that 
we can discuss in an open or public setting, but we would be 
happy to sit down with you and provide a classified briefing 
with our intelligence community colleagues.
    Senator Kennedy. Mr. Krebs, do you have anything to add to 
that?
    Mr. Krebs. No, sir.
    Senator Kennedy. How about you, Dr. Ford?
    Mr. Ford. No, Senator.
    Senator Kennedy. OK. If he did personally own assets in the 
United States, why would we not as a sanction consider seizing 
them, hypothetically?
    Ms. Mandelker. Hypothetically, Senator, if any Russian 
oligarch or senior leader had assets in the United States, of 
course, that is an action that we would consider undertaking, 
assuming it is within our legal authorities to do so.
    Senator Kennedy. Well, this is just my opinion, but here is 
what I think: I think Mr. Putin does own assets in the United 
States, and I think that Treasury knows what those assets are. 
And whether we do it in a classified or unclassified setting, 
that is above my pay grade. But I would like us to have a frank 
and honest discussion about the ramifications of seizing those 
assets. Would you object to that?
    Ms. Mandelker. Not at all, Senator.
    Senator Kennedy. OK. Last question. Dr. Ford, let us 
suppose that the President of the United States came to you and 
said, ``Look, I have had enough. Crimea, Ukraine, Syria, 
chemical weapons, meddling in American elections. I hate to do 
it, but I want to bring the Russian economy to its knees.'' How 
would you do that?
    Mr. Ford. Well, Senator, I am afraid I am not enough of an 
economist to have a real crisp, off-the-cuff answer for you. I 
certainly would hope and expect that we would approach any 
challenge the President gives us with the kind of----
    Senator Kennedy. Excuse me for interrupting. I want to keep 
my--it sounds like you are not going to answer, so no offense, 
I am going to keep moving.
    Mr. Krebs.
    Mr. Krebs. I would have to defer to the other experts. We 
are focused on defending American infrastructure.
    Senator Kennedy. All right. That is fair. I appreciate your 
candor.
    Ms. Mandelker.
    Ms. Mandelker. Senator, were we to have any conversation 
along those lines, of course, we would want to consider what 
the global ramifications would be of taking those kinds of 
actions. So as I have already mentioned----
    Senator Kennedy. OK. Let us put the global ramifications to 
the side for a moment, though; then we can talk about the 
ramifications. Your task is to bring the economy to its knees. 
How would you do that?
    Ms. Mandelker. Again, Senator, I do not think you can have 
a discussion about how to bring Russia's economy to its knees 
without having a full understanding of what the global 
consequences would be of taking certain kinds of actions. We 
have----
    Senator Kennedy. OK. Well, how about telling me what you 
would do and then telling me the consequences so we do not get 
the two mixed up?
    Ms. Mandelker. Again, Senator, we have taken a number of 
very aggressive actions targeting the Russian economy----
    Senator Kennedy. I know that.
    Ms. Mandelker. ----in very strategic, targeted, and 
impactful ways.
    Senator Kennedy. But the economy has not been brought to 
its knees. Look, I do not want to use my time--if you are not 
going to answer the question, just tell me.
    Ms. Mandelker. Again, Senator, we would be happy to have a 
conversation with you about that, but I think it is important 
that in any conversation where we are talking about very 
significant actions, we also have an understanding of what the 
global consequences would be. I think that is the responsible 
way to have that conversation.
    Senator Kennedy. I just asked you to tell me those. I am 
out of time. Sorry, Mr. Chairman. Sorry, guys, I could not do 
any better. I tried to get answers.
    Chairman Crapo. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    I just came back from the Senate Foreign Relations 
Committee, which is also having a hearing on U.S.-Russia 
policy, and while that Committee obviously deals with foreign 
policy, this Committee's jurisdiction over economic tools to 
promote our foreign policy is incredibly important, so I 
appreciate today's hearing.
    Let me just ask you all, clearly, notwithstanding what the 
Congress has passed into law, what the Administration has 
enforced through your own testimony elements of that law, it is 
fair to say, is it not, that Russia has not been deterred in 
its actions and malign activities? Is that a fair statement?
    Ms. Mandelker. I think, Senator, we are seeing a number of 
consequences as a result--and impacts as a result of the 
actions that we have taken. There is no question that we 
continue to see Russian malign activity and Russian malign----
    Senator Menendez. Well, today Microsoft announced that, in 
fact, there are attacks on the U.S. Senate and on some 
venerable conservative institutions. That is a continuing 
action. As far as I know, Russia is still annexing Crimea and 
engaged with their regular forces in Eastern Ukraine. As far as 
I know, Russia is propping up Assad in Syria. And I could go 
down through a list.
    So for the most part, I think it would be fair to say that 
Russia has not been deterred in terms of its activities.
    Ms. Mandelker. I think it is very fair to say that Russia 
is continuing to engage in a wide range of malign activity that 
causes us grave concern.
    Senator Menendez. OK. So on that we are agreed.
    Now, with that as something that is a reality, obviously 
what we are doing, notwithstanding all the efforts of Congress 
and the Administration to date, has not deterred them in these 
malign activities in a way we would like to see, which is the 
purpose of sanctions in the first place.
    So I know that Senator Graham and I have legislation called 
``Defending American Security From Kremlin Aggression.'' I know 
that my colleague on the Committee with Senator Rubio also has 
the DETER Act. I am sure there are other initiatives. Maybe the 
Chairman is thinking of some with Senator Corker.
    The bottom line is instead of telling us what is wrong with 
these ideas and pieces of legislation, why don't you tell us 
what, in fact, we can do to turn up the pressure on Moscow that 
we are not?
    Ms. Mandelker. Senator, you know, in the last year, as you 
have seen, we have taken a number of very aggressive actions in 
connection with our Russia sanctions program, including a 
number of actions under----
    Senator Menendez. Madam Secretary, I do not need you to 
regurgitate and eat up my time by telling me what you have 
done. What you have done we have just collectively agreed has 
not moved the ball in a way we would like to see. So what I am 
saying--it is not a confrontational question. It is a question 
of--Congress is going to act. You might as well know that. I 
have been through Administrations, both Democratic and 
Republican, who did not want to see sanctions legislation. At 
the end of the day, Congress acted and many of them 
subsequently learned that what we did was the best tools that 
they had to try to move foreign policy. So it is going to act. 
I would rather it act in a way that has your insights about 
what would be helpful, but if you fail to provide insights, 
then we will provide you with a law that ultimately will take 
place without your insights. So that is all I am seeking here.
    If you are telling me--and this question is collective--
there is nothing more that we can do than what we are doing, if 
that is the answer, that means that Russia will continue to do 
all the things I said before, nothing more that we can do than 
what we are doing is going to change the course--and that is a 
sad state of events for not only our country but the world. Is 
that what you are telling me?
    Ms. Mandelker. Senator, we would be happy to work with you 
on any particular piece of legislation. What I can tell you is 
that we have a broad range of authorities currently in place 
that we have been very actively using----
    Senator Menendez. OK, with all due respect, I have heard 
you say this. You are very good at repeating the same thing, 
but it does not help me.
    So let me ask you this: The expectation among Senators is 
that you will continue to impose sanctions on oligarchs, but it 
seems to some of us that you have decided to diminish pressure. 
You have not designated any oligarchs since April 6th. You have 
delisted Estonian banks, and now there are reports that you may 
delist Rusal.
    What kind of signal does that send to the Kremlin? We are 
told to judge the Administration by its actions and not the 
President's words, but these actions seem to be more in line 
with the President's accommodating and disturbing rhetoric than 
a tougher approach to the Kremlin. So why haven't you listed 
any oligarchs since April 6th? And why are you delisting these 
other entities?
    Ms. Mandelker. Senator, we have designated a number of 
additional Russian-related entities since April 6th. It is a 
very active program for us, including a number----
    Senator Menendez. I mentioned specifically oligarchs, not 
entities.
    Ms. Mandelker. A number this morning. I am not going to 
preview what our plans are, but we continue to look very 
carefully at the oligarch report, and it continues to inform 
our actions.
    Senator Menendez. Secretary Ford, let me--so the answer is 
you have not listed anybody else and you are delisting people.
    Let me ask you this, Secretary Ford. I understand your 
office implements Section 231. Convince me that your leverage 
to convince individuals to not purchase Russian defense 
equipment has somehow been strengthened by the new waiver 
provisions included in the National Defense Authorization Act. 
You have not imposed one sanction under this provision, not the 
new provision with waivers. You have not imposed one sanction 
under Section 231. Why?
    Mr. Ford. Well, Senator, what we have been stressing to our 
diplomatic interlocutors is that, unless and until something--
well, of course, under the statute there has to be a 
significant transaction. We stress to our interlocutors that--
--
    Senator Menendez. Clearly there have been those.
    Mr. Ford. Well, no determination of significance has been 
made yet, sir. It is important to stress that our focus has 
been, as I indicated earlier, upon making sure as best we can 
that transactions do not occur. Obviously, if they do, we will, 
of course, evaluate its significance and reach a determination 
as quickly as the bureaucratic process permits. It is important 
to how we are approaching this to make sure that our 
interlocutors understand that what we are trying to do is, in 
fact, implement our own priorities and Congress' priorities 
upon doing two things simultaneously.
    One, of course, we need--and it is imperative to do so, we 
need to make sure that Russia feels pressure from this. The 
objective is to change Russia's behavior and, therefore, pain 
needs to be felt. And the point is to bring that pain. But the 
pain is against Russia, not against our friends and allies. And 
we also understand Congress was very clear in passing CAATSA 
also that this needs to be done in a way that is mindful of the 
importance of protecting the relationships that we have and 
that we need in our diplomacy and our foreign relations and our 
national security affairs around the world with people who may 
have had engagement with the Russian arms business but whom we 
do not want to simply throw away our relationship with. So we 
are trying to do those two things at the same time, sir.
    Chairman Crapo. Senator Scott.
    Senator Scott. Thank you, Mr. Chairman. Thank you to the 
panel for being here this morning.
    I certainly want to echo the comments of the Ranking 
Member, the Chairman, and many of the Senators that reflect the 
importance of finding ways to constrain Russian aggression, 
especially as it relates to our country. And it seems like to 
many of us that our efforts have just not been effective 
enough.
    If you look at from 2014 and forward, the sanctions, we 
have sanctioned hundreds of Russian entities in response to the 
annexation of Crimea, their human rights abuses, their 
cyberattacks, their support of the Assad regime, weapons 
proliferation. The list continues to go on and on and on to the 
Russian aggression, and yet there is so little that we can show 
for our efforts of sanctioning Russia.
    I have two questions. One is about understanding the 
certain sections of CAATSA that have yet to be implemented and 
what steps we can take to ensure that our policies are able to 
achieve the desired outcome. That is the first question.
    The second question is: While we are looking at the 
implementation of more sections of CAATSA, how do we protect 
our American businesses as it relates to the negative impact 
that will come from it?
    So I understand that you all are in an incredibly sensitive 
position trying to do two things that are actually not mutually 
exclusive but really weigh heavily on one another. The 
challenge of Senator Kennedy's question that it is really a 
simple answer, frankly, if 70 percent of Russia's exports are 
in the energy sector, it seems to me that the clear, simple 
answer is that if you wanted to have the most impact that has 
the ability to cripple the economy, the answer is in the energy 
sector. Perhaps the challenge is that the energy sector 
represents the sector that many of our allies in Europe depend 
heavily on. So it does make your task challenging, but the fact 
of the matter is that there is a very simple, clear, concise 
answer to Senator Kennedy's question, which is that if 70 
percent of the Russian economy--perhaps not 70, maybe it is 68 
percent--flows through the energy sector, the answer is simple. 
I am not quite sure why we are having such a difficult time 
answering simple questions. We seem to be more evasive than 
helpful in our desire to understand and appreciate the 
magnitude of our actions on the Russian economy. And when there 
are sections beyond Section 224 that deal specifically with 
crude oil exports, or Section 226 and 227 and 228, and Bob 
mentioned 231 and 232 and 233 and 234, the answers are all the 
same, that we have not done much in those sections.
    I would come back to my original question; that is, as we 
look at CAATSA, how can we do more? It seems like I have just 
given you a list of options on doing more. And why aren't we? 
And is the answer to my second question that the impact on our 
businesses is creating headwinds on our ability to impose more 
sanctions and do more damage to the Russian economy because we 
are afraid of what it does to our businesses and to our allies?
    Ms. Mandelker. Thank you for your question, Senator. So 
just with respect to the very specific provisions of CAATSA, as 
you may be aware, we have designated over 160 entities and 
individuals under authorities that are either subject to a 
specific provision of CAATSA or Executive orders that have been 
codified by CAATSA. So our desire to implement and our 
execution of the implementation of CAATSA is very strong.
    Very specifically in the energy sector, not only have we 
designated entities under our energy authorities, but Russia's 
energy sector is subject to two directives--Directive 2 and 4--
that were started in the Obama administration and which we have 
tightened in this Administration. And we have seen significant 
impact as a result of those designations.
    You asked about U.S. businesses. Well, Exxon announced 
earlier this year that they were withdrawing from joint venture 
projects in Russia with Rosneft. Similarly, we heard--it was 
announced that Rosneft was unable to complete certain projects 
in the Black Sea. Because of our sanctions, they were unable to 
get the kind of equipment and technology that they need in 
order to do so.
    Senator Scott. Thank you. Because I have 25 seconds left 
and the Chairman already called one Member down for going over 
time, I do not want to be the second Member, so I will not go 
over the time by that much. But I will just say that perhaps 
you would invest all of our time more wisely if we talked about 
the interconnectedness of the global economy and how at times 
if Russia is working with Saudi Arabia on output in order for 
us to have a more positive impact on Iran through our, you 
know, withdrawing from the JCPOA, we would have a more global 
and panoramic perspective on the challenges and consequences 
and the complexities of the task at hand, and we would have a 
more productive time in understanding and appreciating the 
challenges that you face, and at the same time be able to talk 
to our constituents about the challenges that we face, 
especially as the Wall Street Journal today reported that 
Russian hackers target conservative groups and widening 
cyberattacks, which only suggests that whatever we are doing is 
not enough.
    Thank you, Mr. Chairman.
    Chairman Crapo. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    I want to thank you all for being here, and I appreciate 
your testimony, although it would be nice to get answers to the 
questions. I am as frustrated as the folks who come before me.
    So let me ask you this, Ms. Mandelker, and it is an honest 
question because I do not know the answer to it. Say I have got 
a $10 million ranch and I sell it to somebody who wants to 
launder money for $20 million, and they turn around and sell it 
for $15 million. Is that money then laundered?
    Ms. Mandelker. It would depend on the facts and 
circumstances, but that sounds like a situation where money was 
laundered.
    Senator Tester. OK. And is that legal?
    Ms. Mandelker. If it is here in the United States, that 
could potentially be a violation of our money-laundering laws.
    Senator Tester. OK. And is that something that we do, we go 
after folks who are trying to launder money? Is that something 
the Treasury Department does?
    Ms. Mandelker. Absolutely, Senator.
    Senator Tester. It does?
    Ms. Mandelker. Well, again, the criminal authorities are 
the Justice Department's authorities, but we go after illicit 
activity, money laundering, all over the world in a variety of 
different ways.
    Senator Tester. Can you tell me or can you get back to me 
on how many money-laundering episodes in the last 5 years have 
occurred and how many have been actually prosecuted?
    Ms. Mandelker. Again, in terms of prosecutions, I would 
defer to the Justice Department----
    Senator Tester. Determined and turned over to the 
Department of Justice. How about that way?
    Ms. Mandelker. I am sorry?
    Senator Tester. Determined that it was a money-laundering 
situation and turned over to the Department of Justice. We will 
deal with their prosecution later.
    Ms. Mandelker. Again----
    Senator Tester. Can you give me an example of how many have 
happened in the last 5 years? How many have been brought forth 
in the last 5 years by the Department of Treasury, not 
prosecuted but just pointed out by the Department of Treasury 
that they had grounds?
    Ms. Mandelker. I cannot give you a number. We work----
    Senator Tester. Can you give me a number if you go back to 
your office and write it down on a sheet of paper and send it 
to my office?
    Ms. Mandelker. Again, Senator, it would depend on the 
specifics of your----
    Senator Tester. Is this--no, no, no, no, no.
    Ms. Mandelker. ----question, but we work very closely with 
the Justice----
    Senator Tester. Look, look, we had one of these hearings in 
a classified session that was worthless. And it was not 
worthless because of the Chairman and Ranking Member. It was 
worthless because you guys have filibuster down to an art. I 
just want to know the answer to the question. Do you have the 
number, yes or no?
    Ms. Mandelker. Is your----
    Senator Tester. You do not have the number?
    Ms. Mandelker. I want to make sure that I understand the 
question you are asking.
    Senator Tester. I want to know the number of money-
laundering episodes the Department of Treasury has turned over 
to the Department of Justice in the last 5 years--not 10, not 
20, not 30. Five years, that is it.
    Ms. Mandelker. Again, Senator, as you may be aware, 
FinCEN----
    Senator Tester. I am not aware. I just want to know how 
many.
    Ms. Mandelker. I would have to go back to my office to 
see----
    Senator Tester. OK. Go back to your office and you will----
    Ms. Mandelker. ----if we have such a number.
    Senator Tester. ----give me that information?
    Ms. Mandelker. But I just want to be clear about what it is 
that we do. We follow, we trace, we track money laundering all 
over the world. We are also the recipients----
    Senator Tester. I just want to know about the stuff that 
happens in the United States. That is easier yet.
    Ms. Mandelker. Let me go back and see what we can do to 
answer your question.
    Senator Tester. I appreciate that very, very much.
    Mr. Krebs, you said in an answer to the Chairman's question 
that you have made significant progress since the 2016 
election. Can you give me a list of the things you have done to 
make our election more secure this cycle?
    Mr. Krebs. Yes, sir. So four buckets: governance, 
information sharing, technical support, and incident response.
    Senator Tester. OK. And have you done that to every State 
in the Union?
    Mr. Krebs. We work particularly through the Election 
Infrastructure ISAC. We work with all 50 States. We provide 
cyber remote-scanning capabilities to 36 States.
    Senator Tester. I do not expect you to know this today, but 
can you go back to your office and send me a list of what you 
have done in Montana specifically?
    Mr. Krebs. We can certainly give you a briefing on the 
things we are doing nationwide.
    Senator Tester. Just give me a sheet of paper. I do not 
need a briefing. Tell me the things you have done in Montana to 
help Montana have a more secure election cycle.
    Mr. Krebs. We can follow up, yes, sir.
    Senator Tester. And just a suggestion. It might not hurt to 
do that for every Senator that is here. It would be a good 
thing. Just what--I see Donnelly is nodding his head, so you 
can do that for Indiana, and----
    Mr. Krebs. We do need to--there is a certain degree of 
confidentiality on every engagement----
    Senator Tester. Oh, come on. These guys--now, look, look, 
look. If these guys are screwing with voter rolls, tell us how 
you fixed it. If they are screwing with voter machines, tell us 
how you fixed it. There is no security there. This is about 
confidence in our election system. Putin spent less money on 
doing what he did last cycle to promote communism and destroy 
democracy. I think the U.S. Senate needs to know this stuff.
    Mr. Krebs. I agree, yes, sir. Let me----
    Senator Tester. Just give us the information.
    Mr. Krebs. We can follow up. Yes, sir.
    Senator Tester. OK. Thank you.
    Then can anybody tell me why Putin's ownership of anything 
in this country is not public information?
    Ms. Mandelker. Again, Senator, as I mentioned before, we 
would be happy to sit down and have a conversation with you 
about that.
    Senator Tester. I do not want--just tell me. Why? What 
national security risk is that?
    Ms. Mandelker. Again, Senator, any discussion about where 
assets are in the United States or elsewhere are either 
classified or not something that we would discuss in any kind 
of an open session.
    Senator Tester. You do know that you can go down to the 
courthouse and find out how much land I own? You know that. So 
why is Putin different?
    Ms. Mandelker. Again, Senator, I do not want to talk 
publicly about where assets are here or anywhere in the world. 
There are a number of different reasons----
    Senator Tester. OK. I got that.
    Ms. Mandelker. ----why we would not do that, but having 
had----
    Senator Tester. But a yes or no does not exactly----
    Ms. Mandelker. ----a sitdown and having a conversation----
    Senator Tester. A yes or no does not dictate section, 
township, and range. A yes or no just says, yeah, he owns 
property here.
    Ms. Mandelker. Senator, I am not aware of any title or deed 
that would have Mr. Putin's name on it here in the United 
States. But, again----
    Senator Tester. All right. All right. Thank you very much. 
OK. Thank you, Mr. Chairman.
    Chairman Crapo. Senator Cotton.
    Senator Cotton. Thank you, Mr. Chairman. Thank you all for 
appearing here. I hope it is clear from the questions so far 
that we have bipartisan agreement about the threat that Russia 
poses to our democracy and our interests. It is good to have 
that agreement now, which we lacked for many years. In the last 
Administration, even as Russia was surging troops into Syria to 
prop up Bashir al-Assad and Iran and invading Crimea and waging 
war in the Ukraine and beating a United States diplomat on the 
doorstep of our embassy in Russia and flagrantly violating the 
Open Skies Treaty and flagrantly violating the Intermediate 
Range Nuclear Forces Treaty and a whole host of other malign 
activities.
    Now, we have heard a lot today that Russia is still not 
deterred from these things. I would agree with that. We need to 
take additional action. But we have not heard much about the 
relative impact of the steps that this Administration has taken 
versus the last Administration, in particular after the 2016 
election.
    Now, some members of the last Administration said that they 
did not want to take provocative steps in the fall of 2016 
because they feared that Vladimir Putin and Russia's 
intelligence services might take additional steps to undermine 
voter registration systems or vote tabulation systems. But 
after the election, the Administration kicked out a few Russian 
diplomats--it might not surprise you to know that those were 
perhaps Russian spies--closed two Russian vacation homes, and 
imposed sanctions on two Russian intelligence services.
    Ms. Mandelker, how much money did the U.S. Government get 
from those two intelligence services?
    Ms. Mandelker. Senator, I am not aware of assets that were 
blocked as a result of those----
    Senator Cotton. Is that perhaps because Russian 
intelligence services do not keep money in the United States 
banking system?
    Ms. Mandelker. Again, Senator, that is not something I 
would discuss publicly, but rest assured the designations that 
we have had in this Administration have had far and wide-
ranging impacts in a variety of different way.
    Senator Cotton. To say nothing of nonsanctions activities, 
for instance, like encouraging our NATO partners to spend more 
money on their defense, expanding our nuclear arsenal, spending 
more money on ballistic missile defenses, providing the 
antitank Javelin missiles that Ukraine's Government begged for 
so long to receive.
    The Congress has also learned over the last 18 months that 
there was a serious interagency conversation in November and 
December of 2016 about imposing tougher sanctions on Russia. In 
fact, I understand that the professional staff at the Treasury 
Department worked up a whole host of sectoral sanctions and 
specific sanctions against Russian companies like Kaspersky 
Labs. Yet those were strongly opposed by Secretary Jack Lew, 
National Security Adviser Susan Rice, and Deputy National 
Security Adviser Avril Haines.
    Ms. Mandelker, can you explain why Secretary Lew opposed 
taking tougher action after the election--after the election, 
not before the election. After the election.
    Ms. Mandelker. Senator, I was not in the Administration, of 
course----
    Senator Cotton. Though you are a representative of a the 
Treasury Department, which surely has continuity files.
    Ms. Mandelker. What I can tell you, Senator, is that, as I 
have already made clear today, we have gone after very 
significant and impactful designations in connection with 
Russia's election interference, in connection with their 
cyberattacks, in connection with their ongoing occupation of 
Crimea and the like, and we have seen those designations result 
in very impactful actions against, again, some of Putin's 
closest allies and partners, his senior foreign official, 
officials in his Administration. We have seen companies who 
have tried to get into Crimea have a very heavy cost imposed 
upon them when we have sanctioned them. They have cutoff their 
ability to do business elsewhere in the world.
    What I can do is speak to the very heavy costs and impact 
of the designations that we have had. They have been quite 
substantial, and I would say far more substantial than those 
that were issued immediately after the November 2016----
    Senator Cotton. It would be nice to know why Secretary Lew 
believed that and why President Obama accepted his opinion.
    Let us take one final question here about a gentleman you 
mentioned earlier: Oleg Deripaska, a Russian oligarch whom our 
Government has sanctioned. You have also sanctioned numerous 
companies that he runs or heads, such as Rusal, En+, Basic 
Element, and others.
    We now know, in fact, we have emails right here that have 
been released by the Congress between Christopher Steele, who 
compiled what Jim Comey called ``a salacious and unverified 
dossier,'' and Bruce Ohr, a senior Department of Justice 
official in the Obama administration, where Christopher Steele 
was advocating on behalf of Oleg Deripaska being admitted into 
the United States. Christopher Wray, the FBI Director, would 
not address a question I sent to him in a public hearing of the 
Intelligence Committee earlier this year about whether 
Christopher Steele was working for Oleg Deripaska. At the time, 
by all appearances, he is working for him. Is Christopher 
Steele and his business the kind of entity or subcontractor for 
a sanctioned Russian oligarch that you have the authority to 
sanction under CAATSA?
    Ms. Mandelker. Senator, I am not going to talk to any 
particular individual, but Oleg Deripaska has been designated, 
and that designation is subject to secondary sanctions. And so 
what we have seen as a result of the Deripaska and other 
sanctions against these oligarchs is that they have become 
radioactive as the world understands that any entities that 
they touch may similarly face severe consequences.
    Senator Cotton. Just one final question. Just yes or no. It 
is a question about a general legal principle. Do you have the 
authority under CAATSA or any other law to sanction 
professional service providers of sanctioned Russian oligarchs, 
lawyers, lobbyists, financial advisers, and so forth?
    Ms. Mandelker. We would likely have that authority, 
Senator.
    Senator Cotton. Thank you.
    Chairman Crapo. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. I appreciate the 
witnesses' testimony.
    I think the indication from Microsoft today of ongoing 
Russian targeting of our elections and our systems is showing 
that this is not something that is in the rearview mirror. The 
truth is manipulating social media is both cheap and effective, 
and Putin and his cronies realize that. I think it reinforces, 
and if there is one message that ought to be taken out of this 
hearing, it is that we all need to stay focused. And that focus 
ought to extend--and I have some sympathy for you, Mr. Krebs, 
in terms of trying to make sure our State and local election 
partners take this message seriously and recognize that this is 
not all in the rearview mirror, that none of these activities 
stopped in 2016. They are ongoing, and this is an ongoing 
threat. And I am particularly concerned about that last-mile 
issue of even if we notify, will they then take action?
    Ms. Mandelker, as I indicated to you beforehand and one of 
the things our Intel Committee investigation is looking back 
into in terms of Russian activity, we need your assistance. So 
I need your public commitment today that those outstanding 
document requests we have to FinCEN will be met in a timely 
manner.
    Ms. Mandelker. Senator, as you know, we have produced 
thousands of documents----
    Senator Warner. But not all of the documents have been 
submitted. Will you meet our bipartisan requests for those 
documents?
    Ms. Mandelker. Absolutely.
    Senator Warner. There has also been a BuzzFeed story that 
says that FinCEN has decided that some of those documents will 
not be turned over to the Committee. Will you refute that story 
and say that all documents that the Committee has requested 
will be turned over to the Committee?
    Ms. Mandelker. I am not aware of that story, but I can 
assure you that we are going to continue to produce documents 
that----
    Senator Warner. All documents in a timely manner, within 
the next 30 days? Within the next 60 days?
    Ms. Mandelker. I would have to consult with those who are 
reviewing the----
    Senator Warner. Many of these documents have been requested 
literally for months.
    Ms. Mandelker. But we commit to you that we will continue 
to produce those documents on top of the thousands of----
    Senator Warner. In a timely process so that we cannot----
    Ms. Mandelker. Absolutely.
    Senator Warner. Again, we are 7, 8 months behind on some of 
these document requests.
    Ms. Mandelker. We will absolutely continue to provide those 
documents.
    Senator Warner. And then one of the things--we have made a 
formal request to you in the past, but I want to reiterate in a 
public forum, because of the nature of some of these documents 
that are fairly complicated, we need your office's technical 
assistance in terms of interpretation of these documents. Will 
you be able to provide that technical assistance?
    Ms. Mandelker. Senator, let me just add to my last 
response. I am told that we have a document production that we 
will be providing today, and as I mentioned before the hearing, 
we are happy to provide additional assistance.
    Senator Warner. But what we need is that technical 
assistance to sort through this. I appreciate that.
    Mr. Krebs, again, I mentioned--and you indicated you have 
got only voluntary ability to work with those on the front 
line. One of the things I have grave concerns about. In a 
normal White House, when our country has been attacked, as it 
has been, in this bipartisan consensus, there would be someone 
designated in the White House as election security is a top 
matter or someone designated on the National Security Council 
as making this a top priority.
    One of the things that has been extraordinarily disturbing 
to me is we have had repeatedly top intelligence officials from 
the Trump administration indicate to us that they have not been 
told that election security ought to be a top priority, and 
that raises huge concerns to me, recognizing that you are 
trying to do your best at DHS. One of the questions--I have got 
a serious of questions for you here, recognizing I have only 
got a short amount of time. Is there any intention--we have 
sanctioned the IRA officers indicated by the Mueller 
indictments. Is there any effort to indicate or to sanction the 
12 GRU officers that were also designated in the Mueller 
indictments?
    Ms. Mandelker. Senator, as you are aware, we have 
sanctioned a number of individuals connected to the GRU and the 
FSB. In fact, some of the sanctions we issued this morning were 
specifically in connection to their relationship to the FSB. We 
did designate the----
    Senator Warner. The IRA but not some of the 12 GRU----
    Ms. Mandelker. We are very closely looking at that 
indictment. I cannot preview what our plans are, but rest 
assured that----
    Senator Warner. All I will say is it would help, I think, 
the American public, as we sanctioned these bad actors and 
these bad actors' identities and a case that was built against 
them was provided by the actions and workings of the special 
prosecutor. It would do a great deal of benefit to the American 
public in terms of the seriousness of this threat if the 
President of the United States would not on a daily basis 
denigrate the Mueller investigation and call it a ``witch 
hunt,'' an investigation that has created 30-plus indictments, 
a number of guilty pleas, and obviously has been a very 
valuable tool in identifying these bad actors who in the past 
and on an ongoing basis try to interfere in our election 
activities.
    Mr. Krebs, do you have indication of who attacked Senator 
McCaskill's activities, a Senator up for reelection, other 
elected officials? And what level of confidence do you have in 
terms of overall Russian activities toward current sitting 
elected officials and/or elections that are coming up in a few 
months?
    Mr. Krebs. So to the second question, certainly, I think, 
Congress is a target for foreign intelligence collection just 
based on your role in policy formation. So there are general 
espionage and foreign intelligence collection concerns there, 
with or without a midterm or a Presidential election coming up 
across the horizon.
    Now, the Microsoft, whether it was McCaskill or the recent 
announcements, they have been in contact, as I understand it, 
with DOJ and FBI. We have also had conversations with Microsoft 
to get a better understanding of what they saw that enabled 
them to take action. In terms of a formal attribution from the 
Government, I would have to defer to the intelligence community 
on that.
    But, again, rest assured we are engaging on a day-to-day 
basis with the Senate CIO, the House CIO, with the committees, 
and I would encourage you to encourage your staff to work with 
the Department of Homeland Security. And more than that, when 
you do go back to your districts or when you go back to your 
home States, please encourage your State and local officials to 
work with the Department of Homeland Security on election 
security matters.
    Senator Warner. I think it is important then to make sure 
that, as you contact States, you indicate that this is an 
ongoing threat. It did not end in 2016. And, unfortunately, 
some of your communications to States within the last week or 
so have not had that kind of clarity.
    Mr. Krebs. I am happy to follow up, and I look forward to 
tomorrow's closed session.
    Senator Brown. Mr. Chairman, if I could, I just wanted to 
reinforce, in Senator Warner's admonition and request, how the 
important these documents are that they be turned over in a 
timely manner. Thank you.
    Ms. Mandelker. We appreciate that, Senator, and as I 
mentioned, we are dropping off another production today. We 
have a big staff who have been working to get these requests 
out quickly.
    Chairman Crapo. Senator Moran.
    Senator Moran. Chairman, thank you very much.
    I direct this first question to any and all. Can you 
identify changes in Russian behavior that have occurred since 
the summit between President Trump and President Putin in 
Helsinki? Different behavior by Russia than before the summit?
    Mr. Krebs. I do not have anything to add. No, sir.
    Senator Moran. Anyone?
    Ms. Mandelker. Senator, I would ask that any kind of 
question like that be addressed in a closed session.
    Senator Moran. We have had a closed session, and I share 
the view of the Senator from Montana that getting answers in a 
closed session is no easier than getting answers in an open 
session.
    Ms. Mandelker, your unwillingness to answer the question--
one of the things I thought would come from this hearing is a 
recommendation or a set of recommendations of what Congress 
might consider legislatively for additional sanctions. I have 
not reached any conclusion that additional sanctions are 
beneficial. I do not know the answer to that question. But I 
would have thought that you could have been able to give us 
ideas of what we might look at or pursue in cooperation with 
you and the Administration.
    Am I to take from your unwillingness to answer that kind of 
question that there is opposition by the Administration to 
additional sanctions? Or what is a better explanation?
    Ms. Mandelker. Senator, absolutely not. There is no 
opposition to sanctions. As I have already mentioned, we have 
designated well over 200 individuals and companies in 
connection with Russia----
    Senator Moran. I am talking about additional sanctions, 
something that we are looking at in this Committee.
    Ms. Mandelker. Including additional sanctions that we 
issued just this morning. In terms of what additional 
authorities we may need, we already have, through CAATSA and 
through a variety of different Executive order, brought 
authority to target big sectors of the Russian economy, to go 
after the Russian oligarchs, to go after Russia's malicious 
cyberactivities in a number of other areas. In fact, as I have 
already mentioned, we have targeted not only a number of very 
significant Russian companies, we have targeted the chairs of 
those companies, making it much more difficult for them to 
operate in the world.
    So we would be happy to sit down and talk to Congress about 
any proposed legislation, but we do have significant and 
substantial authorities already on the books.
    Senator Moran. And maybe that is the answer to the 
question. It is not what you have been able to do, but the 
answer to the question what more do you need is nothing is 
known at the moment but you will consult with Congress if we 
come up with an idea, is my takeaway from your testimony.
    I think I generally agree with Senator Cotton that we ought 
to be looking at other issues in addition certainly to 
sanctions, which is our relationship with NATO, economic 
alliances around the globe, resolving our trade differences 
with other countries so that we are unified. I think the list 
is longer than sanctions. We generally are focused on sanctions 
in this Committee, but I take it from your answer that to date 
you believe you have the necessary authorities to combat what 
we are trying to combat with Russian behavior. Is that a fair 
assessment?
    Ms. Mandelker. Yes, Senator, but we are happy to talk to 
you about----
    Senator Moran. Happy to have that conversation.
    Ms. Mandelker. ----additional authorities, and I agree with 
you wholeheartedly, this is a whole-of-Government approach. 
Sanctions alone are not going to solve the problem, and this 
Administration has undertaken a number of additional activities 
in connection with the Russian threat other than sanctions.
    Senator Moran. Thank you very much.
    The Administration--I think is probably--I do not know who 
this is for. The Administration has called for a complete 
cutoff of Iranian petroleum imports by November. That seems to 
me to be just in time for winter. Does it stand to reason that 
that will push Europe and others to be more dependent upon 
Russian oil and natural gas? And is there coordination on the 
sanctions that we are proposing pursuing with Iran and 
sanctions that we have in place with Russia or are proposing 
with Russia?
    Ms. Mandelker. Absolutely, Senator, there is extensive 
interagency coordination on those sanctions with the State 
Department, with the Department of Energy, and, of course, with 
our closest allies and partners.
    Senator Moran. Mr. Krebs, in your testimony you note the 
leadership role that the Department plays in conducting 
elections, coordinating efforts to assess vulnerabilities and 
mitigate risk. Within this structure, DHS also plays an 
important role in sharing information with election officials. 
I have visited with county clerks, county election officers in 
Kansas, with personnel within our Secretary of State's office 
that conducts oversight and management of elections in our 
State.
    What steps has DHS taken to ensure that information and 
intelligence is shared with local officials? My general 
impression is that while there is concern by election 
officials, they do not know the direct nature of any threat.
    Mr. Krebs. So we have prioritized security clearances for 
State and local election officials. I think right now we are up 
to about 92, and that includes every single State. But most 
importantly----
    Senator Moran. Is an election official somebody at the 
State level or somebody at the local level?
    Mr. Krebs. It started, yes, sir, at the Secretary of State 
or the chief election official in each State, and we are 
working our way down to the county level. Now, I do not think 
we are going to get to the county level in terms of specific 
clearances because our imperative here is to bring information 
out of the classified space as rapidly as possible and share 
actionable information so any--it does not matter what county 
or locality they are in, that they have information from DHS 
that is pulled generally from the intelligence community that 
they can act on. Our mission is to shorten that time period.
    So we are working on clearances, but more importantly, we 
are trying to convene information-sharing fora. I mentioned the 
ISAC. We have all 50 States and pushing a thousand local 
jurisdictions. The challenge here is there are close to 10,000 
election jurisdictions nationwide. so while we have what is 
probably the fastest-growing, most successful ISAC, we still 
have a pretty big gap to fill. And so we are working through 
what is known as--it was mentioned by Senator Warner earlier--
the ``last mile.'' We have our own last-mile initiative where 
we are developing tailored guidance to every single county, if 
they would like it, across this country. And that will include 
how to sign up for the ISAC, how to participate in instant 
response and tabletop exercises.
    Senator Moran. What is the timeframe for that to be 
available?
    Mr. Krebs. We are marketing this aggressively now. We have 
already gotten four through the chute. We have 22--four States. 
We have 22 more States in the works right now. We have the 
capacity by the midterm, if every single State asks for a last 
mile--and it is a poster that we can share with you, and we 
will share it tomorrow at the closed session. It is an 
unclassified document. We can do all 50 States, if asked, by 
the midterm.
    Senator Moran. Thank you.
    Chairman Crapo. Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman. And thank you to 
the witnesses.
    Mr. Krebs, have you reviewed the security of elections in 
Indiana specifically?
    Mr. Krebs. I personally have not, but we do work with the 
State of Indiana, yes, sir.
    Senator Donnelly. Do you know if there are any reports in 
regards to your Department and what has been done in terms of 
hardening and securing Indiana's election for the upcoming 
election?
    Mr. Krebs. We certainly have a profile on the State and a 
record of engagements and how we have engaged with the State.
    Senator Donnelly. Would that list all direct contacts 
between your agency and the State of Indiana?
    Mr. Krebs. I am sorry. Could you repeat the question?
    Senator Donnelly. Would that list all the direct contacts 
that you have had back and forth, the meetings you have had?
    Mr. Krebs. Yes, sir, we track the in-person engagement.
    Senator Donnelly. What I would like to do is get a copy of 
all of that so that we know on the State's end that we can be 
helpful to our State to make sure that they are getting 
everything they need, the last-mile program, all of these 
things put in place so that we have the most secure possible 
election, obviously in my State, but we want to have that 
across the country.
    Mr. Krebs. We can certainly engage and provide you an 
update on what we are doing, particularly nationwide. But I do 
need to reinforce the fact that there is a level of 
confidentiality. Because my authorities are voluntary, I am in 
an entirely dependent position upon a State or a local 
jurisdiction to come to me and bring information and ask for 
help.
    Senator Donnelly. I understand.
    Mr. Krebs. And if I am in a position where I am posting or 
sharing what is confidential information--this is just like 
attorney-client privilege. I am the attorney, they are the 
client, they own the privilege. So it is up to the partner to 
disclose----
    Senator Donnelly. Well, in your best judgment, you know, we 
would like to see what has been done to make sure that we are 
taking as many steps as possible in our State to secure the 
election.
    Mr. Krebs. Yes, sir.
    Senator Donnelly. Ms. Mandelker, at the Helsinki Summit, do 
you know if the subject of sanctions was discussed between 
President Trump and Vladimir Putin?
    Ms. Mandelker. Senator, I am not aware whether or not the 
subject of sanctions was discussed in that very specific--in 
the meeting between the two of them. But I believe the 
President has addressed his----
    Senator Donnelly. Well, I am not asking about the 
President. I am asking you. Do you have any knowledge of what 
was discussed in that summit between the President and Vladimir 
Putin since you are the one who implements the very sanctions 
that might have been discussed?
    Ms. Mandelker. Senator, I know the President has----
    Senator Donnelly. I am asking, were you given a briefing as 
to what was discussed regarding sanctions in that summit 
meeting?
    Ms. Mandelker. Senator, we have had interagency discussions 
following the Helsinki----
    Senator Donnelly. Were you told what was discussed between 
the President and Vladimir Putin regarding sanctions? Were you 
given a reading as to everything that was discussed since you 
are the one who enforces sanctions?
    Ms. Mandelker. Senator, we have had discussions following 
the Helsinki Summit about what was addressed in the summit, and 
my mandate has been the same since the summit, which is to 
continue to deploy impactful sanctions----
    Senator Donnelly. Were you told whether or not the 
President and Vladimir Putin discussed sanctions?
    Ms. Mandelker. Again, Senator, we have had----
    Senator Donnelly. That is a simple question, yes or no. 
Either you were told or you were not.
    Ms. Mandelker. Again----
    Senator Donnelly. Do you know if that subject was 
discussed?
    Ms. Mandelker. Again, Senator, Secretary Pompeo has 
addressed what was discussed in Helsinki. I was not there. We 
have certainly had interagency discussions about the Helsinki 
Summit----
    Senator Donnelly. I will try one more time. This is about 
as simple as it gets. You can go, ``Did you tie your shoe or 
not?'' Yes or no. Did you hear whether or not sanctions were 
discussed in this meeting? Yes or no. Do you know if they were 
discussed or not?
    Ms. Mandelker. I do not know the specifics of whether or 
not they discussed sanctions at that meeting, but I think the 
President has publicly discussed his conversations with Mr. 
Putin----
    Senator Donnelly. But you are in charge of implementing 
these sanctions.
    Ms. Mandelker. What I can tell you is that, following the 
Helsinki Summit, my mandate remains the same, which is to 
continue to impose sanctions to counter Russia's malign 
behavior, and we have done that in full force.
    Senator Donnelly. The fact is Russia is still in Syria. 
They have not changed their behavior. They are still in 
Ukraine. They are still using cyberattacks. They are still 
meddling in elections. They are preparing to meddle in the 
upcoming elections. They are still violating the INF Treaty. 
This is all taking place while we have sanctions in place, 
which apparently have had no effect on this.
    As you look at this, what sanction would have the most 
effect to start to turn this behavior around? And let me ask 
you one other question. I am running out of time here. I know 
we are trying to run it tight. Who do you need to get approval 
from to take further sanction steps?
    Ms. Mandelker. Senator, the determination----
    Senator Donnelly. There has got to be somebody.
    Ms. Mandelker. Yes, sure. Determinations about most 
sanctions which are either subject to Executive order or 
statute are made typically by the Secretary of the Treasury in 
consultation with the Secretary of State.
    Senator Donnelly. Has the Secretary of Treasury approved 
you to take any further sanctions actions you deem necessary?
    Ms. Mandelker. Absolutely. In fact, we issued sanctions 
just this morning in connection with Russia.
    Senator Donnelly. OK. Thank you, Mr. Chairman.
    Chairman Crapo. Senator Perdue.
    Senator Perdue. Thank you, Mr. Chairman. And thank you for 
your patience and forbearance this morning for being here, 
guys.
    First of all, I want to make a comment about the closed 
classified briefing we had on July 31st. I must have attended a 
different meeting, Mr. Chairman, but I got a lot out of that 
meeting. There are those today who have said that we got no 
answers, but I think we addressed one thing in that closed 
briefing that I would like to touch on today, knowing that we 
are in an open environment.
    Secretary Mandelker, first of all, let me clarify a couple 
things. Are you familiar with the Russian primary reserve fund 
that they have just closed down?
    Ms. Mandelker. Generally, Senator, but not----
    Senator Perdue. So they just closed down their primary 
reserve fund. They are now using their welfare reserve fund for 
any profits, as you say, above $70 a barrel, let us say, on the 
oil sector. So we are beginning to have some impact, but it has 
not changed behavior yet. And here is my question: With the 
interconnectivity of the global economy, if we put sanctions on 
Russia, there is a trading partner that gets hit by that as 
well. Today there is a study out in Germany by the Institute of 
World Economy that says that about 40 percent of the detriment 
of a sanction is borne by the trading partners across 37 
countries that are dealing with Russia.
    Now, that sends two messages, and I do not think either are 
bad. Number one, in Russia we are going to continue to do this, 
and trading partners of Russia, we are going to continue to do 
this. Is that true?
    Ms. Mandelker. I cannot verify the particular statistics, 
but I can tell you there is no question that when you impose 
sanctions in particular types of entities in Russia, those 
impacts affect or are felt elsewhere, and that is because of 
the fact that Russia is part of the global economy.
    Senator Perdue. Right, it is a global economy. Then the 
question is: Is it U.S. companies or is it European? Europeans 
are now saying that they are bearing more of the brunt because 
they have a higher degree of trade with Russia, and I have 
begun to believe that subjectively. But from a quantitative 
point of view, with CAATSA you have authority to do more than 
we are doing today. Is that true?
    Ms. Mandelker. Senator, we have--as I have already 
mentioned, we have issued a wide swath of designations under 
CAATSA, under Executive orders. We can always do more, and you 
are going to continue to----
    Senator Perdue. So that is the question. Let me go----
    Ms. Mandelker. ----see more from us.
    Senator Perdue. ----right there. Without getting into 
classified issues here, there are more things that you can do, 
but there is a Governor that is being used right now by someone 
in the Administration that says that the impact on the negative 
side here, the short-term impact, we are not willing to bear 
that. Is that true or not?
    Ms. Mandelker. I would not say that is true, Senator. With 
respect to any particular designation that we issue, of course, 
we very closely study the impact. We want to know what the 
impact is going to be to U.S. businesses, to U.S. jobs, what 
the impact is going to be to our closest allies and partners. 
We also engage in a number of different discussions with those 
allies and partners. We study those carefully. We look to see 
how we can mitigate those kinds of consequences, and we make 
our decisions accordingly.
    Senator Perdue. But you would agree that with a larger 
economy like Russia, it is about a trillion-and-a-half economy. 
It is an entirely different equation than trying to deal with a 
$400 billion economy like Iran or a smaller economy like North 
Korea. That is a fact.
    Ms. Mandelker. I agree that those are different complex 
problems, yes.
    Senator Perdue. And the sanctioning regime is not an end-
all. You have already said it has got to be a whole-of-
Government. We have not talked enough about that today. Are you 
integrating with other facets of the Administration for an 
ultimate outcome here, and that is, a change in behavior in 
Russia?
    Ms. Mandelker. Absolutely, Senator.
    Senator Perdue. So what other agencies do you guys 
integrate with in terms of trying to change behavior in Russia?
    Ms. Mandelker. We work closely with the State Department. 
We work closely with the intelligence community. We work 
closely with the Department of Homeland Security and others.
    Senator Perdue. So, Secretary Ford, Russia has now dumped 
about $90 billion of U.S. Treasurys. They are doing other 
things to prepare for this next round of whatever sanction 
regime efforts that we might make.
    What efforts are you aware of that Russia is trying to do 
to prepare? Are there things that we can do to counter that 
prior to the issuing of any further sanctions?
    Mr. Ford. Thank you for the question, Senator. I think in 
an open session it is probably unwise to get too much into 
specifics about that.
    Senator Perdue. I understand.
    Mr. Ford. You know, it is safe to assume that the Kremlin 
is preparing for potential future sanctions because they know 
full well what they intend to do and, therefore, I assume they 
can also anticipate that if they continue to do the kinds of 
things that they have done that have drawn sanctions in the 
past, we will continue to react to that.
    Senator Perdue. And are we in the State Department dealing 
with our allies, particularly our European allies who I think 
are bearing a higher degree of impact of this, are we in a 
comfortable position that they are going to stay with us, 
particularly when we talk about Nord Stream 2 proactively? Are 
we going to try to do anything to preclude that? Are the 
Russian allies hanging in there with us right now? And how do 
you project that as we get further into the sanctioning effort?
    Mr. Ford. That is an ongoing piece of the diplomatic 
challenge. We, of course, hope that the people will hang with 
us in this. We think we have been doing a pretty good job of 
keeping the team together so far.
    One example of that is the ongoing engagement that we have 
had with our European friends with respect to ensuring the 
continued rollover of sanctions against Russia for Crimea. You 
know, this is the kind of thing that we spend a lot of time 
doing.
    You mentioned the issue of mitigating impact upon the U.S. 
economy, for example. One of the things that we did when a 
couple of weeks ago we issued sanctions against Russia for its 
chemical weapons attack in the U.K., we had a series--the most 
significant piece of that had to do with denial of export of 
national security-controlled items, a presumption of denial 
from the United States.
    One of the carveouts that we had from that in an effort 
specifically to try to take into consideration the kind of 
concerns that you identified, sir, is a carveout for national 
security exports to U.S. companies operating in Russia so that 
we are not hurting our people operating in Russia, and we also 
had a carveout for Russians employed by U.S. companies in the 
United States, for example. So we are always mindful of those 
kinds of effects, and we try to mitigate them as best we can.
    Senator Perdue. Thank you, Mr. Chairman.
    Chairman Crapo. Senator Jones.
    Senator Jones. Thank you, Mr. Chairman.
    I would like just a real quick--it is something that I have 
been concerned about, and that is, I hear in the classified 
meetings and I hear today, and I see all of the issues that are 
going and all the sanctions that are being imposed and the 
impact, the financial impact and everything, but yet we are not 
hearing as much of the deterrent--the impact and the 
effectiveness of the deterrent. And I am curious as to just a 
real--if you can, has the President's comments about all this 
being a hoax and anything like that, is that undermining your 
efforts? Is Putin trying to just wait it out and hoping the 
President will have his way? Is that undermining your efforts?
    Ms. Mandelker. I think to the contrary, Senator. If you 
look at the wide range of activities that this Administration 
has undertaken under the direction of the President, including 
the very significant sanctions that we have been able to 
launch, including the expulsion of 60 Russians out of our 
country, including the closing of Russian entities in the 
United States, what Russia sees is a United States that is very 
aggressively----
    Senator Jones. Yeah, but when the President is standing 
right next to Mr. Putin and he is just talking about hoaxes on 
Twitter, it just seems to undermine that. But that is OK. I 
understand. And I understand the response.
    Mr. Krebs, I would like to ask you briefly, I know in my 
election in December, DHS had officials on the ground in case 
there were some problems. We had seen some issues with bots and 
other things coming up, but apparently there was not a lot of 
activity that day, at least as far as the Russians were 
concerned.
    I want to kind of follow up on what Senator Tester was 
asking. Are you going to be able to provide that kind of 
support this coming November for 50 States? And what kind of 
support would that look like? Are you focusing on specific 
response threats? What are we going to see from DHS on election 
day in November of this year?
    Mr. Krebs. Thank you for the question. So, absolutely, 
across the 50 States, if requested, we will deploy our 
personnel, our field personnel--we have protective security 
advisers and cybersecurity advisers--across the country. They 
will be in the incident response cells for the State CIOs. They 
will also be sitting alongside the homeland security advisers. 
And we will deploy that again come midterms.
    We just actually ran through this process last week. We had 
Tabletop the Vote, which was a nationwide tabletop exercise, 3-
day exercise. Forty-four States plus the District of Columbia 
ran through scenarios, both technical hacking of election 
infrastructure as well as foreign information operations. And a 
couple takeaways from that, and just again to reinforce, when 
you go home, please encourage your State and local officials to 
work with us. But there is a need, as I mentioned, in our 
dependent position, we need more information as soon as it 
comes up. The ``If you see something, say something'' mantra 
applies here as well. We really do need State and locals to 
alert us as quickly and as early as possible so that we can 
stitch together that national picture.
    So a few other things. We will be standing up, our National 
Cybersecurity and Communications Integration Center. We will be 
in kind of a war room posture that day. But we will also have a 
national situational awareness room where State and local 
officials can get on to basically a web chat, something like 
that, and they can share information across the country.
    So, again, if they see anything, they can put it up in the 
situational awareness room, and they can share information 
visibility to get that common operating picture of our election 
security posture on the midterm.
    Senator Jones. That is great. I want to follow up real 
quick with that, because you first said that if the States 
request it, I am assuming leading up to election day, though, 
there is going to be a considerable amount of information being 
shared. And if you are seeing something, you are going to be 
encouraging those States to request that information or try to 
do that. I mean, some States--you know, look, a lot of States 
are reluctant to get the Feds involved, Alabama probably one of 
them, you know, for a lot of reasons. But I assume there is 
going to be a lot of information sharing leading up to that, so 
you can help identify--not just relying on the States, but you 
can help identify where there is a particular vulnerability.
    Mr. Krebs. Yes, sir, absolutely. We have every single day 
steady-state engagement with all 50 States and local 
jurisdictions. Secretary Merrill has been a partner, and we 
look forward to continuing to work with him. We are not just 
waiting for election day. The amount of progress that we have 
made in the last year alone is quite substantial, and we will 
continue pushing, pushing, pushing through the midterm. And 
then we will do a hot wash. We will figure out where we need to 
get better, and we will make that run up to the 2020 
Presidential.
    Senator Jones. Great. Thank you.
    Thank you, Mr. Chairman.
    Chairman Crapo. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chairman. Thank you all for 
being here and the good work you are doing.
    Ms. Mandelker, or, actually, Mr. Ford, this may be in your 
lane, but I think one of the things that would be helpful to 
the Committee that could either be provided in a classified 
setting or ideally in an open setting so we can cut through 
some of the stuff that we heard today are trend lines. I am 
very curious to see what--let us say activities with foreign 
direct investment into Russia, you know, if you applied it back 
over some period of time, if you take a look at exits, Exxon 
was mentioned here. Interestingly enough, I think that JV 
started in the 2013-14 timeframe, probably months before Crimea 
was invaded, and yet for that entire period of time under the 
prior Administration there was not enough action to make Exxon 
take pause as to whether or not it made sense to do that. This 
Administration has.
    So I think if we look at some of the economic fundamentals, 
movement in their GDP, the sorts of foreign direct engagement, 
those are going to be very helpful for us to have and kind of 
map that to actions that you all have taken. You may not be 
able to derive direct causation, but I think that that would be 
helpful to show, and I think we are seeing trends moving in the 
right direction.
    I do not know if you have any information you can provide 
with that or whether or not that could actually be provided 
publicly at some point.
    Ms. Mandelker. Senator, we would be happy to provide that 
publicly or to you personally. There is no question that we are 
seeing those kinds of trend lines. There is no question that 
our sanctions are--the fact that we have actually gone after 
some of these very significant entities, oligarchs, military--
--
    Senator Tillis. Yeah, I would like to get that, because I 
would like to drill it down so that when you hear no action is 
being taken, no repercussions are being experienced, that seems 
to suggest--or to defy any logic with anybody that follows the 
Russian economy.
    Mr. Ford, do you have anything to add to that?
    Mr. Ford. Nothing to add, Senator, except that I think I 
would agree completely that it is very clear that Russia has 
been feeling pain from this. I do not have specific figures in 
front of me, but, of course, things like direct investment, 
clearly down--after we sanctioned them for the----
    Senator Tillis. Well, let us get that information, because 
I would really like to point to it, and we can talk more in the 
session tomorrow.
    Mr. Krebs, do you believe that Russia started meddling in 
elections just in 2016 in the United States?
    Mr. Krebs. Without speaking to any classified specifics, I 
find it hard to believe that the intelligence service has not 
been trying to collect information on policymakers and 
influence foreign outcomes.
    Senator Tillis. Do you believe it is fair to say, without 
sharing anything of a classified nature here, that prior 
Administrations would have been aware of this?
    Mr. Krebs. Well, certainly the last Administration was 
aware, and I think before that likely----
    Senator Tillis. Do you see any evidence that internally 
there was any aggressive action being taken as a matter of 
policy or request for Congress to act to provide additional 
tools in that timeframe?
    Mr. Krebs. So as the Under Secretary mentioned, I also was 
not there at that time. There is continuity of records. We have 
seen discussions. There were actions taken. I do think that 
there was perhaps a lack of appreciation at the time of the 
full scope of the efforts, and as you get more intelligence----
    Senator Tillis. It is easy to lay your hands on some of 
that that may be helpful in the closed session tomorrow, but 
that is not a formal request. If you can get it and it is easy, 
I want you to be prepared for what you intend to talk about 
tomorrow.
    You know, the other point in relation to some questions 
here about burning down the Russian economy, I think that that 
sounds good. It may be a good sound bite. I think it is not 
good as a matter of strategic, precise policy where you are 
trying to ratchet things up without having the unintended 
consequences. I think, Secretary Mandelker, that is what you 
were trying to get to. So I think in tomorrow's session, if we 
could talk more about some of the matters that may not be 
appropriate for this setting, I would appreciate getting into 
that.
    Mr. Krebs, in my remaining time, you mentioned that there 
are 22 States currently engaged that are getting into the last-
mile program. Do you know whether or not or can you say whether 
or not North Carolina is one of them?
    Mr. Krebs. Sir, I would have to circle back on that, but, 
again, you know, we tend to not talk about specific State 
engagement.
    Senator Tillis. I think the other thing that is very 
important, I think I heard you right by saying they have got to 
come and request your support.
    Mr. Krebs. Yes, sir.
    Senator Tillis. So it would probably also be helpful for 
those of us in the Senate who want to make sure that the State 
is availing themselves of these resources, that we as Member of 
the Senate communicate to the Secretary of State or the 
election officials that this is a resource they should take 
advantage of. I would like to get your advice on how we should 
communicate that.
    Mr. Krebs. Absolutely.
    Senator Tillis. Thank you, Mr. Chair.
    Chairman Crapo. Senator Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman.
    Mr. Krebs, I do not know if you are familiar with the story 
that was just out, a letter or a primary source from a young 
17-year-old?
    Mr. Krebs. Yes, ma'am, I did see that this morning.
    Senator Heitkamp. Very interesting reading, actually, 
attending a conference, a programming conference, where they 
were asked to try and hack into State databases and change 
numbers. But he decided he would do something different, and he 
ended up, in 5 minutes, without really knowing a lot about it, 
crashing the system.
    You know, anyone who reads this has no confidence at all 
that we are headed in the right direction and that we are 
taking the right kind of prophylactic measures. And one of the 
things that we know we absolutely have to do is we have to have 
paper ballots.
    Mr. Krebs. Yes, ma'am.
    Senator Heitkamp. So how many States have a system where 
they do not require paper ballots right now?
    Mr. Krebs. So 5 States are entirely electronic, 14 States 
total have some degree of electronic nonpaper ballots.
    Senator Heitkamp. This is very problematic.
    Mr. Krebs. Yes, ma'am.
    Senator Heitkamp. And I cannot say enough about the need to 
be very vocal in those States where they do not have paper 
ballots.
    Mr. Krebs. As far as I have seen, every single State that 
does not have paper ballots is on track toward, whether at the 
legislative level----
    Senator Heitkamp. Will they be on track for the 2018 
election?
    Mr. Krebs. I do not believe so, but I think every single 
one of them is aiming for 2020.
    Senator Heitkamp. This is a real problem. And, you know, I 
am not--I was not there in the exercise. I do not know, you 
know, maybe in closed session we can talk a little bit about 
whether this experience that this young 17-year-old had is 
consistent with your concerns. But, you know, obviously very, 
very concerning and a wake-up call for all of us.
    Mr. Krebs. If I can comment on that article, you know, I 
try to look at the glass is half-full side of this. I think 
with the DefCon and Black Hat conference, what we are seeing is 
an awakening and an awareness of the importance of security and 
cybersecurity in election security. That is happening. No one 
is sitting back and taking this on the chin. We are stepping 
forward. We are making progress.
    I would also say that when you have--I think that 
individual has been in computer science for 5 or 6 years. That 
is also one of the greatest gaps that we have as a Nation, 
cybersecurity workforce, but also STEM education in our K-12 
and higher education.
    So when I read that article, I have some doubts----
    Senator Heitkamp. He professed that he did not have a level 
of skill sets that would in any way match a Russian data base 
or bank of hackers.
    Mr. Krebs. But he is in the game, and I tell you what, that 
17-year-old and the other 11-year-old that they were talking 
about, I want their resumes in 5 years. We need more of that.
    Senator Heitkamp. Well, I am telling you, it is a wake-up 
call.
    Ms. Mandelker, you know, I am just going to say that I 
watch and we can look at all the metrics that Senator Tillis 
was talking about and GDP and effect. But let us get down on a 
microlevel because I have been watching your work regarding 
Rusal. It seems pretty schizophrenic. It seems not only on your 
side but on the tariff side where, you know, all of a sudden 
out of nowhere they are granted a waiver; when it becomes 
public, the waiver is withdrawn from their tariffs.
    And so how does it really benefit us if we say we are going 
to give you extensions so that you can get rid of the oligarch 
so you can continue to function? And that seems schizophrenic 
to me.
    Ms. Mandelker. So, Senator, I cannot talk to the tariffs. 
That is a decision made by the Department of Commerce.
    Senator Heitkamp. I know that.
    Ms. Mandelker. Very specifically, with respect to Rusal, we 
were clear that when we designated Deripaska and his companies, 
we were designating those companies because they were 50 
percent or more owned or controlled by Mr. Deripaska. The same 
was true with respect to the other oligarchs who we designated. 
At the same time----
    Senator Heitkamp. But you let him take his money out of the 
company before--then said, ``We will lift the sanctions.''
    Ms. Mandelker. We have not lifted any sanctions on Rusal. 
On the very same day that we issued those designations, we also 
appreciated, as we have been discussing, that those kinds of 
designations can have wide-ranging----
    Senator Heitkamp. Isn't that the purpose of these, to 
actually have wide-ranging effects that will lead to economic 
harm and will lead to consequences?
    Ms. Mandelker. Yes, but, Senator, with all due respect, the 
impact that some of those sanctions can have, Rusal was----
    Senator Heitkamp. That is true in any kind of global 
economy. We are going to have--no one cares that soybean 
farmers are collateral damage. So why do we care if other 
people who use aluminum are collateral damage on sanctions?
    Ms. Mandelker. So, Senator, Rusal is one of the biggest 
aluminum companies in the world. They have operations all over 
Europe. We have been in close discussions with our close 
partners and allies. We wanted to make sure that the impact of 
the designation was felt on Mr. Deripaska and not our close----
    Senator Heitkamp. I am out of time, but my only point on 
this is there is an approach avoidance on what you guys do, and 
it just seems to me that when you have your boot on the neck of 
a bad actor, you should keep it there.
    Chairman Crapo. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman. I thank all of 
you for your testimony today. And, Mr. Krebs, you have been 
clear that the Department of Homeland Security focuses on 
defense, trying to harden our infrastructure, including when it 
comes to elections, our election information. But I think we 
would all agree that even as we need to harden our defense, the 
best defense would be if we could deter the actions ahead of 
time, regardless of what they may be.
    Mr. Krebs, you have talked about some of the positive signs 
you have seen with respect to the sanctions, and you talked 
primarily about other countries not engaging with the Russians 
when it comes to arms sales. You described it as ``the dog that 
did not bark,'' right?
    Mr. Krebs. I believe that was----
    Senator Van Hollen. I am sorry. Mr. Ford said that.
    But when it comes to interference in our elections, the 
dogs are barking really loudly, right? I mean, we have the 
Director of National Intelligence Dan Coats say the lights are 
flashing red. We had all of the President's top national 
security advisers just a few weeks ago saying that the Russians 
are planning to interfere or are already interfering in the 
2018 elections. We have got the Microsoft story today. We have 
the Facebook story from a couple weeks ago.
    So my question to you as an experienced diplomat, who is 
Putin listening to? Is he listening to DNI Coats or is he 
listening to what President Trump is saying in Helsinki and at 
the rally 24 hours after all those national security advisers 
met saying that this is ``a Russian hoax''? Who is President 
Putin listening to?
    Mr. Ford. I guess I will venture to take that one, Senator.
    Senator Van Hollen. That is, I am sorry, Mr. Ford, for you.
    Mr. Ford. I am obviously not in a position to describe in 
any useful detail, you know, to whom President Putin is 
listening in his own inner councils. I certainly hope someone 
knows that, but I do not know myself. I can say that my own 
impression from these issues has been that the Russians are 
very well aware of what in the Soviet era they used to call 
``the correlation of forces.'' They understand what it means to 
feel pain and what it is for economic and other sanctions--
other factors to play together in a country's national power.
    What we are trying to do, putting aside whatever it is--I 
understand your question, but I think from a Russian 
perspective, my guess would be that they are very attuned to 
the net impact we are having upon their ability to project 
power into----
    Senator Van Hollen. Mr. Ford, I am asking about the 
elections. We have evidence, including this morning, that they 
clearly have not gotten the message with respect to interfering 
in our politics, in our elections. You said earlier that the 
obvious objective is to influence Russian behavior. That is the 
obvious objective of sanctions. You also said that we need to 
make it clear that there will be a painful result if the 
Russians engage in malign behavior.
    Here is what Secretary Pompeo said in response to a 
question from Senator Rubio just a few weeks ago in the Senate 
Foreign Relations Committee, because Senator Rubio and I have 
introduced the DETER Act, which would establish very clear, 
certain penalties on Russian behavior if we catch them again 
interfering in our elections.
    Secretary Pompeo said, ``Senator, I completely agree with 
you that there is a cost-benefit calculation that is undertaken 
before the Russians act. So it follows necessarily that putting 
them on notice with essentially a fail-safe about things that 
will follow has the likelihood of being successful in raising 
the cost in terms of how he calculates risks associated with a 
wide range of actions.''
    Do you agree with the Secretary's statement?
    Mr. Ford. I clearly agree with Secretary Pompeo. I think it 
is important--as I was explaining a bit earlier, I think it is 
important to protect and advance a couple different equities 
simultaneously here. We need to influence Russian behavior. In 
the sanctions context, we need to protect the economic and 
competitive interests and job equities that we have. We need to 
protect our relationships with other players around the world.
    We do not have, to my knowledge, an interagency position on 
that particular piece of legislation at this time. I believe it 
presents challenges from the perspective of the degree to which 
we are in--the degree to which it is possible to have a 
national security waiver. As part of----
    Senator Van Hollen. Mr. Ford, I am sorry. My time is 
running out, and we can work on issues regarding a waiver.
    Mr. Ford. We would be happy to engage in all these 
questions.
    Senator Van Hollen. But I worried a little bit when you 
said they can study to the test. The reality is under the DETER 
Act, there is no getting around the penalties, right? That is 
the whole idea of deterrence. You have clear, harsh penalties. 
And I should stress these are contingent penalties. We have had 
a lot of talk about whether we should increase sanctions on 
Russia today. What we are talking about in this piece of 
legislation is if they get caught interfering in our elections 
in 2018, after this bill were to pass, then there would be 
harsh sanctions. Do you agree with the Secretary that that 
seems like a good framework to approach this issue?
    Mr. Ford. We have already made very clear that, you know, 
there are behaviors--and that is one of them--that would be 
unacceptable, and we certainly plan and would expect to make 
Russia regret any step of that sort. We would be happy to work 
with you and your staff to provide input to make sure that this 
legislation, if it moves forward, is as well crafted as it can 
be, including from the perspective of making sure that this is 
not a blunderbuss but more of a rapier or rheostat that we can 
use as a tool of diplomacy and behavioral inducement to help 
ensure that Russia behaves better and that we can modulate 
pressures in response to how their behavior----
    Senator Van Hollen. Well, thank you. That was a lot of 
adjectives, but the point--today we know that they are not 
getting the message. I mean, we know that, right? You do not 
have to tell us. The Director of National Intelligence and 
everybody has told us that they clearly are not getting the 
message today, despite what you and everybody else has been 
saying.
    So we have got about 80 days, less than that, to go, and my 
goodness, if we cannot come up with a way to safeguard the 
integrity of our democracy in the next 80 days, shame on us.
    Chairman Crapo. Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    Let me try a different tactic. Let me ask the three of you 
if you can help me understand the Administration's strategy 
toward Russia's election interference. What theory of 
behavioral change is the Administration pursuing that entails 
Treasury designating a series of Russian entities and 
individuals on the one hand, and has President Trump standing 
next to Putin and saying Russia is not targeting U.S. elections 
on the other? What is the thinking that links those two 
actions? Can any of you answer that?
    Ms. Mandelker. Senator, I think the President later 
corrected what he had said during that press conference. But 
the bottom line is that we have been----
    Senator Cortez Masto. And are you getting clear direction 
from the President in addressing the concern that I am hearing 
from all of my colleagues in a bipartisan manner to address 
what Russia is doing in interfering with our election process?
    Ms. Mandelker. Absolutely, Senator.
    Senator Cortez Masto. So what additional sanctions can 
Treasury impose?
    Ms. Mandelker. Again, this morning we imposed additional 
sanctions. It is a very active program for us. As I have 
already mentioned, we have designated some of the biggest 
companies in Russia. We have designated some of Putin's closest 
allies who have an enormous amount of wealth, which was 
seriously impacted by our sanctions. The impact of our 
sanctions has also had a worldwide impact for Russia. It has 
had a chilling effect on individuals and companies and 
countries who are considering doing business with Russia 
because they understand that----
    Senator Cortez Masto. Well, Ms. Mandelker, I only have so 
much time. Let me ask, because I know----
    Ms. Mandelker. ----there are always more to come from the 
Treasury Department.
    Senator Cortez Masto. I appreciate that, and we have had 
this conversation in the confidential briefing as well, which I 
was not impressed with.
    There is evidence through the Panama Papers or Russian 
Forbes suggesting that several childhood friends of President 
Putin have come into enormous financial windfalls that raise 
strong suspicions of corruption. These men are just a few of 
the Russian individuals and entities that experts have 
suggested should be designated under CAATSA authority. Does 
Treasury have the authority under CAATSA to pursue these 
individuals? And are you pursuing them?
    Ms. Mandelker. I cannot speak to any particular individuals 
without knowing their names and circumstances, but, absolutely, 
we have very broad----
    Senator Cortez Masto. So you are not aware of those 
individuals and the evidence through the Panama Papers or the 
Russian Forbes? You are not familiar with what I am talking 
about?
    Ms. Mandelker. Senator, as you are aware, we have conducted 
with the interagency a very extensive report under CAATSA which 
detailed a number of oligarchs and senior foreign officials who 
are close to Putin. We have a great deal of information about 
those individuals, and we have designated a number of them.
    Senator Cortez Masto. So my colleague just referred to the 
DETER Act. Do you support it?
    Ms. Mandelker. Senator, I know the Administration is happy 
to work with the Senate on the DETER Act or any other 
particular piece of legislation----
    Senator Cortez Masto. Is there any language in the DETER 
Act that you have concerns about?
    Ms. Mandelker. We are happy to sit down and provide that 
kind of guidance. I think those discussions have already been 
well underway.
    Senator Cortez Masto. Mr. Krebs, you identified there were 
five States without paper ballots. Are you currently working 
with those States to shore up the integrity of their election?
    Mr. Krebs. Yes, ma'am. We work with all 50 States.
    Senator Cortez Masto. And you are currently working with 
those five?
    Mr. Krebs. Yes, ma'am.
    Senator Cortez Masto. Is there anything that we can do in 
Congress to continue to support shoring up the election 
integrity in all of those States and what you are doing in 
working with them?
    Mr. Krebs. Absolutely. I think I have already mentioned 
that when you do go back to your jurisdictions, when you go 
back to your districts, please encourage your State and local 
officials to work with us. You know, we hit them up every day, 
but I think the more voices they hear--you know, I do not want 
to undersell the level of work and partnership we are seeing, 
but we can always do more.
    Senator Cortez Masto. So there was an opportunity to 
supply--appropriate $250 million to the States, on top of the 
$380 million that was appropriated for the States that the 
States have utilized. Are you hearing from those States that 
additional dollars, the $250 million, would have been helpful 
to help shore up the integrity of the election process?
    Mr. Krebs. As I understand it, they are in the process of 
implementing that $380 million, which was a much-needed 
infusion. Going forward, there will be a requirement for 
additional funding. What we are trying to help States with is 
refine what the ask is and really get to the bottom of what is 
it that they need and how are they going to use it.
    There have been investments at the State level because 
ultimately this is a State and local responsibility to 
administer Federal elections. We are in a supporting role. The 
question going forward is: Is there money needed? How much? 
Where is it going to come from? And then how are going to--if 
it is a Federal spend, how are we going to ensure the 
appropriate risk-based security outcome?
    Senator Cortez Masto. And besides paper ballots, is there 
anything else that can be----
    Mr. Krebs. Auditability, yes, ma'am. Auditability.
    Senator Cortez Masto. OK. Thank you. I know my time is 
running out. Thank you very much.
    Chairman Crapo. Thank you.
    Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    Sanctions usually involve an effort to follow the money, 
and Russians close to Putin are using every opportunity they 
can to make it harder for the United States to follow the 
money. The recent defense bill requires Treasury to brief 
Congress on the assets owned by Vladimir Putin and his cronies, 
including the location, value, size, and contents of their bank 
accounts, real estate holdings, and all other financial assets, 
and the shell companies they use to hide those assets. That 
bill has now been signed into law.
    Under Secretary Mandelker, when can we expect you to 
provide this briefing?
    Ms. Mandelker. Senator, we would be happy to work with your 
staff on this briefing. What I can also tell you----
    Senator Warren. This is not about working with my staff. 
You are supposed to give a briefing to all of Congress. I just 
want to know when it will be ready.
    Ms. Mandelker. I cannot give you a date, but I am happy to 
get back to you on that. I am happy to give you that briefing.
    Senator Warren. Weeks? Months?
    Ms. Mandelker. Again, Senator, I believe that that 
requirement was that we conduct that briefing in consultation 
with the Director of National Intelligence and the State 
Department----
    Senator Warren. Have you started that?
    Ms. Mandelker. ----and we will--we have a number of efforts 
underway. In fact, we detailed----
    Senator Warren. Is that a yes or a no?
    Ms. Mandelker. Again, Senator, we have a number of efforts 
underway to follow the money. We just provided an extensive 
report to Congress pursuant to CAATSA, and----
    Senator Warren. Well, you know, you have a requirement here 
in the law, and I am just asking about one thing, about a 
report you are supposed to produce, and I just want to know 
when you are going to produce the report. I ask this question 
because, frankly, I am not convinced that Treasury is doing 
everything possible to hold Putin accountable for using 
cyberattacks to interfere in our elections and those of our 
allies, for illegally occupying Ukraine, for propping up Syrian 
dictator Assad.
    Congress required Treasury to provide a report on the net 
worth and income sources of senior Russians close to Putin, and 
instead, I saw what you did. You copied and pasted the Forbes 
billionaires list. Thank you, but we already had that.
    The Senate Intelligence Committee asked Treasury to help 
follow the trail of dirty Russian money to investigate Russia's 
interference in our election, and you are reportedly dragging 
your feet on that. It has been over a year since Congress 
overwhelmingly passed sanctions on Russia. You still have not 
implemented seven mandatory provisions of that law.
    It is not hard to see why Putin thinks he can still 
interfere in our elections and get away with it. The American 
people and the world deserve to know how Putin makes his money, 
and if we want to squeeze Putin and his cronies, we need to 
follow the money and expose those assets so that these corrupt 
individuals have fewer ways to ignore the sanctions.
    So I want to ask you another question, following up on what 
Senator Heitkamp asked. Last month, just says after President 
Trump met with President Putin in Finland, Rusal, this 
sanctioned Russian aluminum company controlled by a sanctioned 
Putin crony, received an exemption from President Trump's 
tariffs in the Commerce Department. Treasury reportedly signed 
off on this exemption. I sent a letter to the Commerce 
Department asking questions about the decision, and 1 day 
later, the Administration reversed its tariff exemption. I was 
very glad to see that. But can you tell me--I still have a 
simple question. How did Treasury allow a tariff exemption for 
the subsidiary of a sanctioned Russian company in the first 
place, given that the tariff was meant to protect American 
suppliers?
    Ms. Mandelker. Senator, that was a decision by the 
Department of Commerce, not a decision by the Treasury 
Department. That is not a decision----
    Senator Warren. And so the information that you signed off 
on it and then reversed positions is not accurate?
    Ms. Mandelker. That is right, Senator.
    Senator Warren. OK. You are saying it did not--it is not 
accurate that that did not happen. All right. So let me ask the 
rest of it. Meanwhile, Treasury is reportedly considering 
lifting sanctions on Rusal, which is sanctioned for its 
financial ties to a corrupt Russian oligarch who contributed to 
Putin's illegal occupation of Ukraine. Treasury Secretary 
Mnuchin recently said he was concerned about ``the hardworking 
people of Rusal.''
    So let me ask, has Putin withdrawn from the illegal 
occupation of Ukraine, stopped cyberattacks and disinformation, 
or halted efforts to spread corruption?
    Ms. Mandelker. Senator, I just want to correct one point 
from your earlier question.
    Senator Warren. Yes?
    Ms. Mandelker. The oligarch report, the classified oligarch 
report, as we have said repeatedly, was a very extensive piece 
of work. It involved over 2,500 hours of work within the 
interagency. So in terms of following the money, we have 
undertaken----
    Senator Warren. Well, look, I am now out of time----
    Ms. Mandelker. ----not just in that report but in a 
number----
    Senator Warren. ----but let me just say on this, we just 
passed a law about this. I just asked you about when you--
asking you for a report, and it was signed into law, and all I 
ask you is when are you going to follow that, and you tell me, 
``We already have.'' If we thought you had already done it, we 
would not have passed another law asking for this report. So I 
think it is perfectly fair to ask you when you are going to 
comply with the law that President Trump recently signed in 
effect?
    Ms. Mandelker. And, again, Senator, I have made clear that 
that law requires that we provide a briefing. We are happy to 
do that. We just provided a report last week----
    Senator Warren. When? That was my question.
    Ms. Mandelker. ----covering illicit finance of money 
laundering by Russia.
    Senator Warren. And when are you ready for that briefing?
    Ms. Mandelker. Excuse me.
    Senator Warren. When? That was my question. That was the 
whole question. It was a short question.
    Ms. Mandelker. I understand. We are happy to get back to 
you. That is a briefing that we would do with the Director of 
National Intelligence and the State Department. I am not 
prepared to give you a date today, but we will give you a date 
in short order.
    Senator Warren. Or even a ball park. Thank you.
    Chairman Crapo. Senator Reed.
    Senator Reed. Well, thank you, Mr. Chairman.
    Let me ask if anyone would disagree with the statement that 
we have irrefutable, uncontradicted evidence that the Russian 
Government, at the direction of President Putin, interfered in 
the 2016 election to favor the candidacy of President Trump and 
disfavor the candidacy of Secretary Clinton, that they continue 
to engage in activities to undermine our election process 
throughout the United States? Does anyone disagree with that?
    Mr. Krebs. Sir, I think that tracks against the 
intelligence community's assessment----
    Senator Reed. That is a fact. So, again, going back to 
questions that Senator Jones and Senator Van Hollen raised, why 
does the President seem unwilling to accept this fact? As 
recently as yesterday, he suggested that it may or may not have 
been the Russians in an interview with Reuters. Why doesn't he 
accept what is the facts?
    Mr. Krebs. Sir, I believe he has supported the intelligence 
community. He supports the intelligence community. As Under 
Secretary Mandelker said, he clarified his statement on the 
Tuesday after. Just a couple weeks ago in New York City, Vice 
President Pence was very emphatic about supporting the 
intelligence community and that protecting our elections is a 
priority.
    Senator Reed. So why yesterday when he is asked about the 
Mueller investigation, he criticizes it, says it plays right 
into the hands of Russians, if it was the Russians?
    Mr. Krebs. Sir, I am not aware of that report. Again, I----
    Senator Reed. Well, it was in the newspaper today.
    Mr. Krebs. So the President has been clear he supports the 
intelligence community. I have all the guidance, the direction, 
and the authorities that I need to help State and local 
election officials.
    Senator Reed. Would it help your efforts if the President 
of the United States, your efforts both nationally and 
internationally, if the President of the United States made a 
statement to the American people that essentially reaffirmed 
the statement I just made, i.e., we were attacked by the 
Russians at the direction of Putin, it was designed to affect 
the election in 2016, they are continuing to attack us? Would 
that help your efforts in terms of bolstering election security 
if the President actually said that directly rather than every 
other day equivocating?
    Mr. Krebs. Again, sir, the President supports the 
intelligence community assessment. He has said that publicly. I 
have what I need to----
    Senator Reed. Well, then why does he turn around and say, 
``I support the intelligence community assessment,'' but just 
as recently as yesterday saying, ``Well, it may be the 
Russians, maybe not''? How does that support the intelligence 
community assessment when the intelligence community 
assessment, as you have all conceded, is absolutely conclusive 
as to the involvement of Russia at the direction of Putin, and 
their continuing ongoing threat to the United States? I mean, 
this is as if a previous President sort of said, ``Well, you 
know, we were attacked, but it could have been those guys or 
maybe somebody else.'' I do not think that is the way our 
previous Presidents have acted. I do not think you have an 
answer.
    Mr. Krebs. Sir, again, I have the guidance I need to go and 
engage.
    Senator Reed. But what about engaging the American people 
and the international community? They are looking at, as my 
colleagues have suggested, questions of, well, the President 
does not really believe that. One of the issues that is coming 
up shortly is that the European Union every 6 months has to 
renew sanctions. That expires January 31st of 2019. Is there a 
chance that one--and it has to be unanimous--that one of those 
countries could say, you know, ``This is no big deal with the 
President, I mean, we do not have to do that''?
    Ms. Mandelker. Senator, we engage very extensively with our 
European colleagues precisely on those sanctions. They just 
issued additional sanctions at the end of last month that 
followed sanctions that we had previously designated. We are 
going to continue to work with our colleagues in the EU to have 
them continue to ratchet up the pressure that we have already 
been placing on the Russian economy. Those discussions have 
been quite productive.
    Senator Reed. So have you heard any of your European 
colleagues suggest to you that they are confused about the 
President's statements?
    Ms. Mandelker. No, Senator.
    Senator Reed. So they are as completely assured of his 
situation as we are? And, frankly, you cannot explain the 
comment yesterday. Neither can I. Why would one question 
whether the Russians are involved in the election as recently 
as yesterday if, in fact, you do support the intelligence 
community?
    Thank you.
    Chairman Crapo. Thank you, Senator Reed, and that concludes 
the questioning.
    Questions submitted by Senators will be due by next 
Tuesday, and I ask all of our witnesses to respond promptly to 
those questions if they are submitted to them.
    And with that, this hearing is concluded. Thank you again 
for your attendance and willingness to share your expertise 
with us here today. Thank you.
    [Whereupon, at 12:14 p.m., the hearing was adjourned.]
    [Prepared statements and responses to written questions 
supplied for the record follow:]
               PREPARED STATEMENT OF CHAIRMAN MIKE CRAPO
    This morning the Committee will receive testimony from senior 
Administration officials from the Departments of Treasury, State, and 
Homeland Security on the implementation and effectiveness of the 
sanctions program currently in place against Russia.
    The reasons for these sanctions include Russia's standing military 
incursions in Ukraine; abetting Assad's atrocities in Syria; conducting 
cyberenabled information warfare activities and cyberattacks against 
United States critical infrastructure, including its malicious meddling 
in U.S. elections, among a host of other malign Russian activities.
    The Banking Committee plays a leading role in developing any 
legislation that proposes the use of sanctions and financial pressure, 
more especially those measures involving financial institutions, 
sovereign debt, and other financial instruments to address serious 
threats to the national security of the United States.
    Just about 1 year ago, on August 2nd, the President signed into law 
the Countering America's Adversaries Through Sanctions Act of 2017, 
known as CAATSA, which included in it, among other things, authorities 
for not only a set of strengthened sanctions against Russia but also 
brand new authorities for several powerful mandatory secondary 
sanctions.
    It was this Committee that put together the foundation for those 
sanctions and financial measures on Russia and then worked with the 
Committee on Foreign Relations to expand them as part of CAATSA.
    CAATSA was truly a four-square effort: it was not only strongly 
bipartisan but also bicameral. It passed the House by a vote of 419-3 
and two days later, by the Senate on a 98-2 vote.
    It's not often that Congress acts together in such a strong manner, 
as marked by such near-unanimous votes. But, then, Russia is a menace 
on so many different levels, today, that Congress can be compelled to 
act with a single voice to find solutions that will protect America and 
democratic values across the world.
    To its credit, the Administration, in the year since CAATSA, has 
imposed some of the toughest sanctions in years on Russia, particularly 
with regard to those imposed in April on Russia's oligarchs and their 
business associations.
    The bulk of sanctions imposed against Russia pertain to its 
unlawful invasion and annexation of Crimea. These were strengthened by 
Congress in CAATSA and absent any change in Putin's behavior, will 
likely remain in place until he's no longer in power and Crimea is 
returned.
    In all, over the last year, the Administration has sanctioned over 
200 targeted Russian individuals and entities, for either its 
cyberattacks or Ukraine behavior either pursuant to congressional 
sanctions, or under its own executive authority.
    I hope to receive an update today from our witnesses on how the 
sanctions against Russia are being implemented and enforced.
    It was a positive step when, 2 weeks ago, in response to Russia's 
use of a nerve agent in Britain against one of its former spies and his 
daughter, the State Department showed its resolve against Moscow while 
it took a stand with our British allies by imposing a set of escalatory 
sanctions under the Chemical and Biological Weapons Control and Warfare 
Elimination Act of 1991.
    The Administration is taking some important steps against Putin, 
his cronies, and the industrial apparatus they control, but can 
Congress expect more from the Administration--and, when?
    Congress itself is positioned to do more. There are bills in this 
Committee and in the Foreign Relations committee which seek to escalate 
economic pain throughout Russia's banking and energy sectors and 
sovereign debt markets.
    As we all, and that includes the Administration, consider next 
steps to further constrain Putin, including sanctions and other 
diplomatic initiatives, several questions come to mind----
    What degree of success have the existing evolutions of sanctions, 
which work to constrain the Russian economy and derail the activities 
of those individuals closest to Putin, had on Putin's behavior at home 
and abroad?
    What is the most effective way to coordinate and strengthen 
sanctions with our European allies and other partners?
                                 ______
                                 
              PREPARED STATEMENT OF SENATOR SHERROD BROWN
    Mr. Chairman, thank you for agreeing to this important hearing, the 
first in a series in the coming weeks on sanctions and other measures 
that might more forcefully counter Russia's continuing efforts to 
attack the U.S. and our allies.
    While sanctions have had some effect on Russia's economy, it's not 
clear what effect they have had on Russia's malign activities around 
the world. Russia remains in Crimea, its proxies are still in eastern 
Ukraine, it serves as the arsenal of Assad, and it continues to attack 
our electoral system and other key components of our infrastructure.
    We must send a more powerful and direct message to Putin and those 
within his circles: We know what you're doing, it must stop, and if you 
continue, you and your Government will pay a dear price.
    Over a year ago, Congress gave the President the authority to use 
more assertive sanctions against Russia.
    My colleagues and I have pressed for nearly a year for stronger 
CAATSA implementation. After months of waiting, we requested 
assessments by the Inspectors General of the Intelligence Community, 
State, and Treasury Departments.
    These hearings, and these IG audits, are not simply a reaction to 
the President's startling performance in Helsinki, which was widely 
panned on both sides of the aisle and the Atlantic. There is a deeper 
problem. With a few exceptions, the President has refused to use the 
new authorities under CAATSA.
    Let me give you one example. Administration officials identified 
Russians responsible for supplying chemical weapons components for use 
in Syria, the ones that killed and maimed men, women, and children 
alike. Our U.N. Ambassador announced the imminent imposition of 
sanctions. The next day they were withdrawn, reportedly on orders from 
the President.
    That is not the way mandatory sanctions operate. Section 231 of 
CAATSA requires that once violators are identified, they must be 
sanctioned, or waivers exercised--these defense and intelligence 
sanctions in CAATSA were not permissive, they were mandatory. And then 
the Administration requested that a broader waiver to section 231 be 
included in the defense bill last month, basically because the 
President could not certify the key condition of the existing waiver: 
that Russia was significantly reducing its cyberattacks against the 
United States.
    I think it was a bad idea to use the recent defense bill to relax 
waiver authorities on Russian defense and intelligence sector 
sanctions, and then effectively exempt those waivers from Congressional 
review under CAATSA. Instead of strengthening sanctions, we've gone in 
the opposite direction. We should be strengthening, not weakening, 
sanctions.
    And that's why the Administration continues to face fierce 
bipartisan criticism on its Russia policy, why a new round of oversight 
hearings is being convened, and why members on both sides are proposing 
new sanctions.
    In addition to urging the Administration to use CAATSA as it was 
intended, I think most of us agree Congress should also do more to 
increase pressure. Congress crafted tough, comprehensive Russia 
sanctions, enacted last August by overwhelming majorities in both 
chambers--419-3 in the House, 98-2 in the Senate. We should build on 
that broad bipartisan consensus.
    We should focus on the facts and broader strategic questions: What 
is Russia's Government still doing in Syria, Ukraine and Crimea? What 
active cyberattacks are they directing against our elections and 
critical infrastructure? And what powerful economic, trade, financial, 
diplomatic and political tools can we deploy now to deter those 
threats--or threaten to deploy by dropping the hammer if they continue?
    Russia's election interference, confirmed unanimously by U.S. 
intelligence earlier this year, and reaffirmed since then, poses a 
problem that goes far beyond foreign policy, and strikes at the core of 
our democracy. This is not a partisan issue. There is no disagreement 
about what happened here.
    Now we're less than 100 days away from another election, and the 
Director of National Intelligence has been sounding the alarm that the 
warning lights are blinking red again.
    And while some efforts are being made to bolster State election 
security measures, and otherwise contain these threats, including a 
markup of a measure this week in Rules, it appears little is being done 
to address their source: Russia's Government.
    I know my constituents are clear-eyed about these threats. The 
Ukrainian community in Ohio and around the world knows firsthand--like 
our NATO allies Latvia, Lithuania, Estonia--the dangers of unchecked 
Russian aggression.
    I also know, as past Committee witnesses have said, U.S./EU unity 
is critical if sanctions on Russia are to be effective.
    That's why we should not only press to more aggressively implement 
current Russian sanctions, but we must also strengthen our response. 
New bipartisan sanctions measures have been introduced. These hearings 
are a critical next step.
    Today we're joined by Treasury Under Secretary Mandelker; Assistant 
Secretary for International Security and Non-Proliferation Chris Ford 
from the Department of State; and Christopher Krebs, Under Secretary 
for the National Protection and Programs Directorate, Department of 
Homeland Security--three people responsible for policy on countering 
Russia within the Administration. I welcome you all. I am interested to 
hear your perspective on where we are, what effects the current 
sanctions regime is having on Russia's economy and behavior, and where 
you think we're headed in the coming months.
                                 ______
                                 
                PREPARED STATEMENT OF SIGAL P. MANDELKER
   Under Secretary, Terrorism and Financial Intelligence, and Acting 
              Deputy Secretary, Department of the Treasury
                            August 21, 2018
Treasury's Efforts To Counter Russian Malign Activity
    Chairman Crapo, Ranking Member Brown, and distinguished Members of 
the Committee, thank you for inviting me here today to speak on behalf 
of the Treasury Department and provide an update on our comprehensive 
efforts to counter Russia's malign activity. Our efforts, taken 
together with our partners across the U.S. Government and around the 
world, are guided by a clear understanding of the threat Russia poses 
to the United States and to our friends and allies.
    As Russia seeks to challenge the United States and its allies, we 
see this threat manifest itself in a variety of ways, including by: 
continuing its occupation of Crimea and ongoing aggression against 
Ukraine, attempting to subvert Western democracies, including our own, 
through election interference; enabling the Assad regime's massacres in 
Syria; using chemical weapons in an attempt to assassinate a British 
citizen and his daughter in the United Kingdom; perpetrating malicious 
cyberattacks; maintaining ties to transnational organized criminal 
groups; violating human rights at home; fostering corruption across 
Russia's economy; and facilitating sanctions evasion and other illicit 
activity across the globe. The breadth and brazenness of Russia's 
malign conduct demands a firm and vigorous response.
    Precisely for this reason, Treasury's Russia sanctions program is 
among our most active and impactful. Since January 2017, this 
Administration has sanctioned 217 Russian-related individuals and 
entities for a broad range of activities, 200 of which were sanctioned 
by Treasury's Office of Foreign Assets Control (OFAC). Indeed, we have 
issued Russia-related measures in 7 of the last 9 months. Since the 
start of this Administration, Treasury has also added 32 Russian 
entities to its Sectoral Sanctions Identification List, subjecting 
those listed to debt and equity restrictions, as well as prohibitions 
on the provision of goods, services, and technology in support of 
certain energy projects in Russia. Pursuant to the Countering America's 
Adversaries Through Sanctions Act (CAATSA), we have also tightened 
these restrictions.
    In doing so we have targeted a veritable ``who's who'' of Russia's 
most prominent companies. These include Rosoboronexport, Russia's 
primary State-owned weapons trading company; EuroSibEnergo, among the 
largest independent power companies in Russia; and Surgutneftegaz, a 
major Russian oil company.
    Our targets also include the heads of major State-owned banks and 
energy firms, as well as some of Putin's closest associates. These 
figures include Putin affiliates Oleg Deripaska and Viktor Vekselberg; 
Putin's current or former son in law Kirill Shamalov; the heads of 
State-owned companies such as Gazprom's Alexei Miller, Gazprombank's 
Andrey Akimov, and VTB Bank's Andre Kostin; the head of the Russian 
Security Council, Nikolai Patrushev; and the Russian Minister of 
Interior, Vladimir Kolokoltsev. Dealings with such persons on our 
Specially Designated Nationals and Blocked Persons List, moreover, 
create exposure to secondary sanctions under CAATSA, meaning that 
persons who deal with them risk being sanctioned themselves. Targeting 
these Russian individuals and entities have made them radioactive, as 
we have made clear to the world that those who choose to continue to do 
business with them do so at their own peril.
    That CAATSA was passed by a near unanimous vote demonstrated great 
resolve by Congress to counter Russia's malign activity. We share that 
resolve. The Department of the Treasury's approach towards Russia is 
informed by this Administration's 2018 National Security Strategy, 
which clearly recognizes the full range of Russian malign activity, and 
which prioritizes the importance of economic tools to ``deter, coerce, 
and constrain'' our adversaries.
    As companies across the globe work to distance themselves from 
sanctioned Russian persons, our actions are imposing an unprecedented 
level of financial pressure on those supporting the Kremlin's malign 
agenda and on key sectors of the Russian economy.
    Treasury's actions have caused extensive consequences to the 
financial interests of targeted individuals and entities, including 
blocking hundreds of millions of dollars in Russian assets in the 
United States. Targeted State-owned banks and other sanctioned entities 
likely have higher financing costs than they otherwise would if not for 
Treasury's prohibitions on debt purchases. Russian companies designated 
for their links to Crimea have been forced to cut production and have 
lost business relationships with foreign commercial partners. In 
addition, we have cut off, from the U.S. financial system and beyond, 
malicious cyberactors, including those providing offensive 
cybercapabilities to the Russian intelligence services, some of whom 
covertly worked on behalf of the Kremlin to interfere with the 2016 
U.S. election. Such reactions illustrate the substantial costs our 
measures are imposing on those who undermine U.S. interests.
    Building on sanctions implemented since 2014, the impacts of our 
Russia-related sanctions are felt far beyond the targeted entities and 
persons. Western sanctions and subsequent geopolitical tensions have 
raised uncertainty and dampened domestic and foreign private investment 
in Russia. In the energy sector, our sanctions have limited important 
investment in exploratory energy projects needed to help grow Russia's 
oil and gas production capacity. Overall foreign direct investment into 
Russia has fallen over 5 percent since 2013, with sizeable declines in 
direct investments from the United States, which have fallen 80 percent 
since 2013. Direct investment into Russia from other major economies 
also declined over the same period. Russia is taking note of these 
impacts.
    In addition to sanctions, we are also strategically and smartly 
deploying Treasury's other economic authorities--such as anti- money 
laundering (AML) measures, enforcement actions, actions under Section 
311 of the USA PATRIOT Act, foreign engagement, and private sector 
partnerships, among other tools--to disrupt Russia's illicit financial 
conduct and harden the international financial system against its 
predation. We are directly engaging our foreign allies and partners, 
especially those in Europe, to coordinate these efforts and augment the 
impact of our actions. We are working closely with our interagency 
partners to deploy the full range of other financial, intelligence, law 
enforcement, and diplomatic tools to expose, disrupt, and impose costs 
on those responsible for Russia's malign activities.
    By strategically leveraging all of these complementary authorities, 
we are increasing financial pressure on Russia to advance our national 
security priorities while simultaneously mitigating unnecessary impacts 
on the United States, our European allies, and the global economy. We 
recently submitted a report pursuant to Section 243 of CAATSA further 
elaborating on these efforts (see Attachment).
    We have imposed major costs on Russia. Yet the significance of our 
actions and other financial measures must ultimately be measured in 
terms of their strategic impacts. Though Russia's malign activities 
continue, we believe its adventurism undoubtedly has been checked by 
the knowledge that we can bring much more economic pain to bear using 
our powerful range of authorities--and that we will not hesitate to do 
so if its conduct does not demonstrably and significantly change.
Overview and Impact of April 6 Oligarch and Russian Official 
        Designations
    An important example of the impact that Treasury actions have had 
on Russia was in our April 6, 2018, designation of 38 entities and 
individuals, including 7 Russian oligarchs and 12 companies they own or 
control, and a major State-owned Russian weapons trading company and 
its bank subsidiary. This action included sanctions against 17 senior 
Russian Government officials, many of whom were appointed to their 
posts by Putin and hold prominent positions in the Russian Government 
and business community.
    Among the 12 companies sanctioned are Renova Group, an 
international group of asset management companies and investment funds 
owned by Vekselberg; RUSAL, the second-largest producer of aluminum in 
the world; EN+, a publicly traded holding company for Deripaska's 
metals and energy assets; GAZ Group, Russia's leading producer of 
commercial vehicles; and EuroSibEnergo, as mentioned above, one of 
Russia's largest independent power companies.
    As a result of this action, we have impeded the ability of these 
actors to access the financial system, reduced the value of their 
assets, and forced companies to extricate themselves from involvement 
with designated actors. Other tangible impacts include:

  <bullet>  Since being designated, Deripaska's estimated net worth has 
        dropped by roughly 50 percent, and the share price of EN+ fell 
        from $12.20 to $5.40 on the London Stock Exchange following its 
        designation.

  <bullet>  Vekselberg's net worth dropped an estimated $3 billion, and 
        foreign Governments have launched investigations and frozen 
        Vekselberg's assets in their jurisdictions. Additionally, 
        Vekselberg's Renova Group was forced to divest from ventures in 
        Switzerland and Italy.

    As our public actions continue to draw high-profile attention to 
those individuals and entities charged with carrying out Putin's 
orders, the world takes note. Many have become pariahs in the 
international community and have lost their ability to portray 
themselves as legitimate businessmen.
Additional Treasury Actions
    We have also targeted Russia's malicious cyberactivity, sanctioning 
those behind Russia's interference in the 2016 U.S. election, as well 
as companies developing and procuring offensive cybercapabilities and 
underwater technologies for the Federal Security Service (FSB). We 
designated two Russian intelligence organizations--FSB and the Main 
Intelligence Directorate (GRU)--both of which engage in activities that 
undermine U.S. cybersecurity on behalf of the Russian Government.
    In March, we designated Russian oligarch Yevgeniy Viktorovich 
Prigozhin under our cyberauthorities for funding the operations of the 
Internet Research Agency, which has covertly worked on behalf of the 
Kremlin to influence social media networks and interfere with the 2016 
U.S. election. In exposing the activities of these organizations and 
designating companies for their dealings with them, we not only cut 
them off from the United States and U.S. persons, but subject third 
parties who deal with them to potential sanctions as well.
    We also are exposing and disrupting Russian support to rogue 
States. We used our Syria authorities to sanction Russia's primary 
State-owned defense firm and its bank subsidiary for supplying Russian 
military equipment to the Assad regime, hindering the firm's ability to 
receive payments from existing contracts with other countries. And just 
earlier this month, we designated a Russian bank, Agrosoyuz Commercial 
Bank, for knowingly facilitating a significant transaction on behalf of 
U.S. and U.N.-designated North Korean individuals and entities.
    Our sanctions have blocked hundreds of millions of dollars in 
Russian assets in the United States and caused extensive damage to the 
economic interests of affected individuals and entities. Companies and 
individuals around the world have cut ties to sanctioned actors in 
attempts to protect their commercial interests. Notably, in early 2018, 
Exxon announced that it had decided to end its joint exploration 
ventures with Rosneft due to the continued economic pressure imposed by 
our sanctions. In 2017, Rosneft separately announced a hold on a major 
South Black Sea project, citing sanctions as limiting its ability to 
obtain modem technology and equipment.
    We also continue to track and target illicit financial hubs where 
Russian actors try to hide their money. Earlier this year, we used our 
authorities under Section 311 of the USA PATRIOT Act to find Latvian-
based ABLV Bank to be a foreign financial institution of primary money 
laundering concern, proposing to prohibit U.S. financial institutions 
from maintaining correspondent accounts on behalf of the bank. In this 
finding and proposed rulemaking, FinCEN cited multiple instances of 
institutionalized money laundering in which ABLV management solicited 
high-risk shell company activity that enabled the bank and--its 
customers to launder funds. ABLV's facilitation of shell company 
activity typically benefited illicit actors engaged in an array of 
illicit conduct, including transnational organized criminal activity, 
corruption, and sanctions evasion, including activity emanating from 
Russia. This finding and proposed action not only was a shock to the 
Latvian banking system, helping prompt that country to undertake 
certain reforms, but it also put financial institutions in other 
similar financial hubs on notice that we will not hesitate to act 
against banks that institutionalize money laundering as a pillar of 
their business practice.
TFI's Work To Advance Our National Security
    In the Office of Terrorism and Financial Intelligence (TFI), I work 
with some of the most dedicated professionals in the U.S. Government, 
who are working countless hours to implement programs that protect our 
national security. This is especially true when it comes to our Russia 
team, who are wholly committed to the mission.
    In addition to our robust Russia program, we also have teams of 
people working across a wide spectrum of other programs. Under this 
Administration, Treasury has sanctioned more than 1,300 individuals, 
entities, vessels, and aircraft.
    In order for us to implement all of these programs and maximize the 
effectiveness of our financial tools, Treasury also has spent 
significant resources drafting new Executive Orders, issuing 
advisories, and providing guidance such as Frequently Asked Questions 
to the public and private sector. Our team also travels around the 
world to ensure our sanctions are effectively implemented and the real-
world risks of transacting with designated individuals and entities are 
fully understood.
    Here in Washington, our staff fields thousands of inquiries 
regarding compliance and licensing issues--many highly complicated 
questions that require substantial amounts of time, expertise, and 
effort. Since the start of FY2018, OFAC has received nearly 50,000 
phone calls for guidance on our sanctions programs, including our 
various Russia-related authorities. On top of this, we are required to 
prepare and submit at least 80 reports to Congress in 2018--reports 
that require thousands of hours of work. To highlight just one example, 
the classified oligarch report required by Section 241 of CAATSA 
encompassed more than 2,500 hours of interagency work over the course 
of several months.
    TFI and the interagency colleagues with whom we work bring this 
same dedication to the range of programs for which we are responsible. 
I am proud and humbled to lead these efforts on behalf of the Treasury 
Department and am grateful for the opportunity to help advance our work 
on behalf of our national security.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                PREPARED STATEMENT OF CHRISTOPHER KREBS
    Under Secretary, National Protection and Programs Directorate, 
                    Department of Homeland Security
                            August 21, 2018
    Chairman Crapo, Ranking Member Brown, and Members of the Committee, 
thank you for today's opportunity to testify regarding cyberthreats to 
critical infrastructure. The Department of Homeland Security (DHS) 
serves a critical role in safeguarding and securing cyberspace, a core 
homeland security mission. The National Protection and Programs 
Directorate (NPPD) at DHS leads the Nation's efforts to ensure the 
security and resilience of our cyber- and physical-infrastructure.
    DHS is responsible for assisting Federal agencies in protecting 
civilian Federal Government networks and collaborating with other 
Federal agencies, as well as State, local, tribal, and territorial 
governments, and the private sector to defend against cyberthreats. Our 
work enhances cyberthreat information-sharing across the globe to stop 
cyberincidents before they start and help businesses and Government 
agencies to protect their cybersystems and quickly recover should such 
an attack occur. By bringing together all levels of Government, the 
private sector, international partners, and the public, DHS is taking 
action to protect against cybersecurity risks, improve our whole-of-
Government incident response capabilities, enhance information sharing 
of best practices and cyberthreats, and to strengthen resilience.
Threats
    Cybersecurity threats remain one of the most significant strategic 
risks for the United States, threatening our national security, 
economic prosperity, and public health and safety. Regarding 
cyberthreats to our critical infrastructure, the Director of National 
Intelligence recently said that ``the warning lights are blinking 
red.'' We have seen advanced persistent threat actors, including 
cybercriminals Nation-States and proxies, increase the frequency and 
sophistication of malicious cyberactivity. Our adversaries have been 
developing and using advanced cybersecurity capabilities in attempts to 
undermine critical infrastructure, target our livelihoods and 
innovation, steal our national security secrets, and threaten our 
democracy.
    Although the intelligence community has not yet seen evidence that 
Russia intends to conduct a robust campaign aimed at tampering with our 
election infrastructure or influencing the makeup of the House or 
Senate in 2018, Russia has previously demonstrated the capability and 
intent to interfere with our elections. Russian efforts to influence 
the 2016 elections were one of the most recent expressions of Moscow's 
longstanding desire to undermine the U.S.-led liberal democratic order. 
The Russian Government conducted malicious cyberoperations by 
compromising and leaking emails from U.S. political figures and 
institutions, and targeting election infrastructure. These activities 
demonstrated a significant escalation in directness, level of activity, 
and scope of effort compared to previous operations. Accordingly, we 
view the 2018 midterm elections as a potential target for Russian 
cyberoperations and are working aggressively to mitigate any foreign 
threats to our election systems or infrastructure.
    Global cyberincidents, such as the ``WannaCry'' ransomware incident 
attributed to North Korea and the ``NotPetya'' malware incident 
attributed to the Russian military in May and June 2017, respectively, 
are examples of malicious actors leveraging cyberspace to create 
disruptive effects and cause economic loss. These incidents exploited 
known vulnerabilities in software commonly used across the globe. Prior 
to these events, DHS had already taken actions to help protect networks 
from similar types of attacks. NPPD's National Cybersecurity and 
Communications Integration Center (NCCIC) publishes a list of known 
software vulnerabilities and pushes this information out to 
stakeholders on a routine basis. Additionally, through requested 
vulnerability scanning, we helped stakeholders identify vulnerabilities 
on their networks so they could be patched before incidents and attacks 
occur. Recognizing that not all users are able to install patches 
immediately, we shared additional mitigation guidance to assist network 
defenders. As the incidents unfolded, we led the Federal Government's 
incident response efforts, working with our interagency partners, in 
providing situational awareness, information sharing, malware analysis, 
and technical assistance to affected Government and critical 
infrastructure entities.
    In a series of incidents since at least May of last year, working 
with U.S. and international partners, DHS and FBI have identified 
Russian Government actors targeting Government entities and businesses 
in the energy, nuclear, water, aviation, and critical manufacturing 
sectors. DHS assesses that this campaign ultimately collected 
information pertaining to industrial control systems with the intent to 
gain access to industrial control systems environments. The intrusions 
have been comprised of two distinct categories of victims: (1) staging 
and (2) intended targets. Through the Department's incident response 
actions, we identified activities by Russian Government actors to 
target certain entities that then become pivot points, leveraging 
existing relationships between the initial victim and the intended 
targets to hide their activity, as part of a multistage intrusion 
campaign to gain access to networks of major, high-value assets that 
operate components of our Nation's critical infrastructure. Based on 
our analysis and observed indicators of compromise, DHS has confidence 
that this campaign is still ongoing, and threat actors are actively 
pursuing their ultimate long-term campaign objectives. DHS and FBI 
continue to conduct incident response related to this activity and have 
published a joint technical alert and hosted public webinars to enable 
network defenders to identify and take action to reduce exposure to 
this malicious activity.
    Since 2015, the U.S. Government received information from multiple 
sources--including public and private sector cybersecurity research 
organizations and allies--that cyberactors are exploiting large numbers 
of network infrastructure devices (e.g., routers, switches, firewall, 
Network-based Intrusion Detection System devices) worldwide. Earlier 
this year, DHS, FBI, and the United Kingdom's National Cyber Security 
Centre published a publicly available joint technical alert attributing 
this activity to Russian State-sponsored actors. Targets are primarily 
Government and private-sector organizations, critical infrastructure 
providers, and Internet service providers supporting these sectors. 
Several days after publication of the alert, an industry partner 
notified DHS and FBI of related malicious cyberactivity in which the 
actors redirected certain queries to their own infrastructure and 
obtained sensitive information, which included the configuration files 
of networked devices. Russian State-sponsored actors are using 
compromised routers to conduct man-in-the-middle attacks to support 
espionage, extract intellectual property, maintain persistent access to 
victim networks, and potentially lay a foundation for future offensive 
operations.
Cybersecurity Priorities
    DHS, our Government partners, and the private sector are committed 
to a more strategic and unified approach as we work to improve our 
Nation's overall defensive posture against this malicious 
cyberactivity. Presidential Policy Directive-21, Critical 
Infrastructure Security and Resilience, recognized that only a more 
integrated approach to managing risk would enable the Nation to counter 
malicious cyberactivity our adversaries. In May of this year, DHS 
published a Department-wide Cybersecurity Strategy, providing DHS with 
a strategic framework to execute our cybersecurity responsibilities 
during the next 5 years.
    This Administration has leaned forward even further, prioritizing 
the protection and defense of our people and economy from the range of 
threats that exist today, including those emanating from cyberspace. 
Last year, the President signed Executive Order 13800, Strengthening 
the Cybersecurity of Federal Networks and Critical Infrastructure. This 
Executive Order set in motion a series of assessments and deliverables 
to enable the improvement of our defenses and lower our risk to 
cyberthreats.
    Executive Order 13800 requires continued examination of how the 
Federal Government and industry work together to protect our Nation's 
critical infrastructure, prioritizing deeper, more collaborative 
public-private partnerships in threat assessment, detection, 
protection, and mitigation. In collaboration with civilian, defense, 
and intelligence agencies, we have worked to identify authorities and 
capabilities that agencies could employ, soliciting input from the 
private sector, and developed recommendations to support the 
cybersecurity efforts of those critical infrastructure entities at 
greatest risk of attacks that could result in catastrophic impacts. It 
is only through this collective defense model that we will be 
successful against this threat.
    NPPD's NCCIC operates at the intersection of the private sector, 
State and local governments, Federal departments and agencies, 
international partners, law enforcement, intelligence, and defense 
communities. The Cybersecurity Information Sharing Act of 2015 
established DHS as the Federal Government's central hub for the 
automated sharing of cyberthreat indicators and defensive measures. The 
NCCIC's automated indicator sharing (AIS) capability allows the Federal 
Government and the private sector network defenders to share technical 
information at machine speed,. The NCCIC also provides entities with 
information, technical assistance and guidance they can use to secure 
their networks, systems, assets, information, and maintains 
confidentiality with our data, by reducing vulnerabilities, ensuring 
resilience to cyberincidents, and private partners supporting their 
holistic risk management priorities. DHS does this in a way that 
protects privacy and civil liberties.
National Risk Management
    We are facing an urgent, evolving crisis in cyberspace. Our 
adversaries' capabilities online are outpacing our stovepiped defenses. 
Working together with the private sector and our Government partners, 
we are addressing this problem and taking collective action against 
malicious cyberactors.
    Specifically, there is a need to enhance and promote the 
Department's cross-sector, cross-Government coordination on critical 
infrastructure security and resilience.
    We must improve our focus on examining the critical functions that 
drive our economy and facilitate national security. In other words, we 
need to continually advance our ability to organize and collaborate on 
risk strategies, planning, and solutions. For many years, DHS has 
worked closely with the private sector, but it has become clear that it 
must be a focal point for turning threat intelligence into joint 
action.
    At the Department's first National Cybersecurity Summit this 
summer, in response to a clear demand signal and after extensive 
consultation with industry and Government partners, Secretary Nielsen 
announced the rebranding of the Office of Cyber and Infrastructure 
Analysis (OCIA) as the National Risk Management Center (NRMC). Housed 
within DHS, the NRMC is the logical evolution of the ongoing 
improvements made over the last several years in information sharing 
and partnership building between the Government and industry. The NRMC 
draws on existing resources and functions from across NPPD, the 
Department and our Federal and international partners to bring our risk 
management efforts to the next level in effectiveness.
    The NRMC's mission is to continually facilitate analysts and 
planners, from both public and private sector, in their efforts to 
assess our country's cyber-risks, plan to combat those risks and--most 
importantly--enable implementation of tailored solutions to protect our 
networks. The full expertise of the Federal Government should be 
brought to bear on these challenges. With this in mind, the NRMC will 
provide the private sector with an entrance point for project teams to 
access programs from all departments and agencies and coordinate 
defenses against cyberthreats that can affect all sectors.
    Perhaps most importantly, the Center's core mission focuses on the 
systems or functions that cut across sectors. Ultimately, the Center 
will facilitate a partnership among and across Government and industry 
that can provide a unified, collective approach to the defense that the 
Nation needs to achieve superiority over our adversaries.
    We cannot fail to evolve as the threats continue to come. The NCCIC 
and National Infrastructure Coordination Center (NICC) will continue to 
carryout current operations but the NRMC will enhance their efforts. 
The NRMC will support NCCIC and NICC operations by helping with 
prioritization and other needs, while also looking ahead to plan more 
strategically, and leveraging feedback from the operations and other 
partners.
Election Security
    DHS is committed to ensuring a coordinated Federal Government 
effort to assess vulnerabilities and mitigate risk to election 
infrastructure. We understand that working with election infrastructure 
stakeholders is essential to ensuring a more secure election. Based on 
our assessment of activity observed in the 2016 elections, DHS and our 
stakeholders are increasing awareness of potential vulnerabilities and 
providing capabilities to enhance the security of U.S. election 
infrastructure as well as that of our allies.
    Under the Constitution and our system of laws, State and local 
election officials in thousands of jurisdictions administer Federal 
elections. Risk management for election officials did not begin in 
2016. State and local election officials across the country have a 
long-standing history of working both individually and collectively to 
reduce risks and ensure the integrity of U.S. elections. DHS is working 
with all 50 States to provide value-added--yet voluntary--services to 
support their efforts to secure elections.
    This year our Nation is in the midst of primary and special 
elections as well as the general election in November. We have been 
working with election officials in all States to enhance the security 
of their elections by offering support and by establishing essential 
lines of communications at all levels--public and private--for 
reporting both suspicious cyberactivity and incidents. This information 
sharing is critical and our goal is to enhance transparency and have 
visibility of aggregated elections-related cybersecurity efforts. We 
are also working with election officials, vendors, the Election 
Assistance Commission (EAC), and National Institute of Standards and 
Technology (NIST) to characterize risk to election systems and ensure 
appropriate mitigations are understood and available in the 
marketplace. As a part of this process, we work with these stakeholders 
to recommend best practices to ensure a secure and verifiable vote. 
Through the Government Coordinating Council, we also developed guidance 
for States on how best to spend funding received through the Help 
America Vote Act grant issued by the EAC.
    DHS has made tremendous progress and has been committed to working 
collaboratively with those on the front lines of administering our 
elections--State and local election officials and the vendor 
community--to secure election infrastructure from risks. Engagement 
with all 50 States and the establishment of the Election 
Infrastructure-Information Sharing and Analysis Center with nearly 
1,000 members reflects the advances we have made in building a 
coalition committed to securing elections from cyberthreats. The 
establishment of Government and sector coordinating councils will build 
the foundations for this enduring partnership not only in 2018, but for 
future elections as well. We will remain transparent as well as agile 
in combating and securing our physical and cyberinfrastructure. 
However, we recognize that there is a significant technology deficit 
across State and local governments, and State and local election 
systems, in particular. It will take significant and continual 
investment to ensure that systems are upgraded and insecure or 
vulnerable systems are retired.
Conclusion
    In the face of increasingly sophisticated threats, DHS employees 
stand on the frontlines of the Federal Government's efforts to defend 
our Nation's critical infrastructure from natural disasters, terrorism 
and adversarial threats, and technological risk such as those caused by 
cyberthreats. Our infrastructure environment today is complex and 
dynamic with interdependencies that add to the challenge of securing 
and making it more resilient while not endangering freedom of speech, 
freedom of religion or failing to protect an individual's privacy. 
Technological advances have introduced the ``Internet of Things'' and 
cloud computing, offering increased access and streamlined 
efficiencies, while increasing access points that could be leveraged by 
adversaries to gain unauthorized access to networks. As new threats 
emerge, we must better integrate cyber and physical risk management in 
order to secure effectively the Nation. Expertise in cyberphysical risk 
assessments and cross-sector critical infrastructure interdependency 
evaluation is where NPPD brings unique experience and capabilities.
    We must ensure that NPPD is appropriately organized to address 
cybersecurity threats both now and in the future, and we appreciate 
this Committee's leadership in working to establish the Cybersecurity 
and Infrastructure Security Agency to accomplish this goal. We are 
committed to working with Congress to ensure that we address 
cybersecurity in a way that cultivates a safer, more secure and 
resilient Homeland.
    Thank you for the opportunity to appear before the Committee today, 
and I look forward to your questions.
                                 ______
                                 
               PREPARED STATEMENT OF CHRISTOPHER A. FORD
       Assistant Secretary, Bureau of International Security and 
                 Nonproliferation, Department of State
                            August 21, 2018
    Chairman Crapo, Ranking Member Brown, and Senators, thank you for 
inviting us.
    I represent the Bureau of International Security and 
Nonproliferation (ISN), and I am pleased to join Treasury Under 
Secretary Sigal Mandelkar and DHS Under Secretary Christopher Krebs, to 
help explain how we are employing the various sanctions tools Congress 
has given us vis-a-vis the Russian Federation and the various malign 
activities of the Putin regime. For my part, I will be focusing 
principally upon Section 231 of the Countering America's Adversaries 
Through Sanctions Act of 2017 (or CAATSA), because implementation of 
that section has been entrusted to my bureau at the State Department.
    But if I might, Mr. Chairman, before I talk about our approach to 
implementing Section 231, I'd like first to put my bureau's work in 
this respect into a broader context.
Our Philosophy of CAATSA Section 231 Implementation
    At the ISN Bureau, our traditional focus is upon the myriad threats 
and policy challenges facing the United States from the spread of 
weapons of mass destruction (WMD), to delivery systems, and advanced 
conventional weapons. These issues are of enormous importance to 
national and international security, of course, and ISN's eponymous 
role in ``international security'' has been seen primarily through the 
nonproliferation prism.
    But ``international security'' can--and does--encompass more than 
just nonproliferation, and one of our roles is to implement sanctions 
under Section 231 of CAATSA. In passing that legislation last year, 
Congress made very clear its intention that the purpose of the Russia 
sanctions provisions therein was to pressure Russia to change its 
behavior with respect to a wide variety of malign acts--including 
Vladimir Putin's effort to interfere in the 2016 U.S. presidential 
election. We have heard that message loud and clear.
    Significantly, there is more to this than a much-deserved response 
to malign acts and deterrence to such provocations in the future--
though those are, of course, laudable goals that we fully support, and 
which we are using CAATSA to help bring about. As I see it, these 
sanctions tools also have value in better equipping us to play a role 
in broader arenas of great-power competition and geopolitical 
competitive strategy.
    The new National Security Strategy calls out ``the contest for 
power'' as ``[a] central continuity in history,'' and warns about 
challengers--specifically, ``the revisionist powers of China and 
Russia, the rogue States of Iran and North Korea, and transnational 
threat organizations''--that ``are actively competing against the 
United States and our allies and partners.''
    Similarly, the new National Defense Strategy observes that ``[t]he 
central challenge to U.S. prosperity and security'' today is ``the 
reemergence of long-term, strategic competition.'' ``It is increasingly 
clear,'' that document states, ``that China and Russia want to shape a 
world consistent with their authoritarian model--gaining veto authority 
over other Nations' economic, diplomatic, and security decisions.'' 
Indeed, the NDS notes that ``[b]oth revisionist powers and rogue 
regimes are competing [with the United States] across all dimensions of 
power.''
    This is the mindset that we also bring to approaching CAATSA 
sanctions against Russia. Russia has undertaken a campaign of malign 
activities in its attempt to compete with the United States and our 
allies and partners. The array of sanctions the United States has 
imposed against Russia, and those that materially support its malign 
activities, respond directly to its aggressive action against our 
country, our allies, and our partners.
    And this is where CAATSA's Section 231 comes into play. The threat 
of mandatory sanctions against individuals or entities that have 
engaged in significant transactions with the Russian defense or 
intelligence sectors can be so useful, but we need to use this powerful 
tool surgically--to excise the malignancy without damaging our very 
important foreign relationships. As we have been implementing Section 
231, we began by emphasizing to our allies that transactions with the 
Russian arms industry could have consequences.
    Firstly, these are the same arms that Russia used and continues to 
use in its aggression against Ukraine. Our implementation of the CAATSA 
sanctions reinforces this Administration's unwavering commitment to 
Ukraine's sovereignty and territorial integrity, including over Crimea.
    Secondly--as Willie Sutton reportedly said when asked why he robbed 
banks--``that's where the money is.'' High-technology military 
equipment is one of the only competitive sectors of the Russian economy 
these days, and Moscow makes a great deal of money from selling arms 
abroad indiscriminately--be it to Iran or the Assad regime. These funds 
fuel the Kremlin's malign activities, spread its malign influence, and 
support Russia's development of newer, even more deadly weapons. 
Accordingly, if Russia is to feel pressure in response to its malign 
activities, it makes sense to go after these revenues--revenues that 
may also help offset the costs of developing newer, even more deadly 
weapons that threaten and undermine the security of the United States 
and our allies and partners.
    More broadly, however, Russia also uses its arms transactions as a 
tool of geopolitical influence. For Russia, it isn't just about money, 
but about the relationships that the arms trade creates for Moscow. 
Scaling back and shutting down Russia's arms deals and deterring such 
transactions in the future strike directly at the Kremlin's malign 
activities and influence that it seeks to exert in the international 
community.
    That is our central philosophy behind Section 231 implementation. 
The broadest challenge, of course, is how to manage a relationship with 
Russia that has both important cooperative aspects and important points 
of disagreement. As the President and Secretary Pompeo have made clear, 
we seek to cooperate with Russia on subjects of shared interest 
wherever we can, because of course there are important shared interests 
on which it would be irresponsible of us not to cooperate. This was, 
for instance, well symbolized by the conference we held at the State 
Department on June 28 that brought together the United States, United 
Kingdom, and the Russian Federation as the Depository States of the 
Nuclear Nonproliferation Treaty (NPT), to commemorate the 50th 
Anniversary of that Treaty being opened for signature. For the 
occasion, the three foreign ministers of these Depository States issued 
a joint communique reaffirming their shared commitment to the NPT and 
the nonproliferation regime of which it is the cornerstone.
    At the same time, the Department and my Bureau have not been shy 
about acting forthrightly in pushing back against Russian malign 
activities. The sanctions tools you have given the State Department, 
including CAATSA's Section 231, are valuable elements of how this 
Administration is contributing to American success in responding to 
Russian aggression in this new era of great power competition.
A Record of Successes to Date
    As we have dispatched our diplomats repeatedly around the world to 
spread word about Section 231 and encourage Russia's arms clients to 
wean themselves from Moscow, we have had some notable successes to 
date. Most of these successes are ones about which it is not possible 
or advisable to speak in public, because most interlocutors who take 
action to reduce their exposure to Section 231 sanctions are not keen 
to publicize the fact. We very much wish to respect their 
sensibilities, because that's how friends treat each other. We also 
want to honor these confidentialities because embarrassing partners who 
have done the right thing in reducing their Russian arms entanglements 
isn't a good way to encourage others to follow suit--we are also 
cognizant of potential Russian retaliation against these interlocutors.
    Nevertheless, though we can't speak about them publicly, we have 
had real successes--in the form of something on the order of billions 
of dollars in announced or expected Russian arms transactions that have 
quietly been abandoned as a result of our diplomatic outreach about 
Section 231. That's billions that Putin's war machine will not get, and 
through which the Kremlin's malign influence will not spread, and a 
slew of strategic relationships between the Kremlin and overseas 
partners that will not broaden and deepen. We're proud of this record, 
and we're working hard to run up the score further.
    So effective has the threat of CAATSA sanctions been to date, 
moreover, that we have been able to do all this without imposing 
sanctions on a friend or partner State of our own. I urge you not to 
look at the scorecard as whether the United States has imposed 
sanctions. In this case, sanctions reflect our failure to turn off 
Russian arms deals. The time will come when we will have no choice but 
to impose sanctions, but we are keenly aware that Congress' purpose in 
passing Section 231 was to pressure Russia and incentivize Russia to 
change its behavior, not to hurt U.S. friends and allies who might 
happen to purchase arms from Moscow.
Six Principles for Implementation
    Mr. Chairman, I will be happy to answer any questions you have 
about these matters--at least as best I can in an open forum. I am also 
very happy to participate in or send briefers for a closed session. 
Before I conclude, however, let me say a few more words about our 
approach to Section 231. In particular, I'd like to outline six 
principles that help guide our work:

  1.  First, as I said earlier, the target of Section 231 sanctions is 
        Russia, not the countries that happen to purchase arms from 
        Russia. Our interlocutors and partners need to know that 
        although CAATSA may compel us to have challenging conversations 
        with them, the underlying problem is not with them. Rather, our 
        problem lies with Moscow and its own destabilizing role in the 
        international community. I am sure that this is not always a 
        great consolation, but it is vital that our interlocutors 
        understand it all the same.

  2.  Second, we are not usually concerned with Russia's mere provision 
        of spare parts or its maintenance of military equipment that 
        another country already possesses. We know that many States 
        still possess some Russian arms, and we are certainly not in 
        the business of trying to insist that such countries give up on 
        defending themselves. For CAATSA purposes, we are comfortable 
        with the maintenance of equipment or the provision of spare 
        parts not generally being considered a transaction that is 
        considered significant under Section 231.
      Our concerns begin where and when something more consequential 
        occurs--something such as a major transfer of foreign funds to 
        the Russian defense sector, for instance, or a new shipment of 
        equipment representing a qualitative upgrade in capability, 
        such as an S-400. In such cases, the issue of ``significance'' 
        becomes more problematic, and the risk of mandatory sanctions 
        thus increases. This is the message we have been relaying to 
        interlocutors in our diplomatic outreach, and it is one of 
        which we hope Congress will approve.

  3.  Third, we have also been sending the message that a transaction 
        generally won't be considered significant unless and until a 
        major change in the status quo actually occurs. Just talking 
        about or announcing a Russian arms deal, in other words, is not 
        generally in itself a trigger for Section 231 sanctions. The 
        problem arises when new Russian equipment starts to show up or 
        perhaps when large sums of money begin to change hands.
      We don't expect Russia's arms clients to disavow or renounce 
        their deals. In truth, Russia is not a very good or reliable 
        arms partner on a good day, and even with global suppliers more 
        reputable and reliable than Russia, consummation of a purchase 
        of sophisticated equipment can take a long time and experience 
        detours, obstacles, or reasons to fall apart. If in this new 
        CAATSA environment, Russia's major arms clients never quite 
        finalize their purchase, then the State Department will have 
        nothing about which to have to assess ``significance'' under 
        Section 231 in the first place.

  4.  And speaking of off-ramping, another piece of our diplomatic 
        message has been that even with respect to new equipment, we 
        are not necessarily asking countries immediately to go ``cold 
        turkey'' on Russian arms. We understand that can be very 
        difficult. As long as new deliveries of more advanced equipment 
        don't occur, we have room for some flexibility vis-a-vis new 
        purchases, provided that the overall trend line is demonstrably 
        ``down.'' That is, that such countries are weaning themselves 
        off of the arms transactions that help fund Moscow's 
        adventurism and that create geopolitical partnerships that the 
        Kremlin can thereafter exploit for destabilizing ends.

  5.  With respect to the new CAATSA waiver language in the NDAA, we 
        are glad to have greater flexibility on these issues. At 
        Secretary Pompeo's hearing before this Committee on July 25, 
        Chairman Corker and Senator Cardin emphasized to him that 
        Congress views the new waiver language as narrow--in your 
        words, Mr. Chairman, ``to allow countries that we're dealing 
        with that we wish to buy American military equipment to be 
        weaned off Russian equipment.'' Secretary Pompeo, in turn, made 
        clear his agreement--noting that the new waiver is a way to 
        avoid driving countries with historical Russian entanglements 
        more into Moscow's arms while permitting them ``the capacity of 
        spare parts'' or to ``round out th[e] process'' of weaning 
        themselves of their dependency on Russia. We will use this 
        understanding to guide implementation of Section 231.

  6.  Finally, it's worth pointing out that Section 231 only applies to 
        Russian arms transactions. To the extent that a country 
        contemplating a purchase of advanced Russian equipment can 
        pursue alternative sources of supply in meeting its defense 
        needs, therefore, this is an excellent way to avoid sanctions 
        liability. Purchases from European or other international 
        suppliers of sophisticated weaponry, for instance, would raise 
        no Section 231 concern. Nor, of course, would purchases from 
        the United States--and we are always happy to try to facilitate 
        discussions with relevant U.S. interlocutors about such 
        possibilities.

    These principles help guide our Section 231 diplomacy, and I think 
they are producing some very good results for the United States.
    Mr. Chairman, I am pleased to have had the chance to explain our 
approach to Section 231 of CAATSA, and I look forward to taking your 
questions. Thank you.
        RESPONSES TO WRITTEN QUESTIONS OF SENATOR BROWN
                    FROM SIGAL P. MANDELKER

Q.1. CAATSA Implementation: Many of us on both sides have 
repeatedly urged more assertive implementation of mandatory 
sanctions under CAATSA, in order to deter further Russian 
attacks. I know you have begun to do a bit more in recent 
months, and in some cases would prefer to use EO authorities 
because you see them as more flexible. But there is still a lot 
more that could be done with mandatory CAATSA sanctions.
    Can you give us a more precise sense of what you have 
planned before the elections to signal more powerfully to 
Russia's leaders that they must stop--and what you are 
preparing for generally, in terms of escalation, if the 
Russians continue their aggressive actions through the 
elections and beyond?
    What are the general sanctions areas--banking, energy, 
sovereign debt, sectoral sanctions, or a mix of all of them--
that you think would have the most significant impact on 
Russian behavior?

A.1. Response not received in time for publication.

Q.2. Sovereign Debt: The Treasury Department's unclassified 
report on sovereign debt required by CAATSA noted that, 
``expanding sanctions could hinder the competitiveness of large 
U.S. asset managers and potentially have negative spillover 
effects into global financial markets and businesses.''
    What would be the impact on U.S. interests if we expanded 
sanctions to include dealings in new Russian sovereign debt and 
the full range of derivatives, with a transition period, and 
with certain explicit limits on the term of such debt? What 
would be the impact on global financial markets and businesses, 
and what suggestions do you have for mitigating any unintended 
consequences if we decide to go this route?
    There have been articles, and concerns expressed by my 
colleagues (including at today's hearing) that Treasury and/or 
FinCEN have been delaying the production of material requested 
by Congress and possibly withholding information that was 
requested by Congress--and I mean in response to even 
bipartisan requests. You committed to provide further documents 
requested by the Intelligence Committee immediately, and to 
cooperate on this front. My colleague Senator Warner noted that 
Treasury is 7-8 months behind in some of these document 
requests. My questions to you are these:
    Has Treasury or FinCEN ever intentionally delayed or 
withheld the production of material that was requested by 
Congress?
    Has anyone at Treasury ever directed FinCEN to delay or 
withhold the production of material requested by Congress? If 
so, can you describe those circumstances, and the rationale for 
such action?

A.2. Response not received in time for publication.

Q.3. Going After Putin Assets, and Those of His Cronies: 
Leaving aside the diplomatic consequences, if we were to 
require of banks that they block Putin's personal assets, and 
those of his family members and close associates to whom he's 
transferred assets--like we did years ago with certain 
Iranians--given that they are often so well-hidden in layers of 
dummy corporations and anonymous entities--would that have any 
real effect beyond the symbolic? I gather we have struggled to 
do this for many years, and he has hidden them well. But do we 
at least know who manages his assets for him, and could we not 
go after them with blocking or secondary bank sanctions? Why 
have we not done this already?

A.3. Response not received in time for publication.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR TOOMEY
                    FROM SIGAL P. MANDELKER

Q.1. Some European countries have expressed their opposition to 
the United States' withdrawal from the JCPOA.
    The Treasury Department has indicated that on November 4, 
2018, renewed sanctions on Iran will include those ``on the 
provision of specialized financial messaging services to the 
Central Bank of Iran and Iranian financial institutions,'' per 
the Comprehensive Iran Sanctions and Divestment Act of 2010. 
These services include transactions on the Society for 
Worldwide Interbank Financial Telecommunications (SWIFT) 
network. Please explain, in unclassified terms, what will 
happen if the Treasury department is obligated to prohibit 
SWIFT transactions with the CBI and designated Iranian 
financial institutions but certain SWIFT member organizations 
elect to continue doing so.
    What will be the effect of the European Commission's 
``blocking statute''--a mechanism Jean-Claude Juncker has said 
will ``neutralize the extraterritorial effects of U.S. 
sanctions in the EU''--on European companies doing business 
with Iran?
    Has this changed Treasury's view on the potential impact of 
sanctions on EU firms?

A.1. Response not received in time for publication.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR COTTON
                    FROM SIGAL P. MANDELKER

Q.1. Russia has recently embraced digital currencies, 
particularly Ethereum (see https://cointelegraph.com/news/
suddenly-vladimir-putin-meets-vitalik-buterin-endorses-
ethereum).
    What can policymakers in the U.S. do to ensure that we are 
the leader in developing blockchain and digital currencies 
rather than Russia and China?
    The SWIFT network facilitates cross-border payments through 
its vast messaging system. If the President wants to isolate 
Russia like Iran, is it true that the international SWIFT 
payments network based in Belgium can follow Europe and not 
unplug banks from those countries?
    SWIFT and the EU's cooperation are needed to ensure 
sanctions involving cross-border payments are fully implemented 
(https://www.axios.com/trump-administration-iran-sanctions-
swift-financial-messaging-8fae6cd6-11c9-42a8-9d5b-
6d3140a7ae83.html). The next generation of payment 
infrastructure is likely to involve Blockchain and digital 
assets.
    How can policymakers support American payment companies 
utilizing this technology to ensure this innovation develops 
here and aligns with our national security interests?

A.1. Response not received in time for publication.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
            SENATOR MENENDEZ FROM SIGAL P. MANDELKER

Q.1. In the April 6th sanctions designations, Oleg Deripaska 
was designated pursuant to E.O. 13661 for having acted or 
purported to act for or on behalf of, directly or indirectly, a 
senior official of the Government of the Russian Federation, as 
well as pursuant to E.O. 13662 for operating in the energy 
sector of the Russian Federation economy.
    As you gathered intelligence to build this sanctions 
package, did you examine Mr. Deripaska's interference in the 
United States?
    Did you examine his relationship with Paul Manafort or 
other American citizens?
    The United States has imposed sanctions on the FSB and GRU. 
Please describe the tangible impact of those sanctions.
    How many FSB and GRU officers' accounts have been frozen?
    How much money have these individuals lost access to as a 
result of these sanctions?
    Have any FSB or GRU officer's property in the U.S. been 
seized as a result of these sanctions?
    Please describe your dialogue with those American entities 
who invest in Russian sovereign debt. What specific measures 
have you taken to encourage U.S. entities to not invest in 
Russian sovereign debt?

A.1. Response not received in time for publication.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR TESTER
                    FROM SIGAL P. MANDELKER

Q.1. Economic Effects of Sanctions: What tools does the 
Department of Treasury use to measure the effectiveness of 
sanctions?
    Specifically, what metrics does the Treasury utilize to 
indicate when sanctions have had their intended effect?
    By these measures, have sanctions against Russia under the 
Countering America's Adversaries Through Sanctions Act (CAATSA) 
been successful?

A.1. Response not received in time for publication.

Q.2. Money Laundering: With the understanding that the 
Department of Treasury's Financial Crimes Enforcement Network 
(FinCEN) has no criminal investigative or arrest authority, it 
has data analysis to support investigations and prosecutions of 
financial crimes, and refers possible cases to law enforcement 
authorities when it is warranted. FinCEN also submits requests 
for information to financial institutions from law enforcement 
agencies conducting criminal investigations and has the 
authority to issue civil money penalties.
    Over the last 5 years, how many cases of money laundering 
has FinCEN referred to the Department of Justice or any other 
law enforcement authorities?
    Out of those, how many have involved Russian nationals? Of 
those involving Russian nationals, how many were connected with 
U.S. individuals, LLCs or nonprofits?

A.2. Response not received in time for publication.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARREN
                    FROM SIGAL P. MANDELKER

Q.1. In the conference report attached to the Fiscal Year 2019 
National Defense Authorization Act (NDAA), the Treasury 
Department, in coordination with other agencies, is directed to 
provide a briefing to Congress on the assets owned by Vladimir 
Putin, Russian business persons, and senior Russian Government 
officials, and their immediate family members and proxies. This 
briefing must include the location, value, size, and contents 
of their bank accounts, real estate holdings, and all other 
financial assets, and the shell companies they use to hide 
those assets.
    When will you schedule this briefing?
    Without disclosing intelligence sources and methods, would 
you consider publishing an unclassified report on the assets 
currently held by Putin, Russian business persons, senior 
Russian Government officials, and their immediate family 
members and proxies, and the companies they use to hide those 
assets, on a website of the Treasury Department? If yes, when 
can we expect Treasury to publish that unclassified report? If 
no, please explain why not.
    During their press conference in Helsinki last month, 
Russian President Putin announced that he and President Trump 
``agreed to create the high-level working group that would 
bring together captains of Russian and American business.''
    Can you guarantee that no individual or entity under U.S. 
sanctions will be included in this working group of U.S. and 
Russian business leaders, if this working group is implemented? 
If not, please explain why not.
    Based on the available information, do you believe that 
there is sufficient evidence to impose sanctions under existing 
U.S. law against Russian President Vladimir Putin personally?
    If there is sufficient evidence, why has the Treasury 
Department not imposed sanctions on Vladimir Putin?
    How many waivers have the Treasury Department granted for 
the Countering America's Adversaries Through Sanctions Act 
(CAATSA)? Please describe the parties for whom Treasury has 
granted such waivers.
    Do you believe there is sufficient evidence to impose 
sanctions on the 12 Russian intelligence officers that the 
Justice Department indicted on July 13, 2018, for hacking the 
Democratic National Committee (DNC), the Democratic 
Congressional Campaign Committee (DCCC), and the presidential 
campaign of Hillary Clinton? If yes, does the Treasury 
Department intend to impose sanctions? If not, please explain 
why not.
    The Commerce Department on July 29, 2018, granted Rusal 
America an exemption from aluminum tariffs imposed by President 
Trump. This exemption (exclusion) was reversed one day after I 
wrote to the Commerce Department on August 7, 2018. Commerce 
Department officials indicated that ``they had coordinated with 
the [Office of Foreign Assets Control] in considering the Rusal 
application,'' and that OFAC ``was ultimately the decider on 
whether sanctions should prevent approval of an exclusion.''
    Is this statement by the Commerce Department accurate?
    Has the Commerce Department coordinated with OFAC or any 
other Treasury Department official regarding the eligibility of 
sanctioned companies generally for tariff exemptions?
    Has the Commerce Department coordinated with OFAC or any 
other Treasury Department official regarding the eligibility of 
Rusal America for tariff exemptions?
    Was OFAC ``the decider'' on whether Rusal America or any 
other sanctioned entity should be eligible to receive an 
exemption from the tariffs?
    Did the Treasury Department play any role in the reversal 
of the Rusal America exemption on August 8, 2018? Please 
provide any and all documents in the Department's possession 
related to the July 9, 2018, or August 8, 2018, decisions on 
tariff exemptions for Rusal America.

A.1. Response not received in time for publication.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
            SENATOR DONNELLY FROM SIGAL P. MANDELKER

Q.1. Sanctions Effectiveness: Ms. Mandelker, since the United 
States stepped up sanctions against Russia in 2014, sanctions 
have not changed or moderated the behavior of the Putin 
Government.
    Are you currently holding back from taking enforcement 
actions against Russian entities or individuals that may 
currently be violating sanctions?
    Do you have the staff and resources to implement and 
enforce an effective sanctions regime?
    If provided, would additional staff and resources be used 
to implement and enforce existing sanctions, or to undertake 
additional enforcement actions?

A.1. Response not received in time for publication.

Q.2. North Korea Sanctions Enforcement: Ms. Mandelker, I am 
concerned that our hard work to strengthen North Korea 
sanctions has now gone to waste as Russia and China, among 
others, have relaxed their enforcement efforts. In the case of 
Russia, there are reports that it is still hiring North Korean 
workers and facilitating petroleum shipments.
    Do you think that the sanctions pressure we are currently 
applying is sufficient to achieve our objective of ending North 
Korea's nuclear program?
    Has Russia's and China's enforcement of North Korea 
sanctions improved, remained the same, or worsened since the 
President's summit in Helsinki?
    What steps are you taking to ensure that both Russia and 
China are enforcing sanctions on North Korea?

A.2. Response not received in time for publication.

Q.3. Sanctions on New Russian Sovereign Debt: There are various 
pending legislative proposals to strengthen Russia sanctions, 
including proposals to sanction Russian sovereign debt and 
related derivatives. But Treasury has stated in the past that 
such sanctions could negatively impact U.S. investors.
    Do you think that sanctions on new Russian sovereign debt 
and related derivatives will help to change Putin's calculus?
    Do you think that the EU would be open to implementing 
similar actions?
    As a last resort strategy, some have referred to sovereign 
debt sanctions as the ``nuclear option''. Do you support that 
conclusion, that sanctioning sovereign debt would only be 
considered after all else fails?

A.3. Response not received in time for publication.

Q.4. Beneficial Ownership and Corporate Transparency: Many 
reports have concluded that the U.S. is among the easiest 
countries to create an anonymous shell company. As a result, 
corrupt oligarchs and rogue Nations can often exploit our 
vulnerabilities to evade sanctions and move money through the 
U.S. as a legal business entity.
    To what extent have Russian officials utilized shadow 
companies to access the U.S. financial system?
    Do the use and exploitation of anonymous shell companies 
negatively impact our national security?
    Would legislation requiring corporate beneficial ownership 
transparency increase your ability to effectively apply 
sanctions against corrupt oligarchs and officials?
    In May, FinCEN implemented its Customer Due Diligence (CDD) 
Rule to require financial institutions to identify the 
beneficial owner of legal entity customers. The CDD rule will 
be helpful going forward, but it is not retroactive for 
existing accounts.
    What is the expected impact of the CDD rule on beneficial 
ownership disclosure?
    What additional steps must the United States take to 
eliminate the glaring systemic vulnerability of anonymous shell 
companies that criminals and corrupt foreign officials exploit 
to move money through the financial system?

A.4. Response not received in time for publication.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR SCHATZ
                    FROM SIGAL P. MANDELKER

Q.1. Is the U.S. Government committed to deterring and, if 
necessary, punishing foreign interference in the democratic 
election, processes, or institutions of a treaty ally, 
political ally, or partner Government of the United States?
    If yes, describe the tools that are available to the U.S. 
Government to prevent and punish foreign interference in ally 
and partner Governments in Europe and Eurasia, including the 
existing sanctions authorities that the U.S. Government can 
levy against individuals or organizations suspected of foreign 
interference.
    How does the U.S. Government coordinate with NATO allies 
and the Governments of other political allies and partners to 
share information about suspected foreign interference in 
democratic elections, processes, or institutions?
    What mechanisms exist for the U.S. Government to gather 
information from NATO allies and the Governments of other 
political allies and partners about individuals and 
organizations responsible for foreign interference in 
democratic elections, processes, or institutions overseas?
    Describe how, if at all, the U.S. Government currently 
makes decisions with NATO allies and the Governments of other 
political allies and partners to take actions to punish 
individuals or organizations for foreign interference in 
democratic elections, processes, or institutions overseas.
    Does the U.S. Government face any limitations with 
coordinating with NATO allies and the Governments of other 
political allies and partners as it relates to deterring 
suspected individuals or organizations from or punishing them 
for foreign interference in democratic elections, processes, or 
institutions overseas?
    If yes, what recommendations would you make to Congress to 
ensure that the U.S. Government has sufficient authority to 
coordinate with appropriate foreign Governments concerning 
election interference?

A.1. Response not received in time for publication.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR BROWN
                     FROM CHRISTOPHER KREBS

Q.1. Ongoing Russian cyberattacks on the U.S. have been widely 
reported--as your testimony notes, Homeland Security has issued 
warnings on Russian attempts to penetrate critical 
infrastructure, targeting organizations in the business, 
energy, nuclear, water, aviation, and manufacturing sectors. 
The alerts describe ``multistage intrusion campaigns'' which 
allowed remote access to U.S. energy sector networks, including 
the control systems for energy generation facilities. As you 
said, ``we are facing an urgent, evolving crisis in cyberspace. 
Our adversaries' capabilities online are outpacing our 
stovepiped defenses.''
    Can you describe the nature and scale of these attacks, 
their intensity, purposes, and key targets? Are they deploying 
malware for future use? Reconnaissance? Testing our system 
security? Do we think they could actually take control of any 
utility plants?

A.1. Since at least March 2016, Russian Government cyberactors 
have targeted Government entities and multiple U.S. critical 
infrastructure sectors, including energy, nuclear, commercial 
facilities, water, aviation, and critical manufacturing 
sectors. The U.S. Department of Homeland Security (DHS) and the 
Federal Bureau of Investigation (FBI) characterize this 
activity as a multistage intrusion campaign by Russian 
Government cyberactors who targeted small commercial facility 
networks where they staged malware, conducted spear phishing, 
and gained remote access into energy sector networks. After 
obtaining access, the Russian Government cyberactors conducted 
network reconnaissance, moved laterally, and collected 
information pertaining to industrial control systems, or the 
operational technology that operates our Nation's critical 
infrastructure.
    While significant and concerning, the activity identified 
in these incidents did not put these malicious cyberactors in a 
position to take control of utility plants. Additional 
information on this activity can be found in the joint 
technical alert by DHS and FBI, found online at: https://
www.us-cert.gov/ncas/alerts/TA18-074A.

Q.2. Are your efforts to eliminate the stovepipe problem and 
better coordinate, both within the U.S. Government, and between 
the Federal Government and State and local governments, enough 
to defeat them?

A.2. To break down information stovepipes and ensure cross-
sector approaches to protecting our Nation, the Department's 
specific cybersecurity authorities executed through NPPD--
including authorities related to sharing, analyzing, and 
coordinating actionable information related to cybersecurity 
risks and incidents; protecting Federal information systems; 
and responding to cybersecurity incidents--enable NPPD to 
engage with Federal and non-Federal entities (i.e., all 
stakeholders--public, private, and international) and across 
and beyond all critical infrastructure sectors to 
collaboratively improve cybersecurity practices and protect 
Federal and non-Federal entities from cyber-risks.
    The Homeland Security Act of 2002, and following 
amendments, as well as Executive Branch policies, have 
centralized functions of the Federal Government focused on 
protecting critical infrastructure at the Department of 
Homeland Security (DHS). The Homeland Security Act was amended 
in 2014 and 2015 to codify the role of the Department's 
National Cybersecurity and Communications Integration Center 
(NCCIC) as the Federal-civilian interface for sharing 
information regarding cybersecurity risks and incidents and 
authorize the NCCIC to provide cybersecurity related technical 
assistance, risk management support, and incident response 
capabilities to Federal and non-Federal entities. In a similar 
fashion, the Cybersecurity Act of 2015 also establishes the 
NCCIC as the Federal Government's central hub for sharing 
cyberthreat indicators between the private sector and the 
Federal Government and requires the Department to establish the 
Federal Government's capability and process for sharing 
cyberthreat indicators with both Federal and non-Federal 
entities.
    Cross-sector centralization and coordination of the Federal 
Government's cybersecurity efforts is critical to our Nation's 
national security, economic security, and public health and 
safety. Information regarding cybersecurity threats, 
vulnerability, and incidents must be shared as quickly as our 
adversaries move in cyberspace.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR MORAN
                     FROM CHRISTOPHER KREBS

Q.1. The Federal Information Security Modernization Act of 2014 
(FISMA) expanded and clarified the Department of Homeland 
Security's (DHS) responsibilities in implementation and 
oversight of information security at other Federal agencies 
upon enactment, including the authority to develop, issue, and 
oversee agencies' implementation of ``binding operational 
directives,'' or BODs. With examples of BODs spanning from 
requiring agencies to participate in risk assessments to 
outright banning the use of Kaspersky Lab equipment, it is 
important for Congress to understand DHS's decision-making and 
oversight processes.
    First, please describe how DHS identifies the necessary 
conditions to issue a BOD.
    How does DHS establish and maintain oversight of agencies' 
implementation of the BOD?
    Does DHS have the necessary authorities and capability to 
ensure accountability of BOD implementation across diverse 
agencies?
    How does DHS measure the effectiveness of the BOD?
    Ultimately, how are BODs integrated in a comprehensive 
cybersecurity strategy?

A.1. The Secretary of the U.S. Department of Homeland Security 
(DHS), in consultation with the Director of the Office of 
Management and Budget (OMB), has the authority under 44 U.S.C. 
3553(b)(2) to develop and oversee the implementation of 
binding operational directives (BOD). The Federal Information 
Security Modernization Act (FISMA) includes specific topics for 
BODs, including requirements for reporting security incidents 
to DHS's National Cybersecurity and Communications Integration 
Center (NCCIC), requirements for the contents of the annual 
FISMA reports, requirements for the mitigation of exigent risks 
to information systems, and other operational requirements as 
OMB, or DHS in consultation with OMB, may determine are 
necessary.
    DHS, acting through the National Protection and Programs 
Directorate (NPPD), identifies risks or requirements to be 
addressed through BODs. DHS also accepts ideas for potential 
BODs from entities, such as the Federal Chief Information 
Officer (CIO) Council, independent security researchers, or 
other partners. As needed, DHS may convene a group of subject 
matter experts from Federal agencies, OMB, and the National 
Institute of Standards and Technology to consider the relative 
merits of particular risks in order to determine the 
appropriateness of a given BOD or determine the prioritization 
of different BODs.
    Generally, when determining whether a certain issue is 
appropriate for a BOD, DHS considers the following questions:

  <bullet>  Is the proposed BOD related to an active threat? If 
        so, what is the scope and magnitude of the problem?

  <bullet>  Is the proposed BOD related to a potential 
        identified risk?

  <bullet>  What category/schedule does the potential BOD fit 
        into (planned, escalation of issue, or emergency)?

  <bullet>  Is this issue specific to a particular Federal 
        agency or could it be applicable across the civilian 
        Federal executive branch?

  <bullet>  What is the difficulty to exploit the 
        vulnerability?

  <bullet>  Is the issue/subject sensitive or classified?

  <bullet>  Are external events or threat intelligence driving 
        the need for or request of the proposed BOD?

  <bullet>  Can the proposed BOD be measured and validated by 
        DHS?

  <bullet>  Could the issue or threat be addressed 
        satisfactorily and fully through other mechanisms?

  <bullet>  Has DHS socialized the proposed BOD subject with 
        applicable stakeholders, such as CIO/Chief Information 
        Security Officer (CISO) councils?

  <bullet>  What is the end state of proposed BOD?

  <bullet>  What other operational requirements have been 
        issued by way of policy, guidance, and standards in 
        relation to this BOD?

  <bullet>  Does the BOD address or reemphasize Federal program 
        such as Continuous Diagnostics and Mitigation, 
        EINSTEIN, automated indicator sharing, etc.?

  <bullet>  Is this BOD associated with the requirements for 
        the content of the annual reports required to be 
        submitted by Federal agencies?

  <bullet>  Is this BOD associated with the requirements for 
        reporting incidents to the NCCIC?

  <bullet>  Is there another action that would be more 
        effective than a BOD?

    DHS has found its current authorities to be effective at 
coordinating and driving the timely response and implementation 
of specific BOD requirements but acknowledges that, under 
certain circumstances, DHS will be unable to ensure 
implementation at the agency-level unilaterally. DHS ensures 
Federal agency compliance with BODs using several methods. 
First, BODs have historically been issued by the Secretary to 
Federal agency leadership as high-priority items, and their 
implementation status is followed closely by DHS's senior 
leadership. When implementation issues arise, DHS engages with 
Federal agency CIOs and CISOs. If the agency continues not to 
comply, DHS leadership may engage with his or her counterpart 
at a noncompliant agency. When additional attention is needed, 
DHS may work with OMB. Ultimately, the Secretary or Deputy 
Secretary may, at their discretion, contact their counterparts 
at each noncompliant agency.

    DHS measures BOD effectiveness based on the completion of 
all required tasks by agencies, along with achieving the 
stated, desired end state which is defined by eliminating or 
adequately addressing the identified risk. Throughout the 
development of a BOD, required actions on the part of agencies 
are determined to ultimately minimize or eliminate the risk 
posed by previously identified vulnerabilities. For instance, 
in 2015 the Secretary directed agencies to promptly patch known 
vulnerabilities on their Internet-facing systems. Agencies have 
responded quickly in implementing the Secretary's BOD and have 
sustained this progress. When the Secretary issued this BOD, 
NPPD identified more than 360 ``stale'' critical 
vulnerabilities across Federal civilian agencies, which means 
the vulnerabilities had been known for at least 30 days and 
remained unpatched. Since December 2015, NPPD has identified an 
average of less than 40 critical vulnerabilities at any given 
time, and agencies have addressed those vulnerabilities 
rapidly.
    Consistent with the Department's cybersecurity strategy, 
BODs have addressed cybersecurity priorities requiring 
immediate attention and mandatory action by Federal agencies to 
protect Federal information and information systems. It is 
important to note that BODs are just one tool DHS has at its 
disposal to ensure Federal agencies and their associated 
networks are adequately and properly protected.

Q.2. Your written testimony described the joint efforts of DHS 
and the Federal Bureau of Investigation (FBI) to identify 
practices of Russian Government actors targeting certain 
entities that eventually become ``pivot points'' to leverage 
access to major, high-value assets operating the Nation's 
infrastructure.
    What have been some of the priority recommendations that 
DHS and FBI have provided network defenders to reduce exposure 
to this malicious, yet strategic, exposure?

A.2. Since at least March 2016, Russian Government cyberactors 
have targeted Government entities and multiple U.S. critical 
infrastructure sectors, including energy, nuclear, commercial 
facilities, water, aviation, and critical manufacturing 
sectors. The U.S. Department of Homeland Security (DHS) and the 
Federal Bureau of Investigation (FBI) characterize this 
activity as a multistage intrusion campaign by Russian 
Government cyberactors who targeted small commercial facility 
networks where they staged malware, conducted spear phishing, 
and gained remote access into energy sector networks. After 
obtaining access, the Russian Government cyberactors conducted 
network reconnaissance, moved laterally, and collected 
information pertaining to industrial control systems, or the 
operational technology that operates our Nation's critical 
infrastructure.
    Additional information on this activity can be found in the 
joint technical alert by DHS and FBI, found online at: https://
www.us-cert.gov/ncas/alerts/TA18-074A.
    Recommendations provided to network defenders include 
monitoring for known indicators of compromise, active defense 
for spear-phishing and watering hole intrusion vectors, 
blocking all outbound server message block network traffic, 
requiring the use of multifactor authentication for all 
external interfaces, use of malware signatures, and other 
recommended courses of action provided within the technical 
alert.

Q.3. Your written testimony mentions the collaborative efforts 
of DHS with private industry actors to improve assessment, 
detection, protection, and mitigation of cyberthreats, 
including Executive Order 13800.
    What are some of the best examples of public-private 
partnerships that the agency has been a part of (that you are 
able to share with this Committee)? What exactly were those 
partnership able to achieve?

A.3. Executive Order 13800, Strengthening the Cybersecurity of 
Federal Networks and Critical Infrastructure, recognizes that 
effective cybersecurity requires entities to identify, detect, 
respond, and, when necessary, recover from cyberintrusions. 
Through outreach to stakeholders, the U.S. Department of 
Homeland Security (DHS) is sharing cybersecurity threat 
information and assisting with the prioritization and 
mitigation of cybersecurity risks.
    DHS leads efforts to defend our Nation's critical 
infrastructure from cyberthreats. Today's infrastructure is 
more complex and dynamic with interdependencies that increase 
the challenge of reducing risk and ensuring resiliency. DHS not 
only shares unclassified and classified cyberthreat information 
as well as providing a full range of technical assistance 
capabilities, but also closely coordinates with our Federal 
partners, including intelligence agencies, law enforcement, and 
sector-specific agencies.
    The National Cybersecurity and Communications Integration 
Center (NCCIC) fosters a strong network of trusted global 
partnerships. The NCCIC routinely collaborates with these 
trusted partners to share information, coordinate actions, 
conduct analysis, and develop common processes and joint plans. 
The NCCIC offers a portfolio of no-cost products and services 
organized around its core functions. Some examples include the 
Industrial Controls Systems Joint Working Group to facilitate 
information sharing and to reduce the cyber-risk to the 
Nation's industrial control systems; the Cyber Information 
Sharing and Collaboration Program enables actionable, relevant, 
and timely unclassified information exchange through trusted 
public-private partnerships across all critical infrastructure 
sectors; the automated indicator sharing capability enables the 
exchange of cyberthreat indicators between and among the 
Federal Government and the private sector at machine speed; and 
the Enhanced Cybersecurity Services is an intrusion detection 
and prevention capability that is available to U.S.-based 
entities and State, local, tribal, and territorial government 
organizations.

Q.4. With the support of the Administration and colleagues from 
both sides of the aisle, I was successful in getting the 
Modernizing Government Technology (MGT) Act signed into law as 
part of the National Defense Authorization Act for FY2018. The 
law addresses the foundational cybersecurity threats that 
outdated legacy systems in our Federal agencies pose.
    Would you agree that outdated, unsupported legacy IT 
systems pose a serious threat to the information security of 
our Federal agencies?

A.4. Yes, the challenges posed by outdated, end-of-life (EOL), 
legacy Federal information technology systems create serious 
risks to the information security of our Federal agencies. For 
instance, the issue has been apparent in the implementation of 
the U.S. Department of Homeland Security's (DHS) Binding 
Operational Directives (BOD). As an example, during the 
implementation of BOD 15-01 (Mitigating Critical 
Vulnerabilities) and BOD 16-02 (Securing Network Infrastructure 
Devices), DHS identified and monitored dozens of EOL systems. 
Some legacy systems could no longer be patched, others were not 
supported by the vendor, and some experienced significant 
performance issues if not reconfigured during the security 
upgrade and enhancement process. Most legacy systems are simply 
not designed for the current environment and the need for 
modern security approaches. Fortunately, in most cases, DHS and 
the agency were able to address these issues and either 
upgrade, transition, or mitigate.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR TESTER
                     FROM CHRISTOPHER KREBS

Q.1. Please provide a detailed list of what DHS has taken to 
date in order to improve election security in the State of 
Montana since the 2016 election cycle.

A.1. The U.S. Department of Homeland Security (DHS) engages 
with non-Federal entities, such as the State of Montana, to 
share cybersecurity information and provide technical 
assistance on a voluntary basis. Successful voluntary 
partnerships require trust and confidentiality. As such, DHS 
generally defers to individual entities to respond to questions 
regarding details of an incident or steps that an entity may 
have taken to mitigate vulnerabilities.

Q.2. To the best of your knowledge, has the State of Montana 
implemented any of the suggested election security improvements 
offered by DHS?

A.2. As noted in the previous response, DHS generally defers to 
individual entities to respond to questions regarding details 
of an incident or steps that an entity may have taken to 
mitigate vulnerabilities.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR BROWN
                    FROM CHRISTOPHER A. FORD

Q.1. CAATSA Implementation: Many of us on both sides have 
repeatedly urged more assertive implementation of mandatory 
sanctions under CAATSA, in order to deter further Russian 
attacks. I know you have begun to do a bit more in recent 
months, and in some cases would prefer to use EO authorities 
because you see them as more flexible. But there is still a lot 
more that could be done with mandatory CAATSA sanctions.
    Can you give us a more precise sense of what you have 
planned before the elections to signal more powerfully to 
Russia's leaders that they must stop--and what you are 
preparing for generally, in terms of escalation, if the 
Russians continue their aggressive actions through the 
elections and beyond?

A.1. The Department of State has made it clear to the Russian 
Government at the highest levels that any efforts to interfere 
in the 2018 midterm elections will not be tolerated and will be 
met with severe consequences. While the Department's mandate is 
to lead on foreign policy, we will continue to support the 
efforts of the Departments of Homeland Security and Justice--
and, as appropriate, State and local officials--to secure our 
elections, leveraging all necessary and available Department 
resources and tools to counter Russian malign influence.

Q.2. What are the general sanctions areas--banking, energy, 
sovereign debt, sectoral sanctions, or a mix of all of them--
that you think would have the most significant impact on 
Russian behavior?

A.2. We have robust sanctions authorities at our disposal, 
which we are using in close coordination with our allies and 
partners to impose costs on Russia for the entirety of its 
malign behavior. Sanctions are a powerful foreign policy tool, 
and are most impactful when used in coordination with allies 
and partners to maximize their effectiveness. Sanctions have 
the strongest impact when tied to a clear foreign policy goal, 
and used in tandem with diplomatic outreach. Providing the 
State Department with flexibility in implementation allows us 
to engage with allies, maintain unity, and maximize sanctions 
pressure on Russia. For example, the threat of sanctions under 
CAATSA Section 231 has prompted other States to abandon 
billions of dollars in planned or announced arms deals with 
Russia, imposing additional financial costs on the Russian 
Government. As a result, Russia has fewer resources with which 
to finance its influence campaigns.

Q.3. Maintaining Multilateral Support for Sanctions: It's clear 
that enlisting other countries in our efforts to push back on 
Russian aggression--including countries like France, Germany, 
Britain, the Baltic States, and others who have been victimized 
by Russian aggression--is critical. They also have a huge stake 
in ensuring Russia abides by international law in Crimea and 
Ukraine, and in protecting their own elections and 
infrastructure systems.
    Can you describe precisely what we are doing to enlist the 
support of other countries in our efforts to impose real costs 
on continuing Russian aggression across the board, in all these 
areas?

A.3. We work closely with partners and allies to respond to 
Russian aggression, share best practices, expose Russian 
campaigns and tactics, and build collective resilience. We work 
both on a bilateral and multilateral basis to achieve these 
goals. For example, the coordinated expulsion of Russian 
officers from 28 countries and NATO in response to the 
Salisbury attack on Sergei and Yulia Skripal sent a strong 
message to Russia that its destabilizing and brazen activity 
will not be tolerated by the international community. 
Additionally, we support multilateral efforts to share 
information and build collective resilience, such as at the 
European Center for Countering Hybrid Threats in Helsinki. We 
have exposed Russian malicious cyberactivity publicly, in 
concert with partners.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR TOOMEY
                    FROM CHRISTOPHER A. FORD

Q.1. Some European countries have expressed their opposition to 
the United States' withdrawal from the JCPOA.
    The Treasury Department has indicated that on November 4, 
2018, renewed sanctions on Iran will include those ``on the 
provision of specialized financial messaging services to the 
Central Bank of Iran and Iranian financial institutions,'' per 
the Comprehensive Iran Sanctions and Divestment Act of 2010. 
These services include transactions on the Society for 
Worldwide Interbank Financial Telecommunications (SWIFT) 
network. Please explain, in unclassified terms, what will 
happen if the Treasury department is obligated to prohibit 
SWIFT transactions with the CBI and designated Iranian 
financial institutions but certain SWIFT member organizations 
elect to continue doing so.
    What will be the effect of the European Commission's 
``blocking statute''--a mechanism Jean-Claude Juncker has said 
will ``neutralize the extraterritorial effects of U.S. 
sanctions in the EU''--on European companies doing business 
with Iran?
    Has this changed Treasury's view on the potential impact of 
sanctions on EU firms?

A.1. Response not received in time for publication.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR COTTON
                    FROM CHRISTOPHER A. FORD

Q.1. Russia has recently embraced digital currencies, 
particularly Ethereum (see https://cointelegraph.com/news/
suddenly-vladimir-putin-meets-vitalik-buterin-endorses-
ethereum).
    What can policymakers in the U.S. do to ensure that we are 
the leader in developing blockchain and digital currencies 
rather than Russia and China?

A.1. The Department of State is closely monitoring both the 
development and deployment of this technology. U.S. private 
sector companies have made the United States a global leader in 
this emerging technology. Supporting a strong and open U.S. 
innovation ecosystem, pursuing promarket approaches, removing 
barriers to innovation, and preserving the freedom to pursue 
new ideas and business models will allow us to continue to lead 
blockchain innovation now and in the future. In contrast to 
State-led national planning for technological development, our 
light-touch and flexible approach allows the best technical 
solutions to succeed in the marketplace, while our 
multistakeholder approach to policymaking also ensures that all 
viewpoints can be taken into account.

Q.2. The SWIFT network facilitates cross-border payments 
through its vast messaging system. If the President wants to 
isolate Russia like Iran, is it true that the international 
SWIFT payments network based in Belgium can follow Europe and 
not unplug banks from those countries?

A.2. We consistently review all components of the international 
banking system, including developing payment infrastructures. 
We are closely engaged with our European allies in finding a 
way forward to end Russia's destabilizing behavior. 
Transatlantic unity is the cornerstone of our sanctions against 
Russia. Providing the State Department with flexibility in 
implementation allows us to engage with allies, maintain unity, 
and maximize sanctions pressure on Russia.
    We have robust sanctions authorities at our disposal. We 
are using these authorities in close coordination with our 
allies and partners to impose costs on Russia for the entirety 
of its malign behavior.

Q.3. SWIFT and the EU's cooperation are needed to ensure 
sanctions involving cross-border payments are fully implemented 
(https://www.axios.com/trump-administration-iran-sanctions-
swift
-financial-messaging-8fae6cd6-11c9-42a8-9d5b-
6d3140a7ae83.html). The next generation of payment 
infrastructure is likely to involve Blockchain and digital 
assets.
    How can policymakers support American payment companies 
utilizing this technology to ensure this innovation develops 
here and aligns with our national security interests?

A.3. The U.S. Government encourages the development of new 
technologies by our innovative private sector. Innovation and 
creativity are the hallmarks of our private sector and U.S. 
industry has continually shown the ability to adopt new 
technologies to drive economic growth. Blockchain technology 
has potential to help U.S. industry in several areas including 
securing transactions, supply chain management, and the 
financial sector, just to name a few. We will continue to 
monitor the development of and the private sector's 
applications of this innovative technology.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
           SENATOR MENENDEZ FROM CHRISTOPHER A. FORD

Q.1. The FY2019 National Defense Authorization Act includes a 
reporting requirement in Section 1294(c) regarding executive 
branch sanction determinations under Section 231 of CAATSA. Do 
I have your commitment that this report will be delivered to 
Congress on or before the 90-day deadline mandated in the law?

A.1. The law requires the report to be submitted by the 
President. I am committed to providing the President or his 
delegate whatever information and support is needed to prepare 
and submit the report as required by law.

Q.2. Can you put a dollar amount on the Russian arms deals that 
you have been able to turn off as a result of Section 231?

A.2. We estimate that we have so far deterred several billion 
dollars in Russian arms deals as a result of our Section 231 
implementation efforts.

Q.3. Secretary Mattis was an ardent supporter of the new CAATSA 
waiver language with respect to Section 231 that was included 
in the FY2019 National Defense Authorization law. Has he also 
supported State's efforts to wean Governments from purchasing 
Russian equipment? If so, how has he specifically supported 
your efforts?

A.3. Secretary Mattis has been a strong voice in encouraging 
partner countries to end defense relationships with Russia and 
to seek an alternative source of supply. I refer you to the 
Department of Defense for any additional details on Secretary 
Mattis' efforts.

Q.4. How specifically has the State Department engaged and 
coordinated with the Defense Department on discouraging all 
significant transactions with the Russian defense industry?

A.4. The Defense Department is an integral part of the 
interagency process for implementing CAATSA Section 231. We 
coordinate with the Defense Department on our engagement with 
partners and allies related to CAATSA Section 231.

Q.5. On August 24, A.A. Mikheev, the Director General of 
Rosoboronexport said that contracts were under negotiation with 
India on the S-400 air defense system, 48 Mi-17 helicopters, 
and joint production of KA-226T helicopters. Do you assess that 
these contracts are indeed under negotiation?

A.5. We are aware of the public reporting on this issue but 
will not speculate on the status of any deals that may be the 
subject of discussions between Russia and India. We have 
discussed CAATSA Section 231 extensively with the Government of 
India, and the United States is working with all partner and 
allied countries, including India, to discourage them from 
engaging in major defense purchases from Russia.

Q.6. Do you assess that India and Rosobornexport are 
negotiating contracts for other defense equipment, not 
mentioned above?

A.6. I cannot speculate on the status of any further deals that 
may be the subject of discussions between Russia and India. 
However, we are aware that Russia is actively and publicly 
seeking to undermine U.S. sanctions, including by continuing to 
actively market weapons systems and other military equipment 
around the world. With regard to India, our focus is on 
discouraging them from engaging in major defense purchases from 
Russia.

Q.7. If these contracts and transfers are completed, how do you 
assess they will affect U.S. defense cooperation with India, 
which the Pentagon reports has increased to significant levels 
in recent years?

A.7. Our focus is on encouraging all partner and allied 
countries, including India, to not engage in sanctionable 
activity, so as to avoid the need for the imposition of 
sanctions under CAATSA 231. I cannot comment specifically on 
how U.S. defense cooperation with India will be affected if 
these purported transactions are completed.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR SCHATZ
                    FROM CHRISTOPHER A. FORD

Q.1. Is the U.S. Government committed to deterring and, if 
necessary, punishing foreign interference in the democratic 
election, processes, or institutions of a treaty ally, 
political ally, or partner Government of the United States?

A.1. Yes. The Department works closely with partners and allies 
to build collective resilience, share best practices, and 
respond to Russian attempts to interfere in democratic 
processes and institutions. The Administration has made it 
clear that such interference is unacceptable.

Q.2. If yes, describe the tools that are available to the U.S. 
Government to prevent and punish foreign interference in ally 
and partner Governments in Europe and Eurasia, including the 
existing sanctions authorities that the U.S. Government can 
levy against individuals or organizations suspected of foreign 
interference.

A.2. The Department is committed to responding to Russian 
aggression, including its malign influence campaigns, and is 
committed to utilizing political, economic, diplomatic, and law 
enforcement tools in response. Since January 2017, the Trump 
administration has sanctioned 229 individuals and entities in 
Russia in response to its destabilizing behavior. We are also 
focused on leveraging our public diplomacy, foreign assistance, 
and diplomatic resources to improve the resilience of our 
partners and allies, as well as on sharing best practices and 
supporting multilateral efforts to build up our collective 
defenses.

Q.3. How does the U.S. Government coordinate with NATO allies 
and the Governments of other political allies and partners to 
share information about suspected foreign interference in 
democratic elections, processes, or institutions?

A.3. We work closely with NATO allies to share information 
regarding Russian aggression. This includes discussing best 
practices, exposing Russian disinformation campaigns and 
tactics, and building collective resilience. Additionally, we 
support broader multilateral efforts to share information and 
build resilience, such as at the European Center of Excellence 
for Countering Hybrid Threats in Helsinki. We also work to 
expose Russian malicious cyberactivity publicly, in concert 
with allies.

Q.4. What mechanisms exist for the U.S. Government to gather 
information from NATO allies and the Governments of other 
political allies and partners about individuals and 
organizations responsible for foreign interference in 
democratic elections, processes, or institutions overseas?

A.4. NATO allies share information on common threats with each 
other on a regular basis. At the Warsaw Summit in July 2016, 
Heads of State and Government agreed to establish a new Joint 
Intelligence and Security Division (JISD), which merges civil 
and military intelligence functions in order to improve NATO's 
ability to draw on a wide range of intelligence resources. 
JISD, led by the Assistant Secretary General for Intelligence 
and Security, has improved NATO's ability to facilitate timely 
and relevant support to Allied decision-making and operations, 
particularly on terrorism, hybrid warfare, and cyberthreat 
issues.

Q.5. Describe how, if at all, the U.S. Government currently 
makes decisions with NATO allies and the Governments of other 
political allies and partners to take actions to punish 
individuals or organizations for foreign interference in 
democratic elections, processes, or institutions overseas.

A.5. At the NATO Summit in Brussels, we joined our NATO allies 
in affirming our shared concerns regarding threats from State 
and non-State actors who use hybrid activities that aim to 
create ambiguity and blur the lines between peace, crisis, and 
conflict. While NATO allies acknowledge that the primary 
responsibility for responding to hybrid threats rests with the 
targeted Nation, NATO stands ready, upon decision by the North 
Atlantic Council, to assist an Ally at any stage of a hybrid 
campaign. In Brussels allies announced the establishment of 
counterhybrid support teams, to provide tailored, targeted 
assistance to allies, upon their request, in preparing for and 
responding to hybrid activities.

Q.6. Does the U.S. Government face any limitations with 
coordinating with NATO allies and the Governments of other 
political allies and partners as it relates to deterring 
suspected individuals or organizations from or punishing them 
for foreign interference in democratic elections, processes, or 
institutions overseas?

A.6. The Department works closely with partners and allies to 
build collective resilience, share best practices, and respond 
to Russian attempts to interfere in democratic process and 
institutions. We utilize bilateral and multilateral engagements 
to coordinate efforts and response with partner Governments and 
NATO allies. There are no institutional limitations on this 
coordination.

Q.7. If yes, what recommendations would you make to Congress to 
ensure that the U.S. Government has sufficient authority to 
coordinate with appropriate foreign Governments concerning 
election interference?

A.7. Transatlantic unity is the cornerstone of our sanctions 
against Russia; providing the State Department flexibility in 
implementation allows us to engage with allies, maintain unity, 
and maximize sanctions pressure on Russia.

Q.8. Describe the U.S. Government's interpretation of its 
commitment to protect the political independence of NATO 
members, as it relates to the North Atlantic Treaty of 1949.

A.8. Maintaining such independence lies at the core of the 
Alliance, and the Washington Treaty obliges all allies to 
advance and defend the institutions that guarantee such 
independence. Under Article 2 of the Treaty, all allies commit 
to ``contribute toward the further development of peaceful and 
friendly international relations by strengthening their free 
institutions, by bringing about a better understanding of the 
principles upon which those institutions are founded, and by 
promoting conditions of stability and well-being.'' Article 4 
provides that the allies shall consult if, ``in the opinion of 
any of them, the territorial integrity, political independence 
or security of any of the Parties is threatened.'' And in the 
event that such independence is threatened by means of an armed 
attack, Article 5 States that ``the parties agree that an armed 
attack against one or more of them in Europe or North America 
shall be considered an attack against them all.'' In such case, 
each Party is obligated to ``assist the Party or Parties so 
attacked by taking forthwith, individually and in concert with 
the other Parties, such action as it deems necessary, including 
the use of armed force.''
    The President, Vice President, Secretaries of State and 
Defense, and the Chairman of the Joint Chiefs of Staff have all 
reiterated that the U.S. commitment to these treaty obligations 
is ironclad. If allies agree that an armed attack has occurred 
within the meaning of Article 5, the United States will adhere 
to our treaty commitments and respond as appropriate with our 
NATO allies.

Q.9. In your view, would NATO's collective defense commitment 
to protect the political independence of member States be 
better served with an affirmative policy that treats foreign 
interference in the democratic election, processes, or 
institutions of one member as an effort to undermine the 
political independence of all members and their democratic 
institutions?

A.9. Article 4 of the Washington Treaty provides that the 
allies shall consult when, ``in the opinion of any of them, the 
territorial integrity, political independence or security of 
any of the Parties is threatened'' in any manner, and the 
United States welcomes consultation with allies in such 
circumstances. The specific collective defense obligation of 
Article 5, however, is only activated in response to an armed 
attack. Over the past 69 years since the Alliance was formed, 
the allies' understanding of what could constitute an armed 
attack has included terrorism, cyberattacks, and hybrid 
attacks. A precise determination would depend on the specific 
facts at hand, and be made collectively by all the allies.

Q.10. If yes, would the Administration support an effort to 
develop a multinational sanctions regime under NATO to impose 
punishment on individuals or organizations suspected of 
interfering in the democratic election, processes, or 
institutions of any NATO member?

A.10. While primary responsibility for this issue within the 
Department of State rests with EUR Assistant Secretary A. Wess 
Mitchell, the Under Secretary for Political Affairs, and 
Secretary Pompeo, my understanding is that, if requested by an 
Ally under Article 4, the United States would welcome an 
opportunity to consult with allies regarding an appropriate 
response.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
